                                                                                       FY 2007 United States Army Annual Financial Statements – Restated Civil Works Financials
                        The Soldier’s Creed
                               I am an American Soldier.
                       I am a Warrior and a member of a team.
                        I serve the people of the United States
                               and live the Army Values.

                         I will always place the mission ﬁrst.
                                I will never accept defeat.
                                       I will never quit.
                          I will never leave a fallen comrade.

                       I am disciplined, physically and mentally
                      tough, trained and proﬁcient in my warrior
                         tasks and drills. I always maintain my
                            arms, my equipment and myself.

                       I am an expert and I am a professional.

                        I stand ready to deploy, engage, and
                      destroy the enemies of the United States
                             of America in close combat.

                         I am a guardian of freedom and the
                                American way of life.

                              I am an American Soldier.                               2007
                                                                                                                                                                                  FY 2007 United States Army Annual Financial Statements – Restated Civil Works Financials



United States Army : 1500 Army Pentagon : Washington, DC, 20310-1500 : www.army.mil                                                                                               Commitment to Current and Future Readiness
                                                                                                                                        We are interested in your feedback regarding the content of this report.
                                                                                                                                     Please feel free to e-mail your comments to AAFS@hqda.army.mil or write to:

                                                                                                                                                           Department of the Army
                                                                                                                                                      Office of the Deputy Assistant Secretary of the Army
                                                                                                                                                           (Financial Management and Comptroller)
                                                                                                                                                         Office of the Financial Reporting Directorate
                                                                                                                                                               Room 3A312, 109 Army Pentagon
                                                                                                                                                                  Washington, DC 20310-0109

                                                                                                                                        Additional copies of this report can be obtained by sending a written request to
                                                                                                                                                           the e-mail or mailing address listed above.
About the Cover
Bottom Image: Soldiers from the 3rd Brigade Combat Team, 25th Infantry Division. The smoke is from a controlled IED detonation.
                                                                                                                                     You may also view this document at: http://www.asafm.army.mil/fo/fod/cfo/cfo.asp
Top Image: Soldiers from the 58th Brigade Combat Team practice room-clearing procedures during training.


                                                                                                                                  *Unless otherwise noted, all photos on the cover and inside pages are courtesy of the U.S.Army.
    Contents
    Overview                                                                                      ii
    An Introduction to Financial Statements                                                       ii
    April 2008 Message from Assistant Secretary of the Army
    (Civil Works)                                                                                 v
    April 2008 Message from the USACE Chief Financial Ofﬁcer                                  vii
    Civil Work’s Fund – Management’s Discussion & Analysis                                        1
    Civil Works Principal Financial Statements and Notes                                     27
    Civil Works Auditor’s Report                                                             77


    The CD-ROM attached to the back cover contains the full Fiscal Year 2007 United States Army
    Annual Financial Statement, including:

    As originally published:

       November 2007 FY 2007 United States Army Annual Financial Statement
        — 	 November 2007 Message from the Secretary of the Army
        — 	 November 2007 Message from the Assistant Secretary of the Army 

            (Financial Management & Comptroller)

        — 	 November 2007 Message from the Assistant Secretary of the Army (Civil Works)
        — 	 Management’s Discussion and Analysis
            - Overview
            - Mission, Vision and Organization of the Army
            - Performance Goals, Objectives and Results
            - Analysis of Financial Statements and Stewardship Information
            - Possible Future Effects of Existing Conditions
i       — 	 General Fund FY 2007 Principal Financial Statements, Notes and Supplementary
            Information
            - Auditor’s Report on Army General Fund (Disclaimed Opinion)
        — 	 Army Working Capital Fund FY 2007 Principal Financial Statements Notes and
            Supplementary Information
            - Auditor’s Report on Army Working Capital Fund (Disclaimed Opinion)

    Revised March 31, 2008 Civil Works section, as contained in this printed publication:

       Civil Works Management’s Discussion and Analysis
       Civil Works Principal Financial Statements and Notes (Restated)
       Auditor’s Report on the Civil Works Fund (Qualiﬁed Opinion)




                                                                  Commitment to Current and Future Readiness
Civil Works Fund
FY 2007 United States Army Annual Financial Statements – Restated Civil Works Financials




On March 31, 2008, the Department of Defense Office of Inspector General issued a qualified audit opinion on the United States
Army Corps of Engineers (USACE) Civil Works annual financial statements for fiscal years (FY) 2007 and 2006. This represents a
significant accomplishment and milestone for USACE and the overall Army. In terms of General Property, Plant and Equipment, the
Civil Works Fund is perhaps the largest federal entity yet to achieve a favorable audit opinion, with a net book value exceeding $26
billion. Achieving a qualified audit opinion was a formidable challenge which required persistence and determination from the Corps’
financial management community over many years.

This publication contains the restated and audited USACE financial statements and notes and the auditor’s report. It replaces the
original FY 2007 USACE financial statements submitted to the Office of Management and Budget on November 13, 2007.


An Introduction to Financial Statements
The Army, along with most other federal entities, publishes financial statements as required by laws in existence since the early 1990s.
The United States (U.S.) Congress recognizes the need to display, in a public forum, stewardship and accountability over taxpayer
funds and drive more transparency into the financial management function. Another aspect of the legislation was to improve the
quality and availability of financial data in order to evaluate the efficiency and effectiveness of programs as measured against specific
performance measures and goals. Financial statements should provide complete, consistent, reliable and timely information that can
be used for decision making.

A key measure of the quality information on the financial statements is the independent auditor’s opinion. The auditor may express
one of the four following opinions:
     1) Unqualified opinion – the financial statement is free from significant misstatement and complies with accounting standards;
     2) Qualified opinion – the financial statement contains exceptions that are not considered material enough to affect the
        fairness of the statements;
     3) Adverse opinion – the financial statement contains exceptions considered too serious or pervasive to justify a qualified
        opinion; or
     4) Disclaimer of opinion – the auditor is unable to obtain sufficient information upon which to base an opinion.

The Army General Fund and ArmyWorking Capital Fund receive a disclaimer of opinion due to substantial weaknesses that must, to
a large extent, be remedied by modernized financial management systems. Achieving an audit opinion has been, and will continue
to be, a complex undertaking. While an unqualified opinion is certainly the end-goal, the improvements needed to achieve an
unqualified opinion will yield exponential benefits. The changes required to achieve an opinion are vast, and impact all aspects of the
Army’s business, including changes and improvements to organizations (who), functions (what), processes (how), systems (where)
and policies (why).                                                                                                                         ii

Accountability to taxpayers is only one of the reasons the Army must demand quality financial information; supporting Army
leadership and decision makers is equally important. Army leaders need quality information with which to operate efficiently and
effectively. Accountability and performance are directly linked, and the key to accountability is quality information—particularly
quality financial information.

The Army publishes three sets of financial statements – one each for the Army General Fund,ArmyWorking Capital Fund, and the
Civil Works Fund.

The Army General Fund finances military operations and supporting services, personnel, facilities, procurement, research and
development, and nearly every other function required to keep the Army operating. It is the largest Army fund with a majority of its
revenue coming from congressional appropriations.
      The ArmyWorking Capital Fund (AWCF) is a revolving fund, which operates much like a business, deriving income from, and
      incurring costs for, operations without fiscal year limitation. A working capital fund is a financial management structure used to
      promote total cost visibility and full cost recovery of support services rendered to the Army’s operating forces.

      The AWCF consists of two primary activities – Industrial Operations and Supply Management. Industrial Operations provides
      the Army with an organic industrial capability to repair, overhaul, modify and upgrade weapon systems and component parts, and
      produce armaments and munitions. Supply Management provides the Army with inventory and acquisition management of spare and
      repair parts in support of equipment sustainment, operational readiness and combat capability.

      The Civil Works mission is to contribute to the national welfare and serve the public by providing the nation and the Army with
      quality, responsive development and management of the environment; disaster response and recovery; and engineering and
      technical services. The mission is accomplished in an environmentally sustainable, economic and technically sound manner through
      partnerships with other governmental agencies and nongovernmental organizations.

      There are four principal financial statements for each fund – the Balance Sheet, the Statement of Net Cost, the Statement of Changes
      in Net Position, and the Statement of Budgetary Resources.

      The Balance Sheet provides a point-in-time snapshot of an entity’s assets and liabilities. The purpose of the Statement of Net Cost
      is to display the total costs and associated revenues associated with Army programs and organizations. Since the Army is currently
      unable to separately identify programs or organizations due to system limitations, the Statement of Net Costs is presented at a
      summary level. The Statement of Changes in Net Position presents the manner in which the Army’s net costs were financed, while
      the Statement of Budgetary Resources displays funding available to the Army and the status of those funds.


           Please refer to the attached CD-ROM for the full set of ﬁnancial statements, the accompanying notes, and the 

           independent auditor reports for the Army General Fund, Army Working Capital Fund and the Civil Works Fund. 





iii




                                                                                                           Commitment to Current and Future Readiness
Assistant Secretary of the Army (Civil Works)
FY 2007 United States Army Annual Financial Statements – Restated Civil Works Financials




Commitment to Current and Future Readiness





                                                                                           v
                                                                                                                               April 2008


                                                      Message from the Assistant Secretary of the Army
                                                      (Civil Works)
                                                      I am very pleased to have worked with the Army Corps of Engineers since first
                                                      coming to this office in August 2003. Over the intervening years, the Corps has
                                                      served the Nation well in developing and restoring its water and related resources.

                                                      The Corps is most often recognized by the infrastructure it builds, such as navigation
                                                      locks, flood control dams, hydroelectric power plants and recreation facilities, to
                                                      name a few. What is not evident by these physical structures is the hard work that
                                                      is done in the financial management arena to ensure that the Corps is accountable
                                                      for the cost of the projects that it constructs. The Corps is a large and diverse
                                                      organization, with over 24,000 people working on Civil Works projects spread over
                                                      eight regional divisions and 38 district offices. Managing the financial statements in a
                                                      consistent manner is no small task, and I am extremely proud that the Corps was able
    to achieve a qualified audit opinion for its FY 2006 and 2007 Civil Works financial statements.

    The opinion is a very important milestone of the Chief Financial Officers Act and the President’s Management Agenda, marking the
    first time that a major component of the Defense Department has received an audit opinion of any kind — qualified or not. I cannot
    say enough about the outstanding members of the Corps’ accounting team who have worked long and hard toward this tremendous
    achievement. It truly has been a pleasure to work with such dedicated stewards of the taxpayers’ money.




                                                    John Paul Woodley, Jr.
                                                    Assistant Secretary of the Army (CivilWorks)




v




                                                                                                          Commitment to Current and Future Readiness
Chief Financial Ofﬁcer
FY 2007 United States Army Annual Financial Statements – Restated Civil Works Financials




Commitment to Current and Future Readiness





                                                                                           vii
                                                                                                                              April 2008


                                                      Message from the USACE Chief Financial Ofﬁcer
                                                      This is the 17th consecutive year that the U.S.Army Corps of Engineers (USACE) has
                                                      prepared financial statements under the Chief Financial Officers (CFO) Act of 1990.
                                                      This report summarizes our performance in delivering the mission of USACE and
                                                      demonstrates our financial integrity through accounting statements. However, this
                                                      year is different. The Department of Defense (DoD) Inspector General has issued
                                                      a “qualified opinion” on USACE Civil Works fiscal years 2007 and 2006 financial
                                                      statements.

                                                      I am proud to announce that, with over $40 billion in total assets, USACE is the first
                                                      major DoD activity to receive a favorable audit opinion. Funding USACE’s current
                                                      and future programs is serious business and has never been more important than
                                                      during this period of transformation. The decisions that our leaders make as they
                                                      allocate funds that will contribute to the primary Army civil works missions in the
     areas of safety, security, and economy of our great Nation, must be based upon relevant and reliable information. Providing such
     information is central to the mission of USACE financial managers.

     While this is good and validates that USACE is the DoD leader in financial management, it is time to move on to great. In fiscal
     year 2008, we intend to improve upon the quality of the data we offer our leaders and stakeholders, so that they can make superior
     business decisions. We look forward to the audit of fiscal year 2008 USACE financial statements, while we are engaged in addressing
     outstanding audit issues. These improvement actions will help us progress toward CFO Act compliance and move us closer to a
     “clean” opinion.




                                                    Wesley C. Miller
                                                    Chief Financial Officer




vi




                                                                                                          Commitment to Current and Future Readiness
Civil Works Fund
FY 2007 United States Army Annual Financial Statements – Restated Civil Works Financials




Commitment to Current and Future Readiness





                                                                                           viii
                                                                                     Mission
                                                                                     The civil works mission of the United States Army Corps of
                                                                                     Engineers (USACE) is to contribute to the national welfare
                                                                                     and serve the public by providing the nation and the Army
                                                                                     with quality, responsive development and management of
                                                                                     the nation’s water resources; protection, restoration and
                                                                                     management of the environment; disaster response and
                                                                                     recovery; and engineering and technical services. The mission
                                                                                     will be accomplished in an environmentally sustainable,
                                                                                     economic and technically sound manner through partnerships
                                                                                     with other governmental agencies and nongovernmental
                                                                                     organizations.

                                                                                     Developing and Managing Water
Aerial view of Lock and Dam #5a on the Mississippi River near                        Resources
Fountain City, WI.
                                                                                     The original role of the USACE in civil works, as it related
                                                                                     to developing and managing water resources, was to support
                                                                                     navigation by maintaining and improving water channels.
                                                                                     Over the years and through subsequent legislation, the
                                                                                     Corps’ role was expanded to include reducing flood
                                                                                     damage, generating hydroelectric power, creating recreation
                                                                                     opportunities and providing water storage.

                                                                                     Protecting, Restoring and Managing
                                                                                     the Environment
                                                                                     The Rivers and Harbors Act of 1899 required the Corps
                                                                                     to prevent the obstruction of navigable waterways. As
                                                                                     concern over the environment grew in the late 20th
                                                                                     century, the Clean Water Act of 1972 greatly broadened the
                                                                                     scope of the Corps’ responsibility by providing authority
                                                                                     over the dredging and filling in of U.S. waters, including
                                                                                     the country’s wetlands. The civil works program’s
Corps employee ensures quantity of debris prior to its placement in                  environmental responsibilities have continued to grow
disposal site.
                                                                                     through additional legislation.

                                                                                     Responding and Assisting in Disaster
1                                                                                    Relief
           Throughout the Corps’ history, the United States has relied on the civil works program for help in times of national disaster. This help
           is now provided under two basic authorities: the Flood Control and Coastal Emergency Act (Public Law (PL) 84-99, as amended),
           and the Robert T. Stafford Disaster and Emergency Assistance Act (PL 93-288, as amended). The primary role of the civil works
           program in emergency relief and recovery operations is to provide public works and engineering support.




                                                                                                               Commitment to Current and Future Readiness
    Civil Works Fund
    FY 2007 United States Army Annual Financial Statements – Restated Civil Works Financials




                                                                                          Providing Engineering
                                                                                          Support and Technical
                                                                                          Services
                                                                                          In Titles 10 and 33 of the United States Code
                                                                                          (USC), Congress expresses its intent that the
                                                                                          Corps provide services on a reimbursable
                                                                                          basis to other federal entities; state, local
                                                                                          and tribal governments; private firms; and
                                                                                          international organizations. Additional
                                                                                          authority to provide services to all federal
                                                                                          agencies are found in Titles 15, 22 and 31 of
                                                                                          the USC. This authority includes providing
                                                                                          services to foreign governments.


                                                                                          Civil Works Programs
A Lake Michigan harbor entrance.
                                                                                            The Corps has multiple programs to
                                                                                            accomplish its mission. Each program
                                                                                            specifically addresses a single mission
    component, but each may also contribute to one or more of the other programs’ missions. Figure 1 lists the programs that receive
    direct appropriations; furthermore, it shows the funds used for executive direction and management for those programs.
    Figure 1. FY 2007 Civil Works Initial Appropriation by Business Line ($ in Millions)

                                                         $4

                                       $0                     $167
                                  $139            $296
                               $93



                                                                                                           Navigation
                                                                                                           Flood Risk Management
                                                                                                           Hydropower
                                                                                                           Regulatory
                                  $587                                                                     Environment-Ecosystem Restoration
                                                                                                           Environment-Stewardship
                                                                                       $2,033              Environment-FUSRAP                   2
                                                                                                           Emergency Management
                                  $159                                                                     Recreation
                                                                                                           Water Supply
                                         3
                                     $20                                                                   Executive Direction and Management




                                                              $1,653
    Navigation
    The navigation program is responsible for providing safe, reliable, efficient and environmentally sustainable waterborne transportation
    systems for the movement of commercial goods and for national security needs. The program seeks to meet this responsibility
    through a combination of capital improvements and the operation and maintenance of existing infrastructure projects. The navigation
    program is vital to the nation’s economic prosperity: 95 percent of America’s overseas international trade moves through its ports.
    Our nation’s marine transportation system (MTS) encompasses a network of navigable channels, waterways and infrastructure
    maintained by the Corps, as well as publicly and privately owned vessels, marine terminals, inter-modal connections, shipyards and
    repair facilities. The MTS consists of approximately 12,000 miles of inland and intracoastal waterways; over 900 coastal, Great Lakes
    and inland harbors; and channel projects that are maintained by the Corps.

    In FY 2007, this $2.03 billion program accounted for over 38 percent of civil works appropriations.

    Flood Risk Management
    The Flood Risk Management Program, formerly known as the Flood and Coastal Storm Damage Program, is aimed at saving lives
    and reducing property damage in the event of floods and coastal storms. The civil works program has constructed 8,500 miles of
    levees and dikes, 383 reservoirs and more than 90 storm damage reduction projects along 240 miles of the nation’s 2,700 miles of
    shoreline. With the exception of the reservoirs, most of the infrastructure constructed under this program is owned and operated by
    the sponsoring cities, towns and agricultural levee districts.

    Over the years, the Corps’ mission of addressing the causes and impacts of flooding has evolved from flood control to flood
    prevention and, more recently, to flood damage reduction. These changes reflect a greater appreciation of the complexity and
    dynamics of flood problems – the interaction of natural forces, human development and change through time – and the partnerships
    necessary to be adaptable and sustain effectiveness through time.

    Risk management is defined as the process of identifying, evaluating, selecting, implementing and monitoring actions taken to
    mitigate levels of risk. The goal of risk management is scientifically sound, cost-effective, integrated actions that reduce risks while
    taking into account social, cultural, ethical, political and legal considerations. The Corps’ approach to flood risk management
    includes partners and stakeholders, including the Federal Emergency Management Agency, the Department of Housing and Urban
    Development, the National Oceanic and Atmospheric Administration, several states, sponsors and affected citizens to collaborate
    effectively and efficiently to make the nation more aware of flood risk.

    The Flood Risk Management Program compiled an impressive record of performance, yielding a six-to-one return on investment.
    That is, the program saves six dollars for each dollar spent. The program also has helped reduce the number of lives lost annually by
    providing timely flood warnings that provide time for evacuation.

    In FY 2007, this $1.65 billion program accounted for almost 31 percent of civil works appropriations.

    Ecosystem Restoration, Environmental Stewardship and Remedial Actions
3
    The Corps has three distinct programs that are focused on the environment: aquatic ecosystem restoration, stewardship of Corps
    lands and the Formerly Utilized Sites Remedial Action Program (FUSRAP). The Army’s mission in the area of aquatic ecosystem
    restoration is to help restore aquatic habitat to a less degraded and more natural condition in ecosystems whose structures, functions
    and dynamic processes have deteriorated. The emphasis is on restoration of nationally or regionally significant habitat where the
    solution primarily involves manipulating the hydrology and geomorphology. Responding to the growing national awareness of the
    importance of the natural environment, these programs address many issues, such as monitoring water quality at dam sites; managing
    the natural resources on 11.5 million acres of land and water at 456 multipurpose Corps project sites; restoring degraded aquatic
    habitats to more natural conditions; and clean up of hazardous material.




                                                                                                           Commitment to Current and Future Readiness
     Civil Works Fund
     FY 2007 United States Army Annual Financial Statements – Restated Civil Works Financials




                                                                                               In FY 2007, the Corps’ total environmental
                                                                                               appropriation was comprised of $587 million
                                                                                               for ecosystem restoration; $93 million for
                                                                                               environmental stewardship; and $139 million
                                                                                               for remedial actions, which are approximately
                                                                                               11.0, 1.7 and 2.6 percent, respectively, of the
                                                                                               Corps’ total appropriations.

                                                                                               Regulation of Wetlands and
                                                                                               Waterways
                                                                                                In accordance with the Rivers and Harbors
                                                                                                Act of 1899 (Sec. 10) and the Clean Water
                                                                                                Act of 1972 (Sec. 404), as amended, the
                                                                                                Army Civil Works Regulatory Program
                                                                                                regulates the discharge of dredged and
Vic Fazio Yolo Wildlife Area. Yolo County, CA.                                                  fill material into U.S. waters, including
                                                                                                wetlands. The Corps implements many of
                                                                                                its oversight responsibilities by means of a
     permit process. Throughout the permit evaluation process, the Corps must comply with the National Environmental Policy Act and
     other applicable environmental and historic preservation laws. In addition to federal statutes, the Corps must also consider the views
     of other federal, tribal, state and local governments and agencies; interest groups; and the general public when rendering its final
     permit decisions.

     In FY 2007, this $159 million program accounted for almost 3 percent of civil works appropriations.

     Emergency Management
     Throughout Corps’ history, the United States has relied on the civil works program for help in times of national disaster. Emergency
     management continues to be an important part of the civil works program. The civil works program supports the Department
     of Homeland Security in carrying out the National Response Plan. The Corps’ primary role in support of this plan is to provide
     emergency support in areas of public works and engineering. The Corps responds to more than 30 presidential disaster declarations
     in a typical year, and its highly trained workforce is prepared to deal with both man-made and natural disasters.

     Hurricanes Katrina, Rita,Wilma and Ophelia caused significant damage to the flood and hurricane protection projects along the               4
     Gulf Coast and South Atlantic states. Hurricane Katrina, alone, caused extensive damage to the hurricane shore protection and flood
     control projects in the states of Louisiana, Mississippi and Alabama, totaling over $2.1 billion. Major damage to the storm protection
     system in the New Orleans area included breaches of significant sections of levees and floodwalls along Lake Pontchartrain and
     vicinity, as well as the New Orleans-to-Venice projects that required extensive repairs prior to the beginning of the 2006 hurricane
     season.

     In addition to its repair efforts, the Corps began studying ways to improve hurricane protection in the vicinity of Lake Pontchartrain.
     The Corps’ senior leadership commissioned the Hurricane Protection Decision Chronology (HPDC) shortly after Hurricane Katrina
     struck the Gulf Coast of the United States on August 29, 2005. The Corps’ Institute for Water Resources (IWR) was asked to
     convene an external HPDC team to collect, record and analyze project memoranda, reports and related documentation in order to
     describe and explain decision-making for the Lake Pontchartrain & Vicinity Hurricane Protection Project (LP&VHPP). The requested
    report was to provide an explanation, as opposed to an evaluation, of how the Corps’ policies and organization, legislation, financial
    and other factors influenced the decisions that led to the LP&VHPP protective structures in place when Hurricane Katrina struck the
    Gulf Coast.

    The HPDC focus on project decision-making is intended to complement the engineering forensics investigations on the performance
    of the LP&VHPP during Hurricane Katrina, such as those conducted by the Interagency Performance Evaluation Task Force and other
    institutions. The intent of the HPDC is to make predictions about the future by looking at historical data. It is the record of the
    LP&VHPP’s complex history of relationships, actions and decisions over 50 years that led to the system as it existed when Hurricane
    Katrina struck. The HPDC points to the fact that no single individual, agency, organization or decision was solely responsible for the
    LP&VHPP’s development over that 50-year history. The Corps is committed to open, transparent communication with the American
    public about what has been learned in the aftermath of Hurricane Katrina.

    The Corps not only makes contributions to domestic emergency management efforts, but it also plays a major role on the
    international stage through its participation in the Civil Military Emergency Preparedness Program. In support of the DoD, the
    Corps shares emergency management knowledge and expertise with U.S. allies and partners in the former Soviet Republics and
    Eastern Europe. This valuable program brings together key leaders and builds relationships among nations in direct support of the
    National Defense Strategy.

    In FY 2007, this program received no funding in the initial appropriations.

    Hydropower
    The Corps’ multipurpose authorities provide hydroelectric power as an additional benefit of projects built for navigation and flood
    control. The Corps is the largest owner/operator of hydroelectric power plants in the United States and one of the largest in the
    world. The Corps operates 345 generating units at 75 multipurpose reservoirs, mostly in the Pacific Northwest, which account for
    about 24 percent of America’s hydroelectric power and about three percent of the country’s total electric-generating capacity. Its
    hydroelectric plants produce nearly 100 billion kilowatt-hours each year, sufficient to serve about 10 million households—equal to
    ten cities the size of Seattle,Washington. Hydropower is a renewable source of energy and one of the least environmentally disruptive
    sources of electric power, producing none of the airborne emissions that contribute to acid rain or the greenhouse effect.

    In FY 2007, this $203 million program accounted for almost four percent of civil works appropriations.

    Water Supply
    Conscientious management of the nation’s
    water supply is critical to limiting water
    shortages and lessening the impact of
    droughts. The Corps has an important role
    in ensuring that homes, businesses and farms
    nationwide have enough water to meet their
5   needs. The Corps has the authority for water
    supply as part of projects that serve navigation,
    flood protection and hydroelectric purposes.

    In FY 2007, this $4 million program
    accounted for less than 1 percent of civil
    works appropriations.

                                                                   J. Strom Thurmond Dam and Powerplant, Clarks Hill, SC.




                                                                                                       Commitment to Current and Future Readiness
Civil Works Fund
FY 2007 United States Army Annual Financial Statements – Restated Civil Works Financials




                                                                                             Recreation
                                                                                             The Corps is an important provider of
                                                                                             outdoor recreation as an ancillary benefit
                                                                                             of flood prevention and navigation projects.
                                                                                             The mission of the recreation program is to
                                                                                             provide quality outdoor public recreation
                                                                                             experiences to serve the needs of present and
                                                                                             future generations, and to contribute to the
                                                                                             quality of American life while managing and
                                                                                             conserving natural resources consistent with
                                                                                             ecosystem management principles.

                                                                                        The Corps administers 4,485 recreation
                                                                                        sites at 423 projects on 12 million acres of
                                                                                        land. During FY 2006, 10 percent of the
                                                                                        U.S. population visited a Corps project at
     Fishing in the tail race of Hartwell Dam on the Savannah River.
                                                                                        least once. These visitors spent $15 billion
                                                                                        pursuing their favorite outdoor recreation
                                                                                        activities, supporting some 500,000 full- and
part-time jobs. This $296 million program accounted for over five percent of the civil works budget in FY 2007.


Organizational Structure
The Workforce
The Corps employs approximately 35,000 people, including 650 military officers and 24,800 civilians, who perform civil works
duties. It is funded through the energy and water development appropriation and executes programs through eight regional divisions
and 38 of the 41 districts of the Corps of Engineers — the remaining three districts have only military-related missions. There is a
ninth provisional division in the Gulf Region, which supports operations in Iraq and Afghanistan; the division includes four embedded
provisional districts.

Figure 2 shows the division boundaries. These are defined by watersheds and drainage basins, reflecting the water resources nature of
the civil works mission.
                                                                                                                                              6
The distribution of civil works employees similarly highlights the customer focus of the program: 95 percent of employees work at the
district level, labs or field operating agencies, reflecting the fact that project management is performed at the district level. The civil
works program contracts out to civilian companies all of its construction and most of its design work. As many as 150,000 people
are indirectly employed in support of civil works projects. These contractual arrangements have served the nation well in times of
emergency.
    Figure 2. Civil Works Boundaries

                                                                                                                                North
                                                                                     Great Lakes                               Atlantic
                             Seattle
                                                                                     & Ohio River
       Alaska                                                                                                                  New
                                                                   St.                                                        England
                               Walla     Northwestern              Paul                              Buffalo
                  Portland
                               Walla
                                                                                          Detroit
                                                                           Rock                      Pittsburgh           New York
                                                                           Island
                                                        Omaha                                Chicago                Philadelphia
                      Sacramento                                                               Cincinnati Baltimore
                                                       Kansas City                 St. Louis            Huntington
    San                                                                                                            Norfolk
    Francisco                South Pacific                                                 Louisville
                                                                                             Nashville
                                                                          Little
                                                            Tulsa         Rock                                     Wilmington
            Los                                                                          Memphis                                     Legend:
            Angeles                                    Southwestern                                              Charleston              Div./Regional HQ location
                                        Albuquerque                                             Atlanta                                  District HQ location
                                                       Ft. Worth                                               Savannah
                                                                                           Mobile                                        Division boundary
                                                                              Vicksburg                        Jacksonville              District boundary
       Honolulu                                                 Dallas
                                                                                                                                         State boundary
                                                           Galveston                       New
                              Pacific Ocean                                                Orleans                   South                       Key

                                                                                                                    Atlantic         Follows Watershed Boundaries

                                                                      Mississippi Valley


    Figure 3. Civil Works Levels of Authority                                           The Leadership
                                                                                        Oversight of civil works is provided through four levels of
                                                                                        authority. As shown in Figure 3, the Assistant Secretary
                                 ASA (CW)                                               of the Army for Civil Works (ASA(CW)) is appointed by
                         Provides policy guidance                                       the President and is responsible for civil works policy. The
                                                                                        Chief of Engineers is a military officer who reports to the
                                                                                        ASA(CW) and is responsible for mission accomplishment;
                                                                                        however, he delegates most of his responsibilities for managing
                       Chief of Engineers                                               the various programs to the Director of Civil Works. The
                             Applies policy guidance                                    Chief of Engineers, through the Director of Civil Works, is
                                                                                        responsible for the leadership and management of the civil
                                                                                        works program and for ensuring that policies established by the
                                                                                        ASA(CW) are applied to all phases of the civil works mission.
                             Director of CW                                             The divisions, commanded by division engineers, are regional
                  Acts on behalf of the Chief of Engineers
                                                                                        offices responsible for the supervision and management of their
                                                                                        subordinate districts, including the monitoring and quality
                                                                                        assurance of district work. The districts are the foundation of
                                8 Divisions                                             the civil works mission, managing water resource development
                      Supervise and manage districts
7                  Perform quality assurance on districts                               over a project’s life cycle.


           Plan                                        Operate
           Design
           Construction
                        38             Districts       Maintain

             Management




                                                                                                                              Commitment to Current and Future Readiness
Civil Works Fund
FY 2007 United States Army Annual Financial Statements – Restated Civil Works Financials




Civil Works Fund Performance Results
Civil works directly impact America’s prosperity, competitiveness, quality of life and environmental stability. In March 2004 the
civil works leaders published a strategic plan that provides a framework for enhancing the sustainability of America’s resources. The
strategic goals listed in the plan support the strategic direction of the Corps over the five-year period, FY 2004 – FY 2009. Key
performance measures developed in conjunction with the Office of Management and Budget, through the Performance Assessment
Rating Tool process for FY 2002 – FY 2006, are presented below.

Goal 1: Provide Sustainable Development and Integrated Management of the Nation’s
Water Resources.

Navigation
Objective:	 To invest in navigation infrastructure that is fully capable of supporting maritime requirements in environmentally
            sustainable ways, where economically justified.

Performance Indicator: Track navigation lock and channel availability by identifying trends in scheduled and unscheduled lock
closures for the navigation system, measured in hours.

Performance Result: The Corps uses the same indicators as in Goal 3; please see Table 4 for the results.

Flood Risk Management
Objective:	 To invest in flood and coastal storm damage reduction solutions when benefits exceed costs.

Performance Indicator: This is measured by the performance of civil works facilities in reducing damage and risk to threatened
population areas, where flooding otherwise would have been experienced.

Performance Result: The Corps uses the same indicators as in Goal 3; please see Table 6 for the results.

Hydropower
Objective:	 To invest in hydropower solutions when benefits exceed costs.

Performance Indicators: The availability of hydroelectric generating units, their generating capacity and forced outage rates are
indicators of success in meeting this objective.

Performance Result: The Corps uses the same indicators as in Goal 3; please see Table 8.                                                8


Goal 2: Repair Past Environmental Degradation and Prevent Future Environmental
Losses

Aquatic Ecosystem Restoration
Objective:	 Restore degraded, significant ecosystems, structure, function and process to a more natural condition by investing in
            restoration projects or features that make a positive contribution to the nation’s environmental resources in a cost-
            effective manner.

Funding History: The first row of Table 1 shows the funding for aquatic ecosystem restoration.
    Performance Indicators: Four indicators were recently established to assess progress in meeting this objective. The Corps began
    collecting performance data for these indicators during fiscal years 2005 and 2006, which serve as baseline.

           Number of acres of habitat restored, created, improved or protected. The number of acres of habitat restored is
            an appropriate measure for documenting progress toward restoration of degraded ecosystems.
           Number of nationally significant acres of habitat restored, created, improved or protected. This measure
            will document the subset of acres of habitat restored, each year, that have high-quality outputs as compared to national
            needs.
           Dollars per acre to restore, create, improve or protect nationally significant habitat. The cost of the projects
            that produce nationally significant acres, in any given year, will be used to calculate this figure. In the long run, through
            efficiencies in project execution or other considerations, the goal would be to restore more acres per dollar expended.
           Percentage of all acres of habitat restored, created, improved or protected that are nationally significant.
            Restoration of acreage that meets the criteria for national significance is expected to have the greatest impact on the
            restoration of the nation’s ecosystems. The goal is to increase the percentage of nationally significant acres over time.

    Performance Results

    The number of aquatic ecosystem restoration projects completed in any one year is relatively small. There was considerable variation
    between the 20 projects that were completed and the 18 that served as the basis for the estimated FY 2007 performance. The result
    was an increase of 467,949 total acres restored and 475 additional, nationally significant acres. The key project that resulted in the
    substantial increase in acreage completion was Lake Okeechobee, an element of the Everglades South Florida Restoration Program.
    The average cost per acre of the nationally significant acres was close to the estimate despite the change in the mix of projects that
    were completed

     Table 1. Aquatic Ecosystem Restoration Indicators                                                                          FY 2007
                                                                            FY 2004             FY 2005       FY 2006      Target     Actual
     Funding history in millions of dollars                                         $413               $408        $516       $587         $340
     Acres of habitat restored, created, improved or
     protected                                                                    Note 1           32,573         6,600       3,734    471,683
     Nationally signiﬁcant acres of habitat restored, created,
     improved or protected                                                                                        5,500       3,259        2,987
     Cost per acre to restore, create, improve or protect                             Note 2
     nationally signiﬁcant habitat                                                                               $9,800      $6,957       $6,800
     Percent of all restored, created, improved or protected
     acres of habitat that are nationally signiﬁcant                                                               83%        87%         0.60%

    Note 1: This measure was added at the end of FY 2004; FY 2005 is the ﬁrst year of complete data.
    Note 2: Performance measures were developed in FY 2006; it is the ﬁrst year of reporting.


    Regulatory
    Objective:	 To administer the Regulatory Program in a manner that protects the aquatic environment (ensures zero net-loss of
9
                wetlands).

    Funding History: The first row of Table 2 shows the funding for the Regulatory Program.

    Performance Indicators: Table 2 also lists eight measures that serve as indicators to assist Corps personnel in determining their
    progress in meeting this objective.

           Individual permit compliance. The Corps shall complete compliance inspections on the annual target percentage of
            all individual permits issued and constructed within the preceding fiscal year.




                                                                                                                 Commitment to Current and Future Readiness
Civil Works Fund
FY 2007 United States Army Annual Financial Statements – Restated Civil Works Financials




          General permit compliance. The Corps shall complete compliance inspections on the annual target percentage of all
           general permits with reporting requirements issued and constructed within the preceding fiscal year.
          Mitigation site compliance. The Corps shall complete field compliance inspections on the annual target percentage of
           active mitigation sites each fiscal year. Active mitigation sites are those sites authorized through the permit process. They
           are monitored as part of the permit process, but have not met final approval under the permit special conditions.
          Mitigation inspections or audits. The Corps shall complete compliance inspections or audits on the annual target
           percentage of active mitigation banks, and in lieu of fee programs, annually.
          Resolution of noncompliance issues. The Corps will reach resolution on non-compliance with permit conditions
           or mitigation requirements on the annual target percentage of activities determined to be non-compliant at the end of the
           previous fiscal year, and determined to be non-compliant during the current fiscal year.
          Resolution of enforcement actions. The Corps shall reach resolution on the annual target percentage of all pending
           enforcement actions (i.e., unauthorized activities) that are unresolved at the end of the previous fiscal year and that have
           been received during the current fiscal year.
          General permit decisions. The Corps shall reach permit decisions on the annual target percentage of all general permit
           applications within 60 days.
          Individual permits. The Corps shall reach permit decisions on the annual target percentage of all standard permits and
           letters of permission within 120 days. This standard shall not include individual permits with Formal Endangered Species
           Act consultations.

Performance Results

The Regulatory Program continues to be scrutinized as development pressures mount and national public awareness of the aquatic
environment, including wetlands, continues to rise. Court decisions at the local, state, regional and national level require adjustments
to the program implementation. Specifically, the Supreme Court decision in the Carabell/Rapanos1 case and associated Corps-EPA
joint guidance require additional scrutiny and documentation of most of our jurisdictional decisions. Sensitivity to wetlands has
resulted in greater direct input from the public and environmental interest groups, leading to greater complexity and controversy in
the review of permit proposals. As the complexities grow, the delays in making permit decisions increase. The program continues to
be challenged to make timely permit decisions (most on private property) with the proper environmental review and documentation.

The Corps has begun several initiatives to speed the permit decision process and improve environmental review and documentation.
The first initiative is a Lean Six Sigma analysis of the individual permit process, focusing on streamlining and reducing waste.
Implementation of the Six Sigma recommendations from this process will reduce processing times and lead to a more consistent
process. Revised procedures will be promulgated nationwide through re-issuance of our regulatory standard operating procedures
by December 2007. The second major initiative is to complete, no later than December 2007, the final installation of a nationwide          10
spatial database to track all Corps permits. This database will enable interagency data sharing with permit applicants, interested
local governments, several states, Native American tribes and other federal agencies. The database will also facilitate comprehensive
environmental analysis for permits, including cumulative impact analyses. These two initiatives directly support the Corps’ efforts to
expedite permit review while improving environmental analysis and documentation.




1
    Rapanos v. United States and Carabell v. Army Corps of Engineers 126 S. Ct. 2208 (2006).
      Table 2. Regulatory Indicators                                                                                     FY 2007
                                                                                  FY 2004    FY 2005     FY 2006     Target     Actual
      Funding history in millions of dollars                                        $139       $143       $158        $159       $159
      Percent of compliance inspections on individual permits                       16%        14%        41%         10%        11%
      Percent of compliance inspections on general permits                          5%          5%         7%         5%          7%
      Percent of active mitigation sites inspected                                  11%         9%        10%         5%          7%
      Percent of compliance inspections on active mitigation banks                  20%        19%        26%         20%        63%
      Percent resolution on noncompliance with permit conditions or mitigation
      requirements                                                                  26%        24%        37%         20%        56%
      Percent resolution on pending enforcement actions                             37%        23%        60%         20%        82%
      Percent of general permit application decisions made within 60 days           85%        85%        82%         75%        78%
      Percent of standard permits and letter of permission permit decisions
      made within 120 days                                                          61%        61%        61%         50%        53%




     Environmental Remediation (Formerly Utilized Sites Remedial Action Program-FUSRAP)
     Objective:	 To achieve the cleanup objectives of the FUSRAP. The Corps uses three outcome measures to indicate progress
                 in meeting this objective: Minimize risk to human health and to the environment; maximize the cubic yardage of
                 contaminated material disposed in a safe and legal disposal facility; and return the maximum number of affected
                 individual properties to beneficial use.

     Funding History: The first row of Table 3 shows the funding for environmental remediation.

     Performance Indicators: The measures listed in Table 3 serve as indicators to help Corps personnel determine their progress in
     meeting this objective. In addition to the indicators explained below, the Corps has begun to measure the cumulative percentage of
     FUSRAP funding that is expended on actual cleanup as well as activities and the total cost of disposing of contaminated material.

           Number of records of decision (ROD) signed. As studies are completed and best alternatives for cleanup activities
            are decided, the number of RODs will increase. A final ROD establishes the final cleanup standard, which controls the
            actual estimate of the remaining environmental liability for each site.
           Number of remedial investigations (RI) completed. The RI establishes the baseline risk assessment whereby the
            level of risk to human health and the environment is identified.
           Number of action memorandums signed. Where warranted by risk or other limited factors, action memorandums
            allow the Corps to move toward reducing risk more rapidly than through production of a ROD. No action memorandums
            are presently identified.
           Cubic yardage of contaminated material disposed. Target soil amounts are dependent on previous-year funding
            and scheduled activities.
           Individual properties returned to beneficial use. Number of properties that have been released for general use
11          following remediation.
           Number of remedies in place or response complete. As select portions of sites or complete sites meet their
            remedial action goals, the risk to human health and the environment is reduced to within acceptable levels, and properties
            are able to be used within a community without fear of increasing cancer risk or further degrading the environment.
           Remediation of contaminated material. The cost to dispose of contaminated material as measured in cubic yards.
            This measure is scheduled to be evaluated at the end of FY 2009.
           Percentage of funding expended on cleanup. Measures the cumulative percentage of FUSRAP funding that is
            expended on cleanup activities rather than studies.




                                                                                                       Commitment to Current and Future Readiness
Civil Works Fund
FY 2007 United States Army Annual Financial Statements – Restated Civil Works Financials




Performance Results

The FUSRAP met or exceeded five of the six FY 2007 performance indicators. The exception was the metric measuring the number
of RODs signed. The Corps was unable to complete the review process for the Luckey Groundwater ROD; however, the document is
scheduled to be completed in early FY 2008.

The Corps remediated 207,374 cubic yards of contaminated material, which far exceeded its FY 2007 target. The Corps was able
to exceed this measure because the program received $8 million above the President’s budget amount for the year. The Corps used
the additional funds in part to remediate the two soil operable units at the Colonie site, resulting in completion of this remediation
work two years ahead of schedule. Remediation was also completed at the St. Louis Airport site. The scheduled remediation at the
Painesville site was completed; however, the Corps discovered significant contaminated soil volumes in excess of the known material.
This newly discovered material will be remediated during the first quarter of FY 2008.

 Table 3. Remedial Action Indicators                                                                                          FY 2007
                                                                               FY 2004       FY 2005       FY 2006       Target        Actual
 Funding history in millions of dollars                                            $139          $164          $139         $139          $136
 Number of RODs signed                                                                   9             3             2             3             2
 Remedial investigations completed                                                   21                5             4             1             1
 Action memos signed                                                                     3             0             1             0             0
 Contaminated material removed (in thousand cubic yards)                        2,927.0         243.0         225.0         147.0         185.6
 Individual properties returned to beneﬁcial use                                     65                5         15               13            21
 Remedies in place or response complete                                                  4             2             0             2             3
 Remediation of contaminated material
                                                                                                           Note 1
 Percentage of funding expended on cleanup

Note 1: Data on this measure will not be available until the end of FY 2009.




Goal 3: Ensure that Projects Perform to Meet Authorized Purposes and Evolving
Conditions

Navigation
Objective: Improve the efficiency and effectiveness of existing Corps water resource projects by maintaining justified levels of
           service availability to commercial traffic of high-use infrastructure (e.g., waterways, harbors, channels).                               12

Objective:            Address the operations and maintenance (O&M) backlog on all operating projects by funding high-priority operations
                      and maintenance projects.

Funding History: The first row of Table 4 shows the funding for the operation and maintenance of the Navigation Program. Table
5 shows the funding for the Major Rehabilitation and Construction Program.

Performance Indicators: To assist the Corps in measuring its progress in meeting the Goal 3 objectives, the Corps uses
performance indicators that relate to the operation and maintenance activities for inland waterways and coastal ports and harbors, as
well as the efficiency of the overall, combined navigation system. The indicators are described below and their measures are shown in
Tables 4 and 5.
     Operation and maintenance of the inland waterways
         Ton-miles. The sum total of movement of cargo on the waterways; this measure is a roll-up of tons of cargo transported
           by a vessel multiplied by the miles that vessel traveled on the inland waterway.
           Navigation lock availability. This is the unscheduled closure of the lock system due to mechanical failures. Closures
            due to weather or other uncontrollable causes are not included in this metric.
           Assets with structural risk assessments. The percent of the navigation inland waterway asset inventory with recent
            structural risk assessments.
           Assets with operational risk assessments. The percent of the navigation inland waterway asset inventory with recent
            operational risk assessments.

     Operation and maintenance of the coastal ports and harbors
         Tons of cargo. Total sum of cargo in tons moved in and out of the coastal ports and harbors system. This measure is
           an indicator of utilization of the system; data are collected for the purpose of trend analysis. There is no specific target
           generated by the Corps.
           Channel availability, high-use projects. The percent of time per year the half channel width is available over the
            project’s authorized length. There are a total of 59 high-use projects defined as those that pass 10 million or more tons of
            cargo per year.
           Channel availability, moderate-use projects. The percent of time per year the half channel width is available over a
            project’s authorized length. A moderate-use project is defined as one that passes 1 to 10 million tons of cargo per year.
           Assets with operational risk assessments. The percent of the navigation port and harbor assets in the inventory that
            have had a recent operational risk assessment.

     Efﬁciency of the navigation system
         Cost per ton. The measure assesses the efficiency of the commercial navigation system, which combines inland waterways
            and coastal ports and harbors. This is a roll-up of the efficiency of all navigation projects where the cost of operation and
            maintenance, per ton of cargo shipped through a port or inland waterway system, is known and tracked at a particular
            location.

     Major rehabilitation and construction of the navigation system
         High-return investments. The percent of funding to rehabilitate, construct or expand projects that is allocated to high-
            return investments. High-return investment projects are defined as those projects with a benefit-to-cost ratio of 3.0 or
            greater.

     Performance Results

     The program presents significant challenges in its efforts to maintain the reliability of the inland waterway navigation system.
     The system’s aging infrastructure requires more repairs than the Corps can accomplish, given the historical level of program
     appropriations. These same funding shortfalls, coupled with an increased cost of dredging operations, are affecting the Corps’ ability
13   to properly maintain channels. The increase in dredging costs in recent years corresponds to the near doubling in the cost of fuel
     purchases. Although other factors may limit or control channel availability, maintaining an acceptable width and depth through
     dredging operations has by far the greatest impact.




                                                                                                         Commitment to Current and Future Readiness
Civil Works Fund
FY 2007 United States Army Annual Financial Statements – Restated Civil Works Financials




 Table 4. Navigation Program, Operation and Maintenance Activities Performance Indicators                                                  FY 2007
                                                                                            FY 2004       FY 2005      FY 2006         Target      Actual
                                                                                                                                                   $1,274
                                     Funding history in millions of dollars                    $1,198       $1,209        $1,211       $1,320      Note 1
                                     Ton-miles (in billions of ton-miles by
                                     calendar year)                                               256           246          250       Note 2      Note 3
 Inland waterways                    Lock unscheduled closures, mechanical (in                                                                      23
                                     thousands of hours)                                            13           27            22      Note 4      Note 1
                                     Assets with structural risk assessments
                                                                                                                        Note 5
                                     Assets with operational risk assessments
                                     Tons of cargo (in billions of tons)                         1.908        1.935        1.921       Note 2      Note 3
                                                                                                                                                    32%
 Coastal ports and harbors           Channel availability, high-use projects                   Note 6          38%          35%        Note 7      Note 1
                                     Channel availability, moderate-use projects
                                                                                                                        Note 5
                                     Assets with operational risk assessments
 Efﬁciency                           Cost per ton                                                $0.48        $0.47        $0.47       Note 2      Note 3

Note 1: Estimate based on data available mid-September.

Note 2: Ton-miles, tons of cargo, and cost per ton are collected for trend analysis; the Corps does not target or make projections of data measuring 

utilization of the navigation system.

Note 3: FY 2007 actual data were not available at the time of the report.

Note 4: Measure was revised in FY 2007 to account for only mechanical breakdowns of locking systems. Since the measure was revised, a target was not 

developed for FY 2007. Data provided for FY 2004 through 2006 were actual results extracted from existing records.

Note 5: New measure for FY 2008, which will be the ﬁrst year data are collected.

Note 6: First year program measure was tracked was FY 2005.

Note 7: This is a new measure for FY 2007; therefore, no FY 2007 target was set. Data provided for FY 2005 and FY 2006 were actual results extracted from 

existing records.





 Table 5. Navigation Program Major Rehabilitation and Construction Indicators                                                          FY 2007
                                                                      FY 2004           FY 2005           FY 2006             Target             Actual
                                                                                                                                                  $635
 Funding history in millions of dollars                                Note 1             $621              $916               $703              Note 2
 High-return investments                                                                                   Note 3

Note 1: First year program measure was tracked in FY 2005.

                                                                                                                                                              14
Note 2: FY 2007 funding is an estimate based on data available mid-September

Note 3: New measure for FY 2008, which will be the ﬁrst year data are collected.



Flood Risk Management
Objective: To reduce the nation’s risk of damages due to flooding and coastal storms.


Funding History: The first row of Table 6 shows the funding for flood and coastal storm damage reduction.


Performance Indicators: Additional indicators were recently established that will assist Corps’ personnel in determining progress
in meeting this objective. The Corps began collecting performance data relating to these indicators during the current year, and
sufficient data are not yet available to establish baselines.
           Flood damage prevented. Measures the estimated annual dollars of property damage avoided through the existence of
            Corps’ flood control projects completed during the fiscal year.

           Increase in benefits realized. This is the total percent increase in the present value of total benefits realized from
            construction work completed in the applicable fiscal year.

           Ten-year moving average. The 10-year moving average of actual flood damage reduction benefits attributable to
            completed projects.

           Additional people protected. The percent increase in total affected population with reduced risk at project design
            attributed to completion of projects in the applicable fiscal year.

           Operating projects in zones 21-25. The percentage of operating projects (e.g., dams, levees, channels, flood gates)
            that are in zones 21-25 of the relative risk ranking matrix.

           Operating projects in zones 1-6. The percentage of operating projects (e.g., dams, levees, channels, flood gates) that
            are in zones 1-6 of the relative risk ranking matrix.

           Dam safety projects. The percentage of the dams in the screening portfolio risk assessment (SPRA) that fall in Dam
            Safety Action Class (DSAC) I, II or III.

           Relative loss of life. The total relative annualized loss of life per dam.

           DSAC I, II and III projects. The number of DSAC I, II and III projects underway or completed during the applicable
            year.

           SPRA assessments completed. The number of SPRA screening level assessments completed in the applicable year.

           Marginal cost of operations.The marginal cost of operations and maintenance for all operating projects (e.g., dams,
            levees, channels, flood gates) relative to damages prevented.

     Performance Results

     There were eight flood risk management projects scheduled for completion in FY 2007. Five of the eight projects achieved 100 percent
     completion; one project realized a 100-year level of protection and will complete a 250-year level of protection in FY 2008; and two
     projects completed phases that allowed for only partial benefits to be realized, which is why the full FY 2007 target was not achieved.




15




                                                                                                          Commitment to Current and Future Readiness
Civil Works Fund
FY 2007 United States Army Annual Financial Statements – Restated Civil Works Financials




 Table 6. Flood Damage Prevented                                                                                                       FY 2007
                                                                        FY 2004           FY 2005          FY 2006            Target             Actual
 Funding history in millions of dollars                                      $1,214           $1,193           $1,512            $1,610            $1,774
 Additional people protected (in thousands of people)                              22              24              121              160               142
 Flood damage prevented (in millions of dollars)                                   Note 1                        $56.1            $56.8             $55.6
 Ten-year moving average (in millions of dollars)                          $21,700          $21,400            $9,200                  Note 2
 Increase in beneﬁts realized
 Operating projects in zones 21-25
 Operating projects in zones 1-6
 Dam safety projects
                                                                                                            Note 3
 Relative loss of life
 DSAC I, II and III projects
 SPRA assessments completed
 Marginal cost of operations

Note 1: This measure was effective at the beginning of FY 2006.
Note 2: Data are collected from actual ﬂoods occurring throughout the year, and data become available in March following the year of interest. The Corps
makes no predictions or targets year to year; data are used for trend analysis only.
Note 3: New measure for FY 2008, which will be the ﬁrst year data are collected.


Environmental Stewardship
Objective:	 To improve the efficiency and effectiveness of existing Corps water resources projects.

Objective:	 To ensure healthy and sustainable lands and waters, and associated natural resources, on Corps lands in public trust to
            support multiple purposes.

Objective:	 To protect, preserve and restore significant ecological resources in accordance with master plans.

Objective:	 To ensure that the operation of all civil works facilities and management of associated lands, including out-granted
            lands, complies with the environmental requirements of the relevant federal, state and local laws and regulations.

Objective:	 To meet the mitigation requirements of authorizing legislation or applicable Corps authorization decision document.

Funding History: The first row of Table 7 shows the funding for environmental stewardship.
                                                                                                                                                            16
Performance Indicators: To measure success in attaining the objectives shown above, the Corps has developed seven performance
indicators. Data on these indicators may be found in Table 7.

       Mitigation compliance. This measure demonstrates the Corps’ performance in meeting mitigation requirements
        that are specified in project authorizations. The measure is a percentage of the number of designated Corps-administered
        mitigation lands (acres) meeting mitigation requirements divided by the total number of designated Corps-administered
        mitigation lands, or the number of pounds of (or number of individual) fish produced in a mitigation hatchery, divided by
        the number of fish to be produced at a mitigation hatchery to meet the mitigation requirement.
       Endangered species protection. The percent of Corps operating projects with Endangered Species Act (ESA)
        requirements for which the Corps is meeting ESA requirements or responsibilities.
           Cultural resources management. The percent of Corps operating projects meeting federally mandated cultural
            resource management responsibilities.
           Healthy and sustainable lands and waters. This measure is defined as the number of Corps fee-owned acres classified
            as in a sustainable condition divided by the total number of Corps fee-owned acres. The result provides an indicator of
            the condition status of all Corps fee-owned acres. Sustainable is defined as meeting the desired state. The acreage is not
            significantly impacted by any factors that can be managed and does not require intensive management to maintain its health.
            The acreage also meets operational goals and objectives set forth in applicable management documents.
           Level-one natural resources inventory completion index. This measure demonstrates the status of Corps efforts
            in completing basic, level-one natural resource inventories required by USACE Environmental Regulation (ER)
            1130-2-540, Environmental Stewardship Operations and Maintenance Policies. Such inventories are necessary for sound
            resource management decisions and strategies development. The measure is defined as the sum total number of acres of
            completed inventory for each of the four components of the minimum, level-one natural resources inventory, divided by
            four times the total number of Corps fee-owned acres. The proportion (percentage) yielded is used to evaluate the relative
            completeness of the inventory.
           Master plan completion. A master plan is completed, per regulation, to foster an efficient and cost-effective project
            for natural resources, cultural resources and recreational management programs. This measure demonstrates Corps
            commitment to fully integrate environmental stewardship in the management of operating projects. The measure is
            expressed as a percentage and is derived by dividing the number of required master plans completed in compliance with
            regulation by the total number of required master plans.
           Efficiency. This is represented by program costs recovered in cents on a dollar. The outcome for this objective is to
            manage projects in an efficient manner. This measure is an assessment of federal costs avoided in relation to the program
            cost. Revenue recovered each year, equivalent to the federal costs avoided, will vary due to the nature and extent of the
            sustainability practices implemented. The program emphasis, however, is on resource sustainability as opposed to revenue
            generation.

     Performance Results

     Program funding has decreased in recent years; combined with the effects of inflation, this has reduced the capability to meet overall
     target performance objectives. Additionally, shifts in program priorities contributed to the results obtained for specific measures.
     The Corps continued to place emphasis on program elements required by statute and regulation, such as mitigation, endangered
     species and cultural resource management initiatives.

     Increased emphasis on mitigation compliance resulted in performance gains that exceeded the FY 2007 target for this measure. Two
     other mandated initiatives, endangered species protection and cultural resource management, do not have historical data that allow
     for proper year-to-year comparisons. Baseline data for cultural resources management was gathered in FY 2007. The endangered
     species protection measure was added as a performance indicator in FY 2007, and baseline data will be collected in FY 2008.

     The emphasis on mandated initiatives and the decreased funding trend resulted in reduced levels of management and maintenance of
     land conditions in FY 2007, which is reflected in a decrease in the amount of healthy and sustainable acreage. The funding shortfall
17   contributed to the lack of a significant increase in the number of natural resource inventories completed, and no increase in the
     completion of master plans. Level-one natural resource inventories and master plans support responsible land management; without
     significant improvement in the number of inventories and plans completed, the program outcome of healthy and sustainable lands is
     at risk.




                                                                                                         Commitment to Current and Future Readiness
Civil Works Fund
FY 2007 United States Army Annual Financial Statements – Restated Civil Works Financials




 Table 7. Environmental Stewardship Indicators                                                                                     FY 2007
                                                                  FY 2004           FY 2005            FY 2006            Target             Actual
 Funding history in millions of dollars                             $151              $146              $124               $93               $113
 Mitigation compliance                                                                76%               61%               61%                86%
 Endangered species protection                                                                                   Note 2
 Cultural resource management                                                                 Note 3                      72%                63%
 Healthy and sustainable acreage                                   Note 1             37%               21%               19%                18%
 Level one natural resources inventory completed                                      33%               38%               38%                40%
 Master plans completed                                                               32%               27%               27%                27%
 Efﬁciency (in cents on the dollar)                                                  $0.09              $0.10             $0.01              $0.12



Note 1: FY 2005 was the ﬁrst year of performance measurement of the program.
Note 2: This measure becomes effective in FY 2008.
Note 3: This measure was added at the end of FY 2006; FY 2007 is the ﬁrst year of complete data.


Hydropower
Objective: To improve the efficiency and effectiveness of existing Corps water resource projects.

Funding History: The first row of Table 8 shows the past three years of capital improvements and operation and maintenance
expenditures for the Hydropower Program.

Performance Indicator:The objective of the Hydropower Program is to maintain a high level of reliability and peak availability of
hydroelectric power-generating capability at multipurpose reservoir projects. The performance indicators listed below are used by
the Corps to measure progress toward attaining this objective. Performance indicator results and targets for the year are shown in
Table 23.

       Percent of time available during periods of peak demand. The amount of time hydroelectric generating units are
        available to the Power Marketing Administration’s interconnected system during daily peak demand periods.
       Percent of forced outages. The percent of time generating units are in an unscheduled or unplanned outage status. The
        lower the forced outage rate, the more reliable and less expensive the electrical power provided to the customer.

Performance Results
                                                                                                                                                      18
Table 8 shows the significant decrease in appropriations for the program in FY 2007; program performance was affected accordingly.
The percent of time hydropower generating units were actually available to produce power declined in FY 2007. During the same
period, there was a decline in the percent of time units were available during peak power demand periods. The margin between these
two performance indicators has decreased steadily over the same period. As the margin narrows, system maintenance and operating
costs increase. The industry standards for availability and peak availability are 98 and 95 percent, respectively. The Hydropower
Program’s standard metric used for forced outages is 2.0 percent. The table below shows program performance for availability
and peak availability to be 14 and 11 percentage points below the industry standard, respectively. The program’s forced outage
performance is 2.6 percentage points above the standard and 1.2 percentage points above the FY 2007 target.
         Table 8. Hydropower Indicators                                                                                                          FY 2007
                                                                                             FY 2004        FY 2005        FY 2006         Target         Actual

         Funding history in millions of dollars
                                               $245           $285           $288           $202           $228
         Percent of time units are available                                                  85.57%        84.54%         86.95%           91%          84.35%
         Percent of time available during periods of peak demand                              87.48%        87.24%         88.69%           89%          84.26%
         Percent of time units are out of service due to unplanned outage                       4%           4.66%          3.73%           3.5%          4.67%
         Generating capacity rated in poor condition
         Hydropower plant reviews
                                                                                                                            Note 1
         Operating and maintenance costs for power
         Electric reliability standards met



     Note 1: This measure was added at the end of FY 2007; FY 2008 will be the ﬁrst year to report data.


     Recreation
     Objective:	 To provide justified outdoor recreation opportunities in an effective and efficient manner at all Corps-operated water
                 resources projects.

     Objective:	 To provide continued outdoor recreation opportunities to meet the needs of present and future generations.

     Objective:	 To provide a safe and healthful outdoor recreation environment for the Corps’ customers.

     Funding History: The first row of Table 9 shows the funding for the Recreation Program.

     Performance Indicators: The measures listed in Table 9 serve as indicators to assist Corps personnel to determine their progress
     in meeting the Corps’ recreation efficiency, service and availability objectives. The indicators are explained below.

              Total NED Benefits. NED benefits are estimated using the unit day value method, which was originally developed by the
               Water Resources Council.2
              Benefit-to-cost ratio. This is the ratio of NED benefits to actual program expenditures or budget.
              Cost recovery. Measures the percent of total recreation receipts to the recreation budget.
              Park Capacity. Measure of the capacity of facilities to provide recreation opportunities, expressed in millions of days/
               nights that the Corps’ recreation units were available for use.
              Number of visitors. Total number of visitors to Corps-managed parks, expressed in millions of people.
              Visitor health and safety services. This measure is expressed as a percentage of visitors to Corps managed recreation
               areas who reported acceptable service.
              Customer satisfaction. This is measured as a percentage of visitors reporting satisfaction with their visit to a Corps
               recreation area.
19
              Facility Service. This measure is the percentage of visitors served at a Corps-managed recreation area with a facility
               condition score of 4 or better, which indicates their experience was fair to good.
              Facility condition. This is the average condition of facilities at Corps-managed recreation areas. The score is based on a
               seven-point scale where 1 = poor and 7 = excellent.

     2
      NED beneﬁts arising from recreation experiences are measured in terms of willingness to pay for each increment of supply or type of recreation opportunity.
     The unit day value method relies on expert or informed opinion and judgment to approximate the average willingness to pay of users of federal or federally
     assisted recreation resources. The unit day value is estimated at the park (recreation area) level by evaluating each park against a set of published criteria.
     By applying a carefully thought-out and adjusted unit day value to estimated use, an approximation is obtained that may be used as an estimate of project
     recreation beneﬁt (i.e., NED beneﬁts = Unit Day Value X Recreation Use in Visitor Days).




                                                                                                                           Commitment to Current and Future Readiness
Civil Works Fund
FY 2007 United States Army Annual Financial Statements – Restated Civil Works Financials




Performance Results

Funding for the program decreased in both real and inflation-adjusted terms from FY 2006 to FY 2007. As a result, most
performance measures declined or, at best, remained the same. There was an increase in the number of visits to Corps recreation
areas in FY 2007 despite the fact that reduced funding resulted in a decrease in the measure of facility service. This measure for
FY 2007 was 50 percent; while acceptable, it is well below the Corps’ standard of 75 percent.

In an attempt to mitigate the results of reduced funding, the Corps continues a strategy comprised of a combination of continued
reduced-service levels and a reduction of recreation opportunities caused by the partial or complete closing of parks. With demand
increasing, the Corps is faced with having to resort to reductions in contract services and daily operating hours, and to shorten
recreation seasons. A recent survey of operations project managers disclosed the expectation of 76 partial closures and 11 full
closures program-wide in the next fiscal year.

 Table 9. Recreation Indicators                                                                                                     FY 2007
                                                                                FY 2004          FY 2005          FY 2006   Target        Actual
 Funding history in millions of dollars                                           $262             $270             $268    $296              $256
 Total NED beneﬁts (in millions of dollars)                                      $1,223           $1,243           $1,216   $1,247        $1,288
 Beneﬁt-to-cost ratio                                                              4.28             4.3              4.27    4.27             4.3
 Cost recovery                                                                    16%              16%              16%     16%           Note 4
 Park capacity (in millions of days)                                                74               74               74     74                74
 Number of visitors (in millions of visits)                                        135              142              144     144              145
 Visitor health and safety services – visitor centers                                              79%              78%     79%               77%
                                                                                 Note 1
 Visitor health and safety services – recreation areas                                             51%              50%     51%               50%
 Customer satisfaction                                                           Note 2            88%              87%     88%           Note 5
 Facility service                                                                Note 3            48%              48%     48%               47%
 Facility condition                                                                3.7              3.7              3.7     3.7          Note 4

Note 1: Service standards were revised in FY 2005, so FY 2004 data are not comparable.

Note 2: Surveys were not collected in FY 2004.

Note 3: Measure was established at the end of FY 2004; FY 2005 is ﬁrst year of complete data.

Note 4: Data to compute the cost recovery ratio and facility condition index were not available at the time of printing.

Note 5: The data for FY 2007 were not available at the time of printing.



Water Supply
Objective:	 To provide water supply storage in a cost-efficient and environmentally responsible manner, in partnership with                          20
            nonfederal water management plans, that is consistent with law and policy.

Funding History: The first row of Table 10 shows the funding for the Water Supply Program.

Performance Indicator: To assist in measuring progress toward this objective, the Corps uses measures relating to the acre-feet of
water stored and cost recovery measures.These are shown in Table 10.

       Acre-feet available. Of the total acre-feet of water stored in a reservoir, this number represents the total acre-feet made
        available for the purpose of water supply.
       Acre-feet under contract. Of the acre-feet made available for water supply, this number represents the total number of
        acre-feet under contract with local interests.
            Percentage under contract. The percentage of the acre-feet of water supply storage space under contract compared to
             the acre-feet of space available for water storage.
            Costs available for recovery. The Corps seeks proportional reimbursement of capital cost for that portion of the
             reservoir that has been allocated for water supply. Cost available for recovery is the total estimated capital cost of water
             supply allocations.
            Costs recovered. Costs assigned to the water supply storage space that have been, or are in the process of, being
             recovered through repayment agreements.
            Percent of costs recovered. The percentage of costs available for recovery compared to costs recovered.

     Performance Results

     The funds received for FY 2007 were for billings and collections associated with water supply agreements and the operations and
     maintenance associated with specific water supply facilities. The funding also helped to resolve water problems in areas affected by
     drought and increased population pressure. As funding has remained constant, the percentage of acre feet under contract and percent
     of costs recovered have also remained relatively constant. Records indicate that for every dollar spent on billings and collections,
     some $15 to $20 is collected in principal, interest and operation and maintenance expense monies owed by the local sponsors. These
     funds are deposited in the U.S.Treasury.

      Table 10. Acre-Feed of Water Supply                                                                                                    FY 2007
                                                                              FY 2004          FY 2005           FY 2006            Target             Actual
      Funding history in millions of dollars                                     $2                $2               $2                $4               $2.5
      Acre-feet available (in millions of acre-feet)                           9.856             9.761             9.936              10
      Acre-feet under contract (in millions of acre-feet)                      9.108             9.356             9.936              9.6
      Percent under contract                                                   92.4%            95.9%             94.5%              96%
                                                                                                                                                     Note 1
      Costs available for recovery (in millions of dollars)                  $1,477.2          $1,459.8          $1,492.9         $1,500.0
      Costs recovered (in millions of dollars)                               $1,064.0          $1,096.1          $1,117.9         $1,131.0
      Percent recovered                                                         72%              75%              74.9%             75.4%

     Note 1: Due to a change in the data collection process, FY 2007 actual data were not available at time of printing. Data will be available on 30 November
     2007.


     Goal 4: Reduce Vulnerabilities and Losses to the Nation and the Army from Natural
     and Man-Made Disasters, Including Terrorism
     The purpose of this goal is to manage the risks associated with all types of hazards and to increase the responsiveness to disasters of
     the Civil Works Emergency Management Program within the Corps’ Office of Homeland Security in support of federal, state and
     local emergency management efforts. Disaster preparedness and response capabilities are not limited to water-related disasters, but
     draw on the engineering skills and management capabilities of the Corps in reacting to a broad range of natural disasters and national
     emergencies. Emergency readiness contributes to national security.
21
     Objective:       To attain and maintain a high, consistent state of preparedness.
     Objective:       To provide a rapid, effective and efficient all-hazards response.
     Objective:       To ensure effective and efficient long-term recovery operations.

     Funding History: The first row of Table 11 shows the funding for emergency preparedness and response and recovery operations.

     Performance Indicators: The four primary measures listed in Table 11 are designed to serve as indicators to assist Corps
     personnel in determining their progress in meeting the Corps’ emergency management objectives. The indicators are explained on
     the following page.




                                                                                                                           Commitment to Current and Future Readiness
Civil Works Fund
FY 2007 United States Army Annual Financial Statements – Restated Civil Works Financials




       Planning response team readiness. The Corps has established designated planning and response teams (PRT) that are
        organized to provide rapid emergency response for a specific mission area. This measure is calculated as a percentage of
        time during the fiscal year that PRTs are fully staffed, trained and ready to deploy.
       Project inspection performance. The Corps performs inspections of flood control works operated and maintained
        by public sponsors to ensure and assess their operations and maintenance condition. This measure is determined by the
        percentage of scheduled inspections completed during the fiscal year.
       Damaged project restoration. The Corps repairs flood control projects damaged by flood or storm under authority of
        Public Law 84-99. This measure is determined by the percentage of projects damaged during a fiscal year that are repaired
        prior to the next flood season.
       Project condition ratings. Under the Corps Rehabilitation and Inspection Program, inspected projects are given
        condition ratings that characterize the project maintenance condition. This measure is determined by the percentage of the
        total projects inspected during the fiscal year that received a rating of at least minimally acceptable.

Performance Results

The Corps maintained 41 national planning and response teams at a 76 percent fully manned, trained and equipped readiness rate
during FY 2007. These teams are trained and prepared to deploy to a disaster area and provide assistance for temporary power,
temporary housing, debris management, water and ice commodities, temporary roofing and infrastructure assessment. The readiness
rating was below the target rating due to an increase in the number of teams and improvements in team structures that required
additional training and manning. During FY 2007, the Corps conducted 74 percent (420 total) of the scheduled project inspections
of nonfederal flood damage reduction projects. Performance below the target objective resulted from the application of more
technically rigorous inspections in FY 2007, which limited the number of scheduled inspections that could be conducted. Of the total
projects inspected during FY 2007, 92 percent received project condition ratings of minimally acceptable or better. Major floods in
the northwest and central United States resulted in damages to 128 flood damage reduction projects. As of this report, repairs to
34 projects have been completed, resulting in a 27 percent performance rating for completing project repairs prior to the next flood
season. Repairs for all the remaining damaged projects have been funded, and construction will be completed by spring 2008.



 Table 11. Emergency Preparedness Indicators                                                                                    FY 2007
                                                                                       FY 2005         FY 2006         Target             Actual
                                                                          FY 2004       Note 1          Note 1         Note 2             Note 1
 Funding history in millions of dollars                                       $51        $348           $5,408          $58           $1,561
 Planning response team readiness                                             93%        82%             92%           90%                76%
 Project inspection performance                                               90%        96%             93%           92%                74%
                                                                                                                                                   22
 Damaged project restoration                                                  92%        75%             65%           88%                27%
 Project condition ratings                                                    93%        94%             95%           90%                92%

Note 1: Funding was provided in supplemental appropriations to repair projects damaged by coastal storm and ﬂooding.
Note 2: The funding target for FY 2007 was to fund preparedness activities.
     Possible Future Effects of Existing Conditions
     Flood Risk Management
     The goal of the program is to reduce the nation’s risk of damages due to flooding and coastal storms. The nation faces increasing
     flood hazards, putting existing developments at risk. This is compounded by the fact that new development is occurring in flood-
     prone areas, often behind aging flood-control structures that include some levees designed to provide agricultural rather than urban
     protection. National flood damages, which averaged $3.9 million annually in the 1980s, nearly doubled in the decade 1995 through
     2004. Total disaster assistance for both emergency response operations and subsequent long-term recovery efforts increased from an
     average of $444 million during the 1980s to $3.75 billion during the 1995 – 2004 decade.

     Significant investments in identifying, evaluating and maintaining existing flood infrastructure (e.g., levees, dams, beaches) are
     required. This includes accounting for the change in the frequency, magnitude and location of storms, as well as changes in land
     use. The Corps is responsible for maintaining some of this infrastructure, while other entities are responsible for the remaining
     infrastructure. Regardless of ownership, all elements of the infrastructure must function as a system to be effective. In addition to
     maintaining infrastructure, new flood-risk management measures must be studied, evaluated and implemented in a timely fashion.

     The Marine Transportation System (MTS)
     The MTS system is comprised of 1,000 harbor channels; 25,000 miles of inland, intracoastal and coastal waterways; and 240 lock
     chambers. The national goal for the MTS is to provide a safe, secure and globally integrated network that, in harmony with the
     environment, ensures a reliable movement of people and commerce along its waterways, sea lanes and inter-modal connections.
     Today, approximately 20 percent of the gross domestic product of the United States is generated by foreign trade, and approximately
     95 percent of that trade is moved by water. The value of the foreign tonnage is over $900 billion and generates 16 million jobs.
     Current forecasts predict that maritime trade will double, or possibly triple, in the next 20 years.

     Inland Waterways: Eleven of the inland waterway locks are over 100 years old, and 122 are over 50 years old. In recent years,
     maintenance deferrals and delays in rehabilitation and replacement of aging locks have driven up unscheduled closure time from
     12,000 hours per year in FY 2001 to 22,000 hours per year in FY 2006. These closures have a negative effect on the economy by
     imposing costs on shippers, carriers and electric utilities. For example, an unscheduled 52-day closure at Greenup Locks and Dams
     in Ohio cost shippers and carriers over $53 million. New improvements to inland waterways are jeopardized by the low balance in
     the Inland Waterways Trust Fund because half of the cost of such improvements must come from this fund.

     Coastal Channels and Harbors: Existing channels and high-volume harbors were only available 35 percent of the time in
     FY 2006. Inadequate channels affect the economy by imposing costs on vessel operators that are reflected in the cost of imports
     and the price of U.S. exports. Failure to maintain a foot of channel depth increases container shipping costs by about 6 percent
     on average. Postponing investment in deeper and wider channels to address the needs of future demands will result in additional
     economic costs.

     Environment: Aquatic Ecosystem Restoration
     The Aquatic Ecosystem Restoration sub-program’s goal is to restore to a less degraded, more natural condition, aquatic habitat whose
23   structure, function and dynamic processes have deteriorated. The Corps designs and constructs projects that modify, in a cost-
     effective manner, hydrologic and geomorphic characteristics to achieve its objectives.

     The demand for aquatic ecosystem restoration is great, and the challenge is to arrive at a sustainable balance between the often
     conflicting demands for the use and control of water resources. In FY 2007, the Corps initiated a research and development effort to
     develop environmental benefit assessments that will more objectively evaluate aquatic ecosystem restoration projects to enable it to
     effectively build and evaluate a national program. Until a standard metric is developed, the Corps will continue to work with other
     agencies and continue to invest in research and development in order to more objectively evaluate the disparate ecosystem restoration
     projects and to prioritize restoration needs. The Corps continues to try to fund a balanced program that addresses the variety of
     resources needed across the country.



                                                                                                          Commitment to Current and Future Readiness
Civil Works Fund
FY 2007 United States Army Annual Financial Statements – Restated Civil Works Financials




Analysis of Financial Statements and Stewardship Information
Civil Works Balance Sheet
The Army Civil Works Fund balance sheet includes total assets that exceed $44 billion, which is an approximate 2.1 percent increase
over FY 2006. Two asset categories – Fund Balance with Treasury and General Property, Plant and Equipment – make up almost 85
percent of total assets, with values of $11.2 billion and $26.7 billion, respectively.

Fund Balance with Treasury increased $3 billion (37 percent). The increase was primarily in the Flood Control and Coastal Emergencies
appropriation, which is used for hurricane and disaster relief work. The increase in this appropriation is due to a combination of a U.S.
Treasury warrant for $1.6 billion and total receipts collected of $2.6 billion. The $2.6 billion included collection of delinquent accounts
receivable from the Federal Emergency Management Agency (FEMA). Disbursements of $1.8 billion were made throughout FY 2007
for work performed on disaster relief efforts. The collections and disbursements are for disaster relief efforts related to Hurricanes
Katrina,Wilma and Rita by the USACE’s New Orleans,Vicksburg and Galveston Districts. The Treasury warrant and collections
combined with disbursements resulted in an increase in the fund balance of $2.4 billion.

Liabilities are approximately $4.4 billion, comprised primarily of other amounts due to treasury, other liabilities, accounts payable,
and environmental liabilities, which represent approximately 94 percent of the total.

 Figure 4. Select Civil Works Fund Assets and Liabilities

 Civil Works Fund

 $ in billions
                                                  2007 Consolidated          2006 Consolidated                        Percentage of FY 2007
 Asset Type                                           (Restated)                 (Restated)           Change                 Assets
 General Property, Plant and Equipment            $            26.73     $                26.29   $           0.45                   60%
 Fund Balance with Treasury                                    11.17                       8.15               3.02                   25%
 Accounts Receivable                                            2.52                       4.34              (1.82)                   6%
 Remaining Assets                                               4.16                       3.69               0.47                    9%
 Total Assets                                     $            44.58     $                42.47   $           2.11                  100%

                                                  2007 Consolidated          2006 Consolidated                        Percentage of FY 2007
 Liability Type                                       (Restated)                 (Restated)           Change                Liabilities
 Due to Treasury                                  $              1.47    $                 1.62   $          (0.15)                  34%
 Other Liabilities                                               0.99                      0.93                0.07                  23%
 Accounts Payable                                                0.97                      1.00              (0.03)                  22%
 Environmental Liabilities                                       0.66                      0.66              (0.00)                  15%
 Remaining Liabilities                                           0.26                      0.26                0.00                   6%
 Total Liabilities                                $              4.35    $                 4.47   $          (0.11)                 100%
                                                                                                                                              24


Stewardship Information
The current national register inventory for the USACE includes 489 archeological properties determined to be eligible for listing, and
97 archeological properties listed. There are 117 buildings and structures listed on the national register and 236 determined eligible
for listing.
     Figure 5. Select Civil Works Fund Assets and Liabilities

             Civil Works Assets

                                                                       General Property, Plant and Equipment
                       6%            9%                                Fund Balance with Treasury (Entity)
                                                                       Accounts Receivable
                                                                       Remaining Assets
              25%                                                60%




           Civil Works Liabilities

                                                                       Due to Treasury
                                      6%                               Other Liabilities
                       15%                                      34%    Accounts Payable
                                                                       Environmental Liabilities
                 22%                                                   Remaining Liabilities
                                              23%




25




                                                                                    Commitment to Current and Future Readiness
Civil Works Fund
FY 2007 United States Army Annual Financial Statements – Restated Civil Works Financials




                                                                                           26
Limitations
LIMITATIONS OF THE FINANCIAL STATEMENTS
The financial statements have been prepared to report the financial position and results of
operations for the entity, pursuant to the requirements of Title 31, United States Code, section
3515(b).

While the statements have been prepared from the books and records of the entity, in accordance
with the formats prescribed by the Office of Management and Budget, the statements are in
addition to the financial reports used to monitor and control budgetary resources, which are
prepared from the same books and records.

The statements should be read with the realization that they are for a component of the United
States Government, a sovereign entity.




                                                                                                   27




        FY 2007 United States Army Annual Financial Statements – Restated Civil Works Financials
     Civil Works Fund
     Principal Financial Statements, Notes and Supplementary Information


     Department of Defense - US Army Corps of Engineers

     BALANCE SHEET
     As of September 30, 2007 and 2006 ($ in Thousands)
                                                                                     2007 Consolidated         2006 Consolidated
     ASSETS (Note 2)                                                                     (Restated)                (Restated)
       Intragovernmental:
          Fund Balance with Treasury (Notes 1.V. & 3)                            $            11,165,472   $             8,147,353
          Investments (Note 4)                                                                 4,038,353                 3,571,456
          Accounts Receivable (Notes I.V. & 5)                                                   873,119                 2,696,060
          Total Intragovernmental Assets                                         $            16,076,944   $            14,414,869

       Cash and Other Monetary Assets (Note 7)                                   $                 1,371   $                 1,310
       Accounts Receivable, Net (Note 5)                                                       1,644,574                 1,641,432
       Inventory and Related Property, Net (Note 9)                                              121,704                   121,340
       General Property, Plant and Equipment, Net (Notes 1.V. & 10)                           26,734,595                26,289,495
       Other Assets (Note 6)                                                                         494                         0
     TOTAL ASSETS                                                                $            44,579,682   $            42,468,446

     Stewardship PP&E (Note 8)

     LIABILITIES (Note 11)
       Intragovernmental:
          Accounts Payable (Notes 1.V. & 12)                                     $               128,411   $               133,029
          Debt (Note 13)                                                                          12,917                    13,924
          Due to Treasury (Note 15)                                                            1,468,894                 1,621,941
          Other Liabilities (Notes 15 & 16)                                                      405,629                   233,290
          Total Intragovernmental Liabilities                                    $             2,015,851   $             2,002,184

       Accounts Payable - Public (Note 12)                                       $               839,715   $               862,035
       Federal Employee and Veterans' Beneﬁts (Note 17)                                          251,887                   250,575
       Environmental and Disposal Liabilities (Note 14)                                          656,123                   657,497
       Other Liabilities (Notes 1.V., 15 & 16)                                                   588,926                   693,922
     TOTAL LIABILITIES                                                           $             4,352,502   $             4,466,213

     Commitments and Contingencies (Note 16)

     NET POSITION
       Unexpended Appropriations - Other Funds (Note 1.V.)                                     8,336,552                 7,046,853
       Cumulative Results of Operations - Earmarked Funds (Note 22)                            6,129,552                 5,588,141
       Cumulative Results of Operations - Other Funds (Note 1.V.)                             25,761,076                25,367,239
     TOTAL NET POSITION                                                          $            40,227,180   $            38,002,233

     TOTAL LIABILITIES AND NET POSITION                                          $            44,579,682   $            42,468,446



     The accompanying notes are an integral part of these ﬁnancial statements.
28
Department of Defense - US Army Corps of Engineers

STATEMENT OF NET COST
For the years ended September 30, 2007 and 2006 ($ in Thousands)
                                                                                     2007 Consolidated             2006 Consolidated
Program Costs                                                                            (Restated)                    (Restated)
  Gross Costs (Note 18)                                                        $                8,615,546    $              11,694,262
  (Less: Earned Revenue)                                                                       (3,052,387)                  (5,253,732)
  Net Program Costs                                                            $                5,563,159    $                6,440,530
Net Cost of Operations                                                         $                5,563,159    $                6,440,530




The accompanying notes are an integral part of these ﬁnancial statements.
                                                                                                                                             29




                                                  FY 2007 United States Army Annual Financial Statements – Restated Civil Works Financials
     Civil Works Fund
     Principal Financial Statements, Notes and Supplementary Information


     Department of Defense - US Army Corps of Engineers

     STATEMENT OF CHANGES IN NET POSITION
     For the years ended September 30, 2007 and 2006 ($ in Thousands)
                                                                                        2007                  2007               2007
                                                                                   Earmarked Funds      All Other Funds       Consolidated
     CUMULATIVE RESULTS OF OPERATIONS                                                 (Restated)            (Restated)         (Restated)
     Beginning Balances                                                          $          5,380,665   $     25,574,715    $     30,955,380
     Prior Period Adjustments:
       Changes in accounting principles (Note 1.V.)                                                0           (450,381)           (450,381)
       Corrections of errors (Notes 1.V. & 24)                                                     0                  0                   0
     Beginning balances, as adjusted                                                       5,380,665         25,124,334          30,504,999
     Budgetary Financing Sources:
       Appropriations used                                                                         0          4,540,018            4,540,018
       Nonexchange revenue                                                                 1,983,572               (239)           1,983,333
       Transfers-in/out without reimbursement                                                 16,503            111,960              128,463
     Other Financing Sources:
       Donations and forfeitures of property                                                       0             11,105              11,105
       Transfers-in/out without reimbursement                                                256,145           (232,606)             23,539
       Imputed ﬁnancing from costs absorbed by others                                              0            262,330             262,330
     Total Financing Sources                                                               2,256,220          4,692,568           6,948,788
     Net Cost of Operations                                                                1,326,284          4,607,397           5,563,159
     Net Change                                                                              929,936             85,171           1,385,629
     Cumulative Results of Operations                                                      6,310,601         25,209,505          31,890,628
     UNEXPENDED APPROPRIATIONS
     Beginning Balances                                                          $                 0    $     7,046,853     $      7,046,853
     Prior Period Adjustments:
       Changes in accounting principles (Note 1.V.)                                                0            (35,335)             (35,335)
     Beginning balances, as adjusted                                                               0          7,011,518            7,011,518
     Budgetary Financing Sources:
       Appropriations received                                                                     0          5,865,443           5,865,443
       Appropriations transferred-in/out                                                           0               (334)               (334)
       Other adjustments (rescissions, etc.)                                                       0                 (57)                (57)
       Appropriations used                                                                         0         (4,540,018)         (4,540,018)
     Total Budgetary Financing Sources                                                             0          1,325,034           1,325,034
     Unexpended Appropriations                                                                     0          8,336,552           8,336,552
     Net Position                                                                $         6,310,601    $    32,221,023     $    40,227,180




     The accompanying notes are an integral part of these ﬁnancial statements.
30
Department of Defense - US Army Corps of Engineers

STATEMENT OF CHANGES IN NET POSITION
For the years ended September 30, 2007 and 2006 ($ in Thousands)
                                                                                  2006                   2006                  2006
                                                                            Earmarked Funds        All Other Funds         Consolidated
CUMULATIVE RESULTS OF OPERATIONS                                               (Restated)              (Restated)           (Restated)
Beginning Balances                                                          $       4,781,544    $         26,024,854    $      30,806,398
Prior Period Adjustments:
  Changes in accounting principles (Note 1.V.)                                              0                      0                    0
  Corrections of errors (Notes 1.V. & 24)                                                   0               (740,928)            (740,928)
Beginning balances, as adjusted                                                     4,781,544             25,283,926           30,065,470
Budgetary Financing Sources:
  Appropriations used                                                                       0              4,913,155            4,913,155
  Nonexchange revenue                                                               1,841,682                      0            1,841,682
  Transfers-in/out without reimbursement                                                8,362                284,043              292,405
Other Financing Sources:
  Donations and forfeitures of property                                                     0                 19,888               19,888
  Transfers-in/out without reimbursement                                             (135,271)               135,457                  186
  Imputed ﬁnancing from costs absorbed by others                                            0                263,124              263,124
Total Financing Sources                                                             1,714,773              5,615,667            7,330,440
Net Cost of Operations                                                              1,115,652              5,324,878            6,440,530
Net Change                                                                            599,121                290,789              889,910
Cumulative Results of Operations                                                    5,380,665             25,574,715           30,955,380
UNEXPENDED APPROPRIATIONS
Beginning Balances                                                          $               0    $         1,005,843     $      1,005,843
Prior Period Adjustments:
  Changes in accounting principles (Note 1.V.)                                              0                      0                    0
Beginning balances, as adjusted                                                             0              1,005,843            1,005,843
Budgetary Financing Sources:
  Appropriations received                                                                   0             10,980,882           10,980,882
  Appropriations transferred-in/out                                                         0                  27,114               27,114
  Other adjustments (rescissions, etc.)                                                     0                 (53,831)             (53,831)
  Appropriations used                                                                       0             (4,913,155)          (4,913,155)
Total Budgetary Financing Sources                                                           0              6,041,010            6,041,010
Unexpended Appropriations                                                                   0              7,046,853            7,046,853
Net Position                                                                $       5,380,665    $        32,621,568     $     38,002,233




The accompanying notes are an integral part of these ﬁnancial statements.
                                                                                                                                              31




                                                  FY 2007 United States Army Annual Financial Statements – Restated Civil Works Financials
     Civil Works Fund
     Principal Financial Statements, Notes and Supplementary Information


     Department of Defense - US Army Corps of Engineers

     STATEMENT OF BUDGETARY RESOURCES
     For the years ended September 30, 2007 and 2006 ($ in Thousands)
                                                                                     2007 Combined            2006 Combined
     BUDGETARY FINANCING ACCOUNTS                                                      (Restated)               (Restated)
     BUDGETARY RESOURCES:
     Unobligated balance, brought forward, October 1                             $          9,445,339     $           5,003,186
     Recoveries of prior year unpaid obligations                                              491,474                   418,242
     Budget authority
       Appropriation                                                                        7,503,579                12,439,718
       Spending authority from offsetting collections
           Earned
             Collected                                                                     10,417,319                 9,465,576
             Change in receivables from Federal sources                                    (1,792,986)                1,979,190
           Change in unﬁlled customer orders
             Advance received                                                                  (20,162)                  (35,792)
             Without advance from Federal sources                                            (491,895)               (1,008,037)
        Subtotal                                                                           15,615,855                22,840,655
     Nonexpenditure transfers, net, anticipated and actual                                      78,583                     (8,068)
     Temporarily not available pursuant to Public Law                                          (10,000)                  (10,000)
     Permanently not available                                                                    (732)                  (54,490)
     Total Budgetary Resources                                                   $         25,620,519     $          28,189,525

     Status of Budgetary Resources:
     Obligations incurred:
       Direct                                                                    $          7,281,595     $           7,243,506
       Reimbursable                                                                         8,436,698                11,500,680
       Subtotal                                                                            15,718,293                18,744,186
     Unobligated balance:
       Apportioned                                                                          8,954,424                 8,698,433
       Exempt from apportionment                                                              937,561                   746,850
       Subtotal                                                                             9,891,985                 9,445,283
     Unobligated balance not available                                                         10,241                        56
     Total status of budgetary resources                                         $         25,620,519     $          28,189,525
     Change in Obligated Balance:
     Obligated balance, net
        Unpaid obligations, brought forward, October 1                                      5,401,044                 3,945,373
        Less: Uncollected customer payments
           from Federal sources, brought forward, October 1                      $          (6,421,138)   $           (5,449,985)
       Total unpaid obligated balance                                                       (1,020,094)               (1,504,612)
     Obligations incurred net                                                    $         15,718,293     $          18,744,185
     Less: Gross outlays                                                                  (14,836,212)              (16,870,276)
     Less: Recoveries of prior year unpaid obligations, actual                                (491,474)                 (418,242)
     Change in uncollected customer payments from Federal sources                            2,284,881                  (971,153)
     Obligated balance, net, end of period
       Unpaid obligations                                                                   5,791,649                 5,401,044
       Less: Uncollected customer payments from Federal sources                            (4,136,258)               (6,421,138)
       Total, unpaid obligated balance, net, end of period                                  1,655,391                (1,020,094)
     Net Outlays:
32     Gross outlays                                                                       14,836,212                16,870,276
       Less: Offsetting collections                                                       (10,397,157)               (9,429,787)
       Less: Distributed Offsetting receipts                                                 (521,925)                 (502,276)
       Net Outlays                                                               $          3,917,130     $           6,938,213




     The accompanying notes are an integral part of these ﬁnancial statements.
Note 1.             Signiﬁcant Accounting Policies
1.A.      Basis of Presentation
These financial statements have been prepared to report the financial position and results of operations of the U.S.Army Corps of
Engineers Civil Works Program (USACE), as required by the Chief Financial Officers Act of 1990, expanded by the Government
Management Reform Act of 1994, and other appropriate legislation. The financial statements have been prepared from the books
and records of USACE in accordance with the Department of Defense (DoD) Financial Management Regulation (FMR), Office
of Management and Budget (OMB) Circular A-136, Financial Reporting Requirements, and generally accepted accounting principles
(GAAP). Refer to Note 24, “Restatements”. The accompanying financial statements account for all Civil Works resources for which
USACE is responsible.

USACE’s financial statements are prepared from the consolidation of general ledger financial data reported from the Corps
of Engineers Financial Management System (CEFMS) to the Corps of Engineers Enterprise Management Information System
(CEEMIS). The financial statements are presented on the accrual basis of accounting as required by the Statements of Federal
Financial Accounting Standards (SFFAS).


1.B.      Mission of the Reporting Entity
The primary mission of USACE includes maintaining navigation channels, reducing flooding, assisting during natural disasters and
other emergencies, and making waterways passable. The Civil Works Program also supports the Department of Homeland Security
in carrying out the National Response Plan. USACE’s primary role in support of this plan is to provide emergency support in areas
of public works and engineering. USACE responds to more than 30 presidential disaster declarations in a typical year, and its highly
trained workforce is prepared to deal with both man-made and natural disasters.


1.C.      Appropriations and Funds
USACE Civil Works Program receives federal funding through annual Energy and Water Development Appropriations Act. Program
funding also comes from nonfederal project sponsors who share in project costs according to formulas established by project
authorization acts. A third source of funding comes through the Support for Others Program, which is conducted under reimbursable
agreements with federal agencies.

USACE Civil Works Program receives its appropriations and funds as general, revolving, trust, special and deposit funds. USACE uses
these appropriations and funds to execute its mission and subsequently report on resource usage.

General funds are used for financial transactions funded by congressional appropriations, including personnel, operation and
maintenance, research and development, procurement, and construction accounts.

Revolving funds received funding to establish an initial corpus through an appropriation or a transfer of resources from existing
appropriations or funds. The corpus finances operations and transactions that flow through the fund. The revolving fund resources      33
the goods and services sold to customers on a reimbursable basis and maintains the corpus. Reimbursable receipts fund future
operations and generally are available in their entirety for use without further congressional action.

Trust funds contain receipts and expenditures of funds held in trust by the government for use in carrying out specific purposes or
programs in accordance with the terms of the donor, trust agreement or statute. Certain trust and special funds may be designated
as earmarked funds. Earmarked funds are financed by specifically identified revenues, required by statute to be used for designated
activities, benefits or purposes, and remain available over time. Earmarked funds also have a requirement to account for and report
on the receipt, use and retention of revenues and other financing sources that distinguish them from general revenues.



                                            FY 2007 United States Army Annual Financial Statements – Restated Civil Works Financials
     Civil Works Fund
     Principal Financial Statements, Notes and Supplementary Information


     Special fund accounts are used to record government receipts reserved for a specific purpose.

     Deposit funds are used to record amounts held temporarily until paid to the appropriate government or public entity. USACE is
     acting as an agent or a custodian for funds awaiting distribution.

     In 1997, USACE received borrowing authority from the U.S.Treasury for the three years 1997 through 1999 to finance capital
     improvements to the Washington Aqueduct.

     The asset accounts used to prepare the principal financial statements are categorized as entity/nonentity. Entity accounts consist of
     resources that the agency has the authority to use, or where management is legally obligated to use funds to meet entity obligations.
     Nonentity accounts are assets that are held by an entity but are not available for use in the operations of the entity. A summary of the
     entity and nonentity accounts follows:


     Entity Accounts:
     General Funds
     96X3112     Flood Control, Mississippi River and Tributaries
     96X3121     Investigations
     96 3121     Investigations (fiscal year)
     96X3122     Construction
     96X3123     Operation and Maintenance, General
     96 3123     Operation and Maintenance, General
     96X3124     General Expenses
     96 3124     General Expenses
     96X3125     Flood Control and Coastal Emergencies
     96 3125     Flood Control and Coastal Emergencies
     96X3126     Regulatory Program
     96X3128     Washington Aqueduct Capital Improvements
     96 3129     Payment to the South Dakota Terrestrial Wildlife Habitat Restoration Trust Fund
     96X3130     Formerly Utilized Sites Remedial Action Program
     96 3132     Office of Assistant Secretary of the Army, Civil Works
     96X6094     Advances from the District of Columbia

     Revolving Funds
     96X4902     Revolving Fund

     Special Funds
     96X5007     Special Recreation Use Fees
     96X5066     Hydraulic Mining in California, Debris
     96X5090     Payments to States, Flood Control Act of 1954
     96X5125     Maintenance and Operation of Dams and Other Improvements of Navigable Waters
     96X5493     Fund for Non-Federal Use of Disposal Facilities
34   96 5493     Fund for Non-Federal Use of Disposal Facilities

     Trust Funds
     96X8217        South Dakota Terrestrial Wildlife Habitat Restoration Trust Fund
     96X8333        Coastal Wetlands Restoration Trust Fund
     96 20X8861     Inland Waterways Trust Fund
     96X8862        Rivers and Harbors Contributed and Advance Funds
     96 20X8863     Harbor Maintenance Trust Fund
     96 89X4045     Bonneville Power Administration Fund, Power Marketing Administration, Department of Energy

     Transfer Funds (reported by the Parent)
     96 12X1105 State and Private Forestry, Forest Service
     96 14X1039 Construction, National Park Service
     96 14X5035 Land Acquisition and State Assistance, National Park Service
96 14X5573     Permit Processing Fund, Bureau of Land Management
96 46X0200     Appalachian Regional Development Programs, Appalachian Regional Commission
96 69X8083     Federal - Aid Highways (Liquidation of Contract Authorization), Federal Highways Administration
96 89X4045     Bonneville Power Administration Fund, Power Marketing Administration, Department of Energy

Nonentity Accounts:
Deposit Funds
96X6500     Advances Without Orders from Non-Federal Sources
96X6501     Small Escrow Amounts

Clearing Accounts
96F3875     Budget Clearing Account (suspense)
96F3880     Unavailable Check Cancellations and Overpayments (suspense)
96F3885     Undistributed Intragovernmental Payments

Receipt Accounts
96 0891     Miscellaneous Fees for Regulatory and Judicial Services, Not Otherwise Classified
96 1060     Forfeitures of Unclaimed Money and Property
96 1099     Fines, Penalties, and Forfeitures, Not Otherwise Classified
96 1299     Gifts to the United States, Not Otherwise Classified
96 1435     General Fund Proprietary Interest, Not Otherwise Classified
96 3220     General Fund Proprietary Receipts, Not Otherwise Classified,All Other
96 5005     Land and Water Conservation Fund
96 5007     Special Recreation Use Fees
96 5066     Hydraulic Mining in California
96 5090     Receipts from Leases of Lands Acquired for Flood Control, Navigation, and Allied Purposes
96 5125     Licenses under Federal Power Act, Improvements of Navigable Waters, Maintenance and Operation of Dams, etc., (50%)
96 5493     User Fees, Fund for Non-Federal Use of Disposal Facilities

Obsolete Accounts
96 13X1450        96 89X0224            96X6145          96F3886         96 1499
96 14X2301        96 20X8145            96X6275          96 0199         96 2413
96 19 00 1082     96X3930               96X6302          96 0869         96 2814
96 47X4542        96X6050               96X6999          96 1030         96 3102
96 67X0204        96X6075               96X8868          96 1040         96 3124
96 72 00/01 1021 96X6134                96F3879          96 1210


1.D.      Basis of Accounting
USACE’s financial management system meets all of the requirements for full accrual accounting. USACE transactions are recorded on
an accrual accounting basis as required by GAAP. Under the accrual method, revenues are recognized when earned and expenses are
recognized when a liability is incurred without regard to receipt or payment of cash. Budgetary accounting is accomplished through        35
unique general ledger accounts to facilitate compliance with legal and internal control requirements associated with the use of federal
funds, in accordance with the Treasury Financial Manual.


1.E.      Revenues and Other Financing Sources
USACE receives congressional appropriations as financing sources for general funds on either an annual or multi-year basis. When
authorized by legislation, these appropriations are supplemented by revenues generated by sales of goods or services. USACE
recognizes revenue as a result of costs incurred for goods or services provided to other federal agencies and the public. Full cost




                                            FY 2007 United States Army Annual Financial Statements – Restated Civil Works Financials
     Civil Works Fund
     Principal Financial Statements, Notes and Supplementary Information


     pricing is USACE’s standard policy for goods or services provided, as required by OMB Circular A-25, User Charges. USACE
     recognizes revenue when earned.

     USACE records two types of revenue: exchange and non-exchange. Exchange revenue is the inflow of resources that USACE has
     earned by providing something of value to the public or another Federal entity at a price. Sources of exchange revenue are customer
     orders (reimbursable agreements), cost sharing revenue, long-term water storage (LTWS) agreements and other exchange revenue.

     Customer Orders are contracts where USACE provides goods or services under a reimbursable agreement; the related revenue and
     accounts receivable are recorded simultaneously along with the costs and payables in CEFMS. For non-federal entities, an advance
     payment is required and USACE records deferred revenue for the advance received; USACE recognizes the deferred revenue as costs
     are incurred.

     Cost Sharing Revenue arises from agreements under which USACE constructs assets, the cost of which will be borne in part by
     another entity (sponsor).Throughout the life of a cost share project, USACE revenue is earned based on the sponsor’s proportionate
     share of project costs incurred. Sponsors are generally required to provide funds in an advance account. USACE withdraws the
     sponsor’s cash account, which is an escrow account.At the time of the withdrawal for cost incurred, USACE also recognized revenue.

     Long TermWater Storage (LTWS) Agreements is revenue for LTWS agreements based on the cost of construction to be recouped by
     USACE from the municipality. Annually, CEFMS automatically recognizes revenue on the agreement, which can be amortized from
     two to fifty years, depending on the contract specifications. Payments are amortized over the life of the agreement.

     Non-exchange revenue represents resources received by USACE when a good or service is not provided in exchange for that revenue.
     Examples of types of non-exchange revenue include trust fund receipts, penalties and donations.


     1.F.      Recognition of Expenses
     Accrual adjustments are made for environmental liabilities. USACE’s expenditures for capital and other long-term assets are
     recognized as operating expenses as the assets are depreciated.


     1.G.      Accounting for Intragovernmental Activities
     USACE eliminates transactions among USACE entities in their financial statements.

     The U.S.Treasury Financial Management Service is responsible for eliminating transactions between DoD and other federal agencies.
     The Treasury Financial Manual, Part 2 – Chapter 4700, “Agency Reporting Requirements for the Financial Report of the United
     States Government,” and the U.S.Treasury’s “Federal Intragovernmental Transactions Accounting Policy Guide” provide guidance for
     reporting and reconciling intragovernmental balances. While USACE is unable to fully reconcile intragovernmental transactions with
     all federal partners, USACE is able to reconcile balances pertaining to investments in federal securities, borrowings from the U.S.
     Treasury and the Federal Financing Bank, Federal Employees’ Compensation Act transactions with the Department of Labor, and
36   benefit program transactions with OPM. USACE has implemented policies and procedures related to reconciling intragovernmental
     assets, liabilities, revenues and expenses for nonfiduciary transactions. Entities whose financial systems are unable to capture and
     provide complete, pertinent data limit the degree of intragovernmental reconciliation. USACE is able to fully reconcile with
     those entities whose financial systems have the capability to capture and provide all pertinent information needed for accurate
     intragovernmental reconciliation.

     USACE’s proportionate share of public debt and related expenses of the Federal Government is not included in its financial
     statements. The Federal Government does not apportion debt and its related costs to federal agencies. USACE’s financial
     statements, therefore, do not report any portion of the public debt or interest thereon, nor do the statements report the source of
     public financing whether from issuance of debt or tax revenues.

     Financing for the construction of USACE’s facilities is obtained through appropriations. To the extent this financing ultimately may
have been obtained through the issuance of public debt, interest costs have not been capitalized since the U.S.Treasury does not
allocate such interest costs to the benefiting agencies.


1.H.      Funds with the U.S. Treasury
USACE’s monetary financial resources are maintained in U.S.Treasury accounts. The disbursing offices of the USACE Finance Center
(UFC), the Defense Finance and Accounting Service (DFAS) and the Department of State’s financial service centers process the
majority of USACE’s cash collections, disbursements and adjustments worldwide. Each disbursing station prepares monthly reports
that provide information to the U.S.Treasury on check issues, electronic fund transfers, interagency transfers and deposits.

In addition, UFC and DFAS sites submit reports to the U.S.Treasury by appropriation on interagency transfers, collections received
and disbursements issued. The U.S.Treasury records this information to the applicable Fund Balance with Treasury (FBWT) account.
Differences between USACE’s recorded balance in FBWT accounts and U.S.Treasury’s FBWT accounts sometimes result and are
subsequently reconciled.


1.I.      Foreign Currency
Cash is the total of cash resources under the control of USACE, which includes coin, paper currency, negotiable instruments and
amounts held for deposit in banks and other financial institutions. Foreign currency consists of the total U.S. dollar equivalent of both
purchased and nonpurchased foreign currencies held in foreign currency fund accounts.

The majority of cash and all foreign currency is classified as nonentity and is restricted. Amounts reported consist primarily of cash
and foreign currency held by disbursing officers to carry out their paying, collecting and foreign currency accommodation exchange
missions.

USACE conducts operations overseas on behalf of the U.S. Government which involves the use of foreign currency. Foreign currency
fluctuations require adjustments to the original obligation amount at the time of payment. USACE does not separately identify
currency fluctuations.


1.J.      Accounts Receivable
Accounts receivable includes three categories: accounts, claims and refunds receivable from other federal entities or from the public.
USACE bases the allowance for uncollectible accounts receivable due from the public on established percentages per aged category of
the cumulative balance of delinquent public receivables. The calculation and financial transaction updates are performed automatically
in CEFMS. USACE does not recognize an allowance for estimated uncollectible amounts from other federal agencies. Claims
against other federal agencies are resolved between the agencies, in accordance with dispute resolution procedures defined in the
Intragovernmental Business Rules published in the Treasury Financial Manual at http://www.fms.treas.gov/tfm/vol1/07-03.pdf.


1.K.      Inventories and Related Property                                                                                                  37

USACE inventories are valued at historical cost based on a moving weighted average that is based on actual cost divided by quantity.
A perpetual record of inventory is maintained in CEFMS to allow for recomputation of the average unit cost as new receipts are
recorded. The CEFMS maintains historical cost data necessary to comply with SFFAS No. 3, Accounting for Inventory and Related
Property.

Related property includes Operating Materials &Supplies (OM&S). OM&S are valued at net realizable value. USACE uses the
consumption method of accounting for OM&S, as defined in the SFFAS No. 3, as material that has not been issued to the end user.
Once OM&S is issued, the materials and supplies are expensed.



                                             FY 2007 United States Army Annual Financial Statements – Restated Civil Works Financials
     Civil Works Fund
     Principal Financial Statements, Notes and Supplementary Information


     Work in process (WIP) balances include costs related to the production or servicing of items, including direct material, direct labor,
     applied overhead and other direct costs. The WIP also includes the value of finished products or completed services that are yet to be
     placed in service and transferred to an asset account.


     1.L.      Investments
     USACE reports investments in U.S.Treasury securities at cost, net of amortized premiums or discounts. Premiums or discounts
     are amortized over the term of the investment using the effective interest rate method or another method obtaining similar results.
     USACE’s intent is to hold investments to maturity, unless they are needed to finance claims or otherwise sustain operations.
     Consequently, a provision is not made for unrealized gains or losses on these securities.

     The Bureau of Public Debt (BPD), on behalf of USACE, invests in nonmarketable securities. The two types of nonmarketable
     securities are par value and market-based intragovernmental securities. BPD issues nonmarketable par value intragovernmental
     securities. Nonmarketable market-based intragovernmental securities mimic marketable securities, but are not publicly traded.

     USACE’s net investments are held by three trust funds. These funds include South Dakota Terrestrial Habitat Restoration, Inland
     Waterways and Harbor Maintenance trust fund accounts.


     1.M. General Property, Plant and Equipment
     USACE General Property, Plant and Equipment (PP&E) is capitalized at historical acquisition cost plus capitalized improvements
     when an asset has a useful life of two or more years and the acquisition cost exceeds $25 thousand. In FY 2003, USACE increased the
     threshold (effective FY 2004) for buildings and structures to $25 thousand for all Civil Works appropriations with the exception of
     Revolving Fund and hydropower related assets, and expensed all previously acquired assets that did not meet the new $25 thousand
     threshold. All buildings and structures related to hydropower projects are capitalized regardless of cost. Prior to FY 2004, USACE
     capitalized all buildings and structures regardless of cost.

     When it is in the best interest of the government, USACE provides government property to contractors to complete contract work.
     USACE either owns or leases such property, or it is purchased directly by the contractor for the government based on contract terms.
     When the value of contractor-procured General PP&E exceeds the DoD capitalization threshold, it must be reported on USACE’s
     Balance Sheet.

     In June 2004, USACE and the Department of Defense Office of Inspector General (DoD OIG), in coordination with the General
     Accountability Office and the Department of Defense Office of the Undersecretary of Defense (Comptroller)/Chief Financial
     Officer, executed a Memorandum of Agreement (MOA), entitled Support for Recorded Book Cost of General Property, Plant & Equipment
     Assets.

     The MOA provides alternate methods for USACE to estimate and support the historical costs of its real property assets, including
     the administrative costs of land, acquired prior to FY 1999, and personal property assets acquired prior to FY 2003. The alternate
38   methods are necessary because certain supporting documentation to substantiate recorded costs for those assets is no longer available.
     Management’s alternate methods, which are consistent with the principles, relevant to USACE circumstances, as contained in
     Statements of Federal Financial Accounting Standards (SFFAS) No. 6, Accounting for Property, Plant and Equipment and SFFAS No. 23,
     Eliminating the Category National Defense Property, Plant And Equipment, consist of using a combination of appropriation or engineering
     documents, or other available real estate, financial and operations data, combined with written management attestation statements, to
     estimate and support the original acquisition or construction costs recorded for each asset.

     Construction in progress (CIP) is used to accumulate the cost of construction or additions and betterments to fixed assets. Project
     costs are transferred from CIP to the placed-in-service accounts when an asset or addition or betterment is determined to be
     substantially complete and ready for its intended use. Accumulated costs remain in CIP until these criteria are met.
1.N.      Advances and Prepayments
Advances and prepayments made in advance of the receipt of goods and services are reported as an asset on the Balance Sheet.
Amounts are expensed or properly classified as assets when the related goods and services are received.


1.O.      Leases
Lease payments for the rental of equipment and operating facilities are classified as either capital or operating leases. When a lease
is essentially equivalent to an installment purchase of property (a capital lease), USACE records the applicable asset and liability if
the value equals or exceeds the current capitalization threshold. USACE records the amounts as the lesser of the present value of
the rental and other lease payments during the lease term (excluding portions representing executory costs paid to the lessor) or
the asset’s fair market value. The discount rate for the present value calculation is either the lessor’s implicit interest rate or the
government’s incremental borrowing rate at the inception of the lease. USACE, as the lessee, receives the use and possession of
leased property, for example real estate or equipment, from a lessor in exchange for a payment of funds. An operating lease does not
substantially transfer all the benefits and risk of ownership. Payments for operating leases are charged to expense over the lease term
as it becomes payable.


1.P.      Other Assets
Other assets include travel advances that are not reported elsewhere on USACE’s Balance Sheet.


1.Q.      Contingencies and Other Liabilities
The SFFAS No. 5, Accounting for Liabilities of the Federal Government, as amended by SFFAS No. 12, Recognition of Contingent Liabilities
Arising from Litigation, defines a contingency as an existing condition, situation or set of circumstances that involves an uncertainty as
to possible gain or loss. The uncertainty will be resolved when one or more future events occur or fail to occur. USACE recognizes
contingent liabilities when past events or exchange transactions occur, a future loss is probable and the loss amount can be reasonably
estimated.

USACE discloses contingent liabilities when conditions for liability recognition do not exist but there is at least a reasonable
possibility of incurring a loss or additional losses. Examples of loss contingencies include the collectibility of receivables, pending or
threatened litigation and possible claims and assessments. USACE’s risk of loss and resultant contingent liabilities arise from pending
or threatened litigation or claims and assessments due to events such as aircraft, ship and vehicle accidents; property or environmental
damages; and contract disputes.

Other liabilities arise as a result of anticipated disposal costs for USACE’s assets. This type of liability has two components:
nonenvironmental and environmental. Consistent with SFFAS No. 6,Accounting for Property, Plant, and Equipment, recognition of
an anticipated environmental disposal liability begins when the asset is placed into service. Nonenvironmental disposal liabilities are
recognized for assets when management decides to dispose of an asset based upon DoD policy, which is consistent with
                                                                                                                                             39
SFFAS No. 5.


1.R.      Accrued Leave
USACE reports a liability for civilian earned leave, except sick leave, that has been accrued and not used as of the Balance Sheet date.
Sick leave is expensed as taken. The liability reported at the end of the accounting period reflects current pay rates.




                                              FY 2007 United States Army Annual Financial Statements – Restated Civil Works Financials
     Civil Works Fund
     Principal Financial Statements, Notes and Supplementary Information


     1.S.      Net Position
     Net Position consists of unexpended appropriations and cumulative results of operations.

     Unexpended Appropriations represent the amounts of authority that are unobligated and have not been rescinded or withdrawn.
     Unexpended Appropriations also represent amounts obligated for which legal liabilities for payments have not been incurred.

     Cumulative Results of Operations represent the net difference, since inception of an activity, between expenses and losses, and
     financing sources (including appropriations, revenue and gains).


     1.T.      Unexpended Obligations
     USACE obligates funds to provide goods and services for outstanding orders not yet delivered. The financial statements do not reflect
     this liability for payment for goods and services not yet delivered, unless title passes.


     1.U.      Undistributed Disbursements and Collections
     Undistributed disbursements and collections represent the difference between disbursements and collections matched at the
     transaction level to a specific obligation, payable or receivable in the activity field records, as opposed to those reported by the U.S.
     Treasury. These amounts should agree with the undistributed amounts reported on the monthly accounting reports. In-transit
     payments are those payments that have been made, but have not been recorded in the fund holder’s accounting records. These
     payments are applied to the entities’ outstanding accounts payable balance. In-transit collections are those collections from other
     agencies or entities that have not been recorded in the accounting records. These collections are applied to the entities’ accounts
     receivable balance.

     All undistributed disbursements and collections for USACE are unrecorded Intragovernmental Payment and Collection transactions.
     These transactions are all federal.


     1.V.      Prior Period Adjustments and Changes in Presentation
     The former Statement of Financing (SOF) is presented in a note, in accordance with OMB Circular A-136. The SOF is no longer
     considered a basic statement and is now referred to as “Reconciliation of Net Cost of Operations to Budget” in Note 21.

     In accordance with OMB Circular A-136, USACE implemented a new reporting procedure for FY 2007 to exclude from its financial
     statement activity its transfer appropriation accounts for parent/child relationships. The Circular requires the parent agency to
     report all parent/child activity in its financial statements.

     USACE is a party to allocation transfers with other federal agencies as a receiving (child) entity. Allocation transfers are legal
     delegations by one agency of its authority to obligate budget authority and outlay funds to another agency. A separate fund account
40
     (allocation account) is created in the U.S.Treasury as a subset of the parent fund account for tracking and reporting purposes. All
     allocation transfers of balances are credited to this account, and subsequent obligations and outlays incurred by the child entity are
     charged to this allocation account as they execute the delegated activity on behalf of the parent entity. Generally, all financial activity
     related to these allocation transfers (e.g., budget authority, obligations, outlays) is reported in the financial statements of the parent
     entity, from which the underlying legislative authority, appropriations and budget apportionments are derived. Exceptions to this
     general rule apply to specific funds for which OMB has directed that all activity be reported in the financial statements of the child
     entity, which include all U.S.Treasury-Managed Trust Funds, Executive Office of the President (EOP), and all other funds specifically
     designated by OMB for whom USACE is the child in the allocation transfer, but per OMB guidance, will report all activity relative
     to these allocation transfers in the Reporting Entity’s financial statements.The following funds meeting the OMB Circular A-136
     exceptions and all related activity are included in USACE financial statements: South Dakota Terrestrial Wildlife Habitat Restoration,
     Inland Waterways and Harbor Maintenance trust funds.
USACE is a party to allocation transfers as the child for the following agencies: Department of Agriculture, Department of
Commerce, Department of the Interior, Department of the Army, Department of Transportation and Department of Energy.

USACE has removed the transfer appropriation accounts from its fiscal year 2007 financial statements. This is reflected as a change
in accounting principle for the September 30, 2007, financial statements. No adjustment was made to the fiscal year 2006 financial
statements in conformance with OMB Circular A-136 and SFFAS 21: Reporting Corrections of Errors and Changes in Accounting Principles.
Reporting the prior period adjustments in the fiscal year 2007 financial statements impact the comparability of the 2006 and 2007
financial statements. The following financial statement line items were adjusted in the 2007 financial statements to conform to the
aforementioned guidance. All line items roll-up to the fiscal year 2007 beginning balance Cumulative Results of Operations and
Unexpended Appropriations on the Balance Sheet and Statement of Changes in Net Position:

             Fiscal Year 2007 Impact ($ in thousands)

             Balance Sheet Line Items                                                                                         Decrease
             Fund Balance with Treasury                                                                      $
             Accounts Receivable - Intragovernmental                                                                             (68,491)
             Inventory                                                                                                                  (.3)
             Plant, Property, and Equipment                                                                                    (395,544)
             Total Assets                                                                                    $                 (513,049)
             Accounts Payable - Intragovernmental                                                                                 (1,539)
             Accounts Payable - Public                                                                                           (23,534)
             Other Liabilities                                                                                                    (2,261)
             Total Liabilities                                                                               $                  (27,334)
             Unexpended Appropriations - Other Funds - Beginning Balances                                                        (35,335)
             Cumulative Results of Operations - Other Funds - Beginning Balances                                               (450,381)
             Total Net Position                                                                              $                 (485,716)
             Statement of Changes in Net Position Line Items
             Cumulative Results of Operations - Changes in Accounting Principle                              $                 (450,381)
             Unexpended Appropriations - Changes in Accounting Principle                                                         (35,335)
             Total Net Position                                                                              $                 (485,716)

             See also Note 24 - “Restatements” for corrections of errors, and the impact on comparability of the ﬁnancial statements.




1.W.      Accounts Payable
Accounts payable are the amounts owed by USACE for goods and services received from other entities, progress in contract
performance made by other entities and rents due to other entities.


1.X.      Liabilities Not Covered by Budgetary Resources                                                                                       41
Liabilities not covered by budgetary resources are those liabilities that are not covered by permanent indefinite appropriations, which
have been enacted and signed into law and are available for use as of the Balance Sheet date.




                                                 FY 2007 United States Army Annual Financial Statements – Restated Civil Works Financials
     Civil Works Fund
     Principal Financial Statements, Notes and Supplementary Information


     Note 2.              Nonentity Assets

      As of September 30                                                                2007                             2006
      (Amounts in thousands)
      Intragovernmental Assets
      Fund Balance with Treasury                                            $                        7,596    $                      6,028
      Accounts Receivable                                                                                3                               0
      Total Intragovernmental Assets                                        $                        7,599    $                      6,028

      Nonfederal Assets
      Cash and Other Monetary Assets                                        $                       1,371     $                     1,310
      Accounts Receivable                                                                       1,617,715                       1,619,207
      Total Nonfederal Assets                                               $                   1,619,086     $                 1,620,517

      Total Nonentity Assets                                                $                   1,626,685     $                 1,626,545

      Total Entity Assets                                                   $                  42,767,736     $               40,841,901

      Total Assets                                                          $                  44,394,421     $               42,468,446

     Other Information

     Asset accounts are categorized either as entity or nonentity. Entity accounts consist of resources that USACE has authority to use
     or where management is legally obligated to use funds to meet entity obligations. Nonentity assets are assets for which USACE
     maintains stewardship accountability and responsibility to report, but are not available for USACE’s operations.

     Intragovernmental Nonentity Fund Balance with Treasury consists of amounts collected into deposit and suspense accounts and is not
     available for use in operations.

     Intragovernmental Nonentity Accounts Receivable consist of a receivable from the U.S. Coast Guard within the Department of
     Homeland Security for the usage of dredge disposal areas. Nonentity accounts receivable are recorded in unavailable receipt accounts
     and funds will be returned to the U.S.Treasury when collected.

     Cash and Other Monetary Assets reflect the Disbursing Officer’s Accountability, which is comprised of change funds for recreation
     cashiers, disbursing officer’s cash and foreign currency.

     Nonentity Nonfederal Accounts Receivable represent all current and noncurrent receivables due from nonfederal sources. This
     includes noncurrent receivables due from state and local municipalities for long-term water storage contracts; current receivables due
     from state and local municipalities for water storage; accrued interest receivable; penalties, fines and administrative fees receivable;
     long-term receivables for hydraulic mining; leasing of land acquired for flood control purposes and the allowance for doubtful
     accounts. Nonentity accounts receivables are recorded in unavailable receipt accounts and funds will be returned to the U.S.Treasury
     when collected.
42
Note 3.              Fund Balance with Treasury

 As of September 30                                                                   2007                          2006
 (Amounts in thousands)
 Fund Balances
 Appropriated Funds                                                          $             9,293,495      $              6,423,985
 Revolving Funds                                                                           1,178,590                     1,090,769
 Trust Funds                                                                                  89,257                        93,727
 Special Funds                                                                                 9,172                         5,287
 Contributed Funds                                                                           559,877                       504,198
 Other Fund Types                                                                             35,081                        29,387
 Total Fund Balances                                                         $            11,165,472                     8,147,353

 Fund Balances Per Treasury Versus Agency
 Fund Balance per Treasury                                                   $            11,252,881      $              8,181,330
 Fund Balance per USACE                                                                   11,165,472                     8,147,353

 Reconciling Amount                                                          $                 87,409     $                  33,977

Reconciling Amount

Fund Balance per USACE does not include receipt accounts or cancelled appropriations, which USACE closed according to the
Treasury Financial Manual. In addition, Fund Balance per USACE does not include transfer fund where USACE is the child in a parent/
child relationship. In accordance with OMB A-136, the financial activity is reported in the financial statements of the parent entity.
In addition, Fund Balance per USACE does not include transfer funds where USACE is the child in a parent/child relationship. In
accordance with OMB A-136, the financial activity is reported in the financial statements of the parent entity. Fund Balance per
USACE includes cash reported by the U.S.Treasury for Inland Waterways and Harbor Maintenance trust funds, for which USACE is
identified as the lead agency for reporting.

Other Information

Appropriated Funds include net disbursements for undistributed Intragovernmental Payment and Collection (IPAC) transactions.
These are distributed to the appropriate funds the following month.

Other Fund Types (nonentity) consist of deposit accounts which are not available to finance USACE activities. Other Fund Types
(entity) consists of borrowing authority and the suspense account established to finance Washington Aqueduct operations.


Status of Fund Balance with Treasury
 As of September 30                                                                    2007                         2006
 (Amounts in thousands)
 Unobligated Balance                                                                                                                     43
 Available                                                                  $               9,476,914 $                  9,047,910
 Unavailable                                                                                3,998,871                    3,557,277

 Obligated Balance not yet Disbursed                                        $               5,791,650 $                  5,401,043

 Nonbudgetary FBWT                                                          $                    8,481 $                     54,953

 Non FBWT Budgetary Accounts                                                $             (8,110,444) $                 (9,913,830)

 Total                                                                      $             11,165,472 $                   8,147,353




                                            FY 2007 United States Army Annual Financial Statements – Restated Civil Works Financials
     Civil Works Fund
     Principal Financial Statements, Notes and Supplementary Information


     Definitions

     The Status of Fund Balance with Treasury reflects the budgetary resources to support the Fund Balance with Treasury (FBWT).

     Unobligated Balance represents the cumulative amount of budgetary authority that has not been set aside to cover outstanding
     obligations. Unobligated Balance is classified as available or unavailable and is associated with appropriations expiring at fiscal year
     end that remain available only for obligation adjustments until the account is closed.

     Obligated Balance not yet Disbursed represents funds that have been obligated for goods that have not been received, services that
     have not been performed and goods and services that have been delivered/received but not yet paid.

     Nonbudgetary FBWT includes entity and nonentity FBWT accounts, which represent adjustments that do not have budgetary
     authority, such as clearing accounts.

     Non FBWT Budgetary Accounts represent adjustments to budgetary accounts that do not affect FBWT, such as borrowing authority,
     investment accounts, accounts receivable and unfilled orders without advance from customers. This category reduces the Status of
     Fund Balance with Treasury.

     Restricted Unobligated Unavailable Balances

     Unobligated balances are segregated to show available and unavailable amounts. Unavailable unobligated balances are restricted to
     future use and are not apportioned for current use. The USACE is the lead agency for reporting the financial data for the Inland
     Waterways, Harbor Maintenance and South Dakota Terrestrial Wildlife Habitat Restoration trust funds. These trust funds remain
     invested and restricted for use until transferred to meet current expenditure requirements. The U.S.Treasury, Bureau of Public Debt
     (BPD), maintains custody of the investments and the investment accounting records used by USACE in financial reporting and invests
     the trust fund receipts.


     Note 4.              Investments and Related Interest
      As of September 30                                                                               2007
      (Amounts in thousands)                                                                        Amortized
                                                                                    Amortization   (Premium) /   Investments,     Market Value
                                                                         Cost         Method        Discount         Net           Disclosure
      Intragovernmental Securities
                                                                                     Level Yield
      Nonmarketable, Market-Based                                   $ 4,058,474      Calculation   $ (44,129) $ 4,014,345 $ 4,043,109
      Accrued Interest                                                   24,008         N/A                0       24,008      24,008
      Total Intragovernmental Securities                            $ 4,082,482                    $ (44,129) $ 4,038,353 $ 4,067,117

                                                                                                       2006
      Intragovernmental Securities
                                                                                     Level Yield
      Nonmarketable, Market-Based                                   $ 3,632,883      Calculation   $ (81,320) $ 3,551,563 $ 3,519,489
      Accrued Interest                                                   19,893         N/A                        19,893      19,893
44    Total Intragovernmental Securities                            $ 3,652,776                    $ (81,320) $ 3,571,456 $ 3,539,382

     Other Information

     The Federal Government does not set aside assets to pay future benefits and expenditures associated with earmarked funds. The
     earmarked funds are deposited in the U.S.Treasury, which uses the cash for general government purposes. The U.S.Treasury
     securities are issued to the earmarked funds as evidence of earmarked fund receipts. The U.S.Treasury securities are an asset to
     USACE and a liability to the U.S.Treasury. The U.S.Treasury securities provide USACE with authority to draw upon the U.S.
     Treasury to make future benefit payments or other expenditures.

     The breakdown of total investments among the trust funds for FY 2007 is as follows: $3.7 billion in the Harbor Maintenance
     Trust Fund, $204.1 million in the Inland Waterways Trust Fund and $102.5 million in the South Dakota Terrestrial Wildlife Habitat
     Restoration Trust Fund.
The breakdown of total investments among the trust funds for FY 2006 was: $3.2 billion in the Harbor Maintenance Trust Fund,
$262.3 million in the Inland Waterways Trust Fund and $88.7 million in the South Dakota Terrestrial Wildlife Habitat Restoration
Trust Fund.

The U.S.Treasury also provides the investment market value based on the bid price provided by the Federal Reserve Bank of New
York on September 30, 2007 and September 30, 2006, respectively.


Note 5.              Accounts Receivable, Net
As of September 30                                                                         2007
(Amounts in thousands)                                   Gross Amount Due       Allowance For Estimated      Accounts Receivable,
                                                                                     Uncollectibles                  Net
Intragovernmental Receivables                            $         873,119      $                     N/A     $           873,119
Nonfederal Receivables (From the Public)                         1,650,508                         (5,934)              1,644,574
Total Accounts Receivable                                $       2,523,627      $                  (5,934)    $         2,517,693

                                                                                           2006
                                                         Gross Amount Due       Allowance For Estimated      Accounts Receivable,
                                                                                     Uncollectibles                  Net
Intragovernmental Receivables                            $       2,696,060      $                     N/A     $         2,696,060
Nonfederal Receivables (From the Public)                         1,647,516                         (6,084)              1,641,432
Total Accounts Receivable                                $       4,343,576      $                  (6,084)    $         4,337,492


Other Information

The amount of public receivables on the Treasury Report on Receivables Due from the Public (TROR) differs from the balance of
public receivables reported on the Balance Sheet by the amount of the allowance for uncollectible accounts receivable. The TROR,
unlike the Balance Sheet, does not include the allowance for estimated uncollectible accounts receivable.

In accordance with Office of Management and Budget Circular A-136, Financial Reporting Requirements, USACE implemented a new
reporting procedure for FY 2007 to exclude transfer appropriation accounts for parent/child relationships. For the impact on
USACE Accounts Receivable, refer to Note 1.V., “Prior Period Adjustments and Changes in Presentation”.




                                                                                                                                      45




                                           FY 2007 United States Army Annual Financial Statements – Restated Civil Works Financials
     Civil Works Fund
     Principal Financial Statements, Notes and Supplementary Information


     Aged Accounts Receivable
      As of September 30                                                            2007                               2006
      (Amounts in thousands)                                          Intragovernmental    Nonfederal    Intragovernmental    Nonfederal
      CATEGORY
      Nondelinquent
        Current
                                                      $      854,294 $    69,364 $            1,028,262 $    71,567
        Noncurrent
                                                                0   1,468,864                      0   1,489,600
      Delinquent
        1 to 30 days                                                  $         2,544 $         2,370 $         181,164 $          2,931
        31 to 60 days                                                           1,890          94,088           169,359              282
        61 to 90 days                                                              11           2,485                11              147
        91 to 180 days                                                         21,304             272           604,648              334
        181 days to 1 year                                                      8,555           1,594           718,231           15,529
        Greater than 1 year and less than or equal to 2 years                  16,880           1,830             1,970           15,857
        Greater than 2 years and less than or equal to
        6 years                                                                 3,357            6,528             4,496          43,380
        Greater than 6 years and less than or equal to 10
        years                                                                      6      11,790                     11       7,889
        Greater than 10 years                                                      0       4,612                      0           0
      Subtotal                                                        $      908,841 $ 1,663,797 $            2,708,152 $ 1,647,516
        Less Eliminations                                                    (35,723)          0                (12,092)          0
      Total                                                           $      873,118 $ 1,663,797 $            2,696,060 $ 1,647,516

     Nondelinquent Noncurrent Nonfederal Receivables (From the Public)

     In FY 2006 and FY 2007, the $1.5 billion in nondelinquent noncurrent nonfederal receivables consists of amounts due from state and
     local municipalities for long-term water storage contracts.

     Delinquent Intragovernmental Receivables

     In FY 2007, the total delinquent intragovernmental accounts receivable was $54.5 million. Of this amount, $44.6 million was due
     from the Federal Emergency Management Agency (FEMA), predominately for receivables associated with disaster relief efforts
     conducted by USACE New Orleans and Vicksburg districts for hurricanes Katrina and Rita. In FY 2007 and prior, FEMA required
     extensive supporting documentation before paying these disaster bills. This requirement for support is labor intensive, and obtaining
     support from other federal agencies is difficult, which caused a delay in the payment by FEMA. USACE has reduced its FEMA
     receivables by $1.6 billion since September 30, 2006. USACE has entered into a new agreement with FEMA to process collections
     for disaster relief accounts receivable on a current basis using U.S.Treasury Intragovernmental Payment and Collection system.
     Effective in FY 2008, USACE will no longer be required to provide supporting documentation before collection can be accomplished.
     Supporting documentation will be provided to FEMA following the collection. USACE also has delinquent receivables from the
     U.S. Coast Guard and Environmental Protection Agency (EPA) totaling $7.4 million at September 30, 2007. These receivables
     are primarily for work being conducted under the Oil Pollution Act of 1990. The U.S. Coast Guard and EPA require extensive
46   supporting documentation before paying these bills. USACE continues to work with the EPA and U.S. Coast Guard to resolve their
     delinquent receivables and will continue to provide detailed billing information.

     In FY 2006, the total delinquent intragovernmental accounts receivable was $1.7 billion. Of the $1.7 billion delinquent, $1.6 billion
     was due from FEMA mostly resulting from the receivables associated with hurricanes Katrina, Rita and Wilma at USACE New
     Orleans,Vicksburg and Galveston Districts. USACE reduced its delinquent FEMA receivables by $552.0 million from July 2006
     through the end of FY 2006. This was due to new Intragovernmental Payment and Collection (IPAC) arrangements coupled with
     concerted efforts among Headquarters USACE, the USACE Finance Center and FEMA personnel to reduce delinquent amounts.
     The U.S. Coast Guard and the Environmental Protection Agency had delinquent receivables totaling $10.3 million at September 30,
     2006, of which $8.0 million was related to the Oil Pollution Act. USACE continued to evaluate and improve the effectiveness of the
     intragovernmental payment and collections process and implement improvements to these processes.
Delinquent Nonfederal Receivables (From the Public)

In FY 2007, the amount of delinquent nonfederal receivables was $125.6 million. USACE has $117.3 million in delinquent
receivables for municipal water storage that are currently in litigation, primarily at USACE Jacksonville and Tulsa districts.
Additionally, $126.7 thousand was referred to the U.S.Treasury offset program, $75.8 thousand was referred to the U.S.Treasury
for cross servicing and $8.1 million is being pursued by USACE.

In FY 2006, the amount of delinquent nonfederal receivables was $86.3 million. Of the total delinquent receivables, $52.8 million
was owed by the Commonwealth of Puerto Rico on a 50 year contract for the Cerrillos Dam water storage at USACE Jacksonville
District. Additionally, $14.3 million was owed by the Oklahoma Water Resources Board for water storage space at USACE Tulsa
District.


Note 6.              Other Assets
 As of September 30                                                                    2007                            2006
 (Amounts in thousands)
 Nonfederal Other Assets
 Other Assets (With the Public)                                             $                       494     $                           0

Other Information

Other Assets (With the Public) consists of advances issued to employees for temporary duty and permanent change of station travel.


Note 7.              Cash and Other Monetary Assets
 As of September 30                                                                      2007                           2006
 (Amounts in thousands)
 Cash                                                                           $                      52       $                    497
 Foreign Currency                                                                                   1,319                            813

 Total Cash, Foreign Currency, & Other Monetary Assets                          $                   1,371       $                 1,310

Other Information

USACE translates foreign currency to U.S. dollars utilizing the U.S.Treasury Prevailing Rate of Exchange. This rate is the most
favorable rate that would legally be available to the Federal Government acquisition of foreign currency for its official disbursements
and accommodation of exchange transactions. There are no significant effects from changes in the foreign currency exchange rate.
Foreign currency is a nonentity asset and is considered a restricted asset.


Note 8.              Stewardship PP&E
                                                                                                                                              47
Heritage Assets

On October 30, 2003, Engineer Regulation (ER) 200-1-5, Policy for Implementation and Integrated Application of the USACE
Environmental Operating Principles and Doctrine, was issued. The ER states, in part, “The Environmental Operating Principles and
associated doctrine highlight USACE’s roles in, and responsibilities for, sustainability, preservation, stewardship, and restoration of our
nation’s resources. These principles and associated doctrine are based on the premise that through the restoration and maintenance of
environmental health and productivity, both economic development and social equity can be achieved.”




                                             FY 2007 United States Army Annual Financial Statements – Restated Civil Works Financials
     Civil Works Fund
     Principal Financial Statements, Notes and Supplementary Information


     Heritage assets classified as land are special land plots containing archaeological sites as listed on the National Register of Historic
     Places or determined eligible to be listed by the agency and the Keeper of the National Register. Cemeteries and archeological
     sites are archeological properties listed on, or eligible for, the National Register of Historic Places. These archeological assets cover
     almost the entire range of human occupation of the continental U.S. beginning with the Kennewick Man Discovery Site in the state of
     Washington, dating back approximately 10,000 years, to archeological remains of early European-American settlements, such as Fort
     Independence in Georgia. The current National Register inventory for USACE includes 489 archeological properties determined to
     be eligible for listing and 97 archeological properties listed.

     Buildings and structures include a range of historic resources from a covered bridge in the Sacramento district to early farming
     structures in the Savannah district. It also includes some nontraditional structures such as a snag boat that operated on the Mississippi
     River. The USACE has 117 buildings and structures listed on the National Register and 236 determined eligible for listing.

     The USACE acquired no heritage assets during FY 2007.

     The USACE currently does not have any land classified as stewardship land.


     Note 9.              Inventory and Related Property
      As of September 30                                                                2007                              2006
      (Amounts in thousands)
      Work in Process                                                        $                     15,586     $                      24,259
      Operating Materials & Supplies, Net                                                         106,118                            97,081

      Total                                                                  $                     121,704     $                    121,340


     In accordance with Office of Management and Budget Circular A-136, Financial Reporting Requirements, USACE implemented a new
     reporting procedure for FY 2007 to exclude transfer appropriation accounts for parent/child relationships. For the impact on
     USACE Inventory, refer to Note 1.V., “Prior Period Adjustments and Changes in Presentation”.

     Work in Process Inventory

     There are no restrictions on the use, sale or disposition of Work in Process (WIP) inventory.The WIP inventory valuation method
     is based on a moving weighted average based on actual cost divided by quantity (Moving Average Cost, or MAC). USACE has no
     revaluation allowances for WIP inventory for FY 2007 or FY 2006. A perpetual record of inventory is maintained to allow for
     recomputation of the average unit cost as new receipts are recorded.

     Operating Materials and Supplies

     There are no restrictions on the use of Operating Materials and Supplies (OM&S).The general composition of USACE OM&S is
     personal property held for use to be consumed in normal operations. The OM&S category includes materials used for constructing
48   riverbank stabilization devices, spare and repair parts, miscellaneous office supplies and prepaid postage. The valuation method is
     based on net realizable value (NRV). OM&S, Supplies are net of a $15 thousand revaluation allowance at both September 30, 2007
     and 2006. The appropriate classification of OM&S reserves is determined by factoring the relevant cost associated with maintaining
     the available operating materials and supplies, as well as the time required to replenish the operating materials and supplies.
Note 10. General Propery, Plant & Equipment, Net

 As of September 30                                                                         2007
 (Amounts in thousands)                            Depreciation/                                       (Accumulated
                                                   Amortization                        Acquisition     Depreciation/
                                                     Method         Service Life         Value          Amortization)     Net Book Value
 Major Asset Classes
 Land                                                  N/A             N/A         $     9,000,775 $              N/A $       9,000,775
 Buildings, Structures, and Facilities                 S/L           20 - 100           27,849,270       (13,420,755)        14,428,515
 Leasehold Improvements                                S/L          lease term              38,442            (28,634)            9,808
 Software                                              S/L          2-5 Or 10               84,093            (67,099)           16,994
 General Equipment                                     S/L            5 - 50             1,446,660          (689,859)           756,801
 Construction-in- Progress                             N/A             N/A               2,494,195                N/A         2,494,195
 Other                                                                                      27,508                  (1)          27,507
 Total General PP&E                                                                $    40,940,943 $     (14,206,348) $      26,734,595

 Major Asset Classes                                                                        2006
 Land                                                  N/A             N/A         $     8,805,567 $              N/A $       8,805,567
 Buildings, Structures, and Facilities                 S/L          20 Or 40           27,139,700        (13,039,517)        14,100,183
 Leasehold Improvements                                S/L          lease term             37,755             (24,355)           13,400
 Software                                              S/L          2-5 Or 10              82,702             (57,206)           25,496
 General Equipment                                     S/L           5 or 10            1,303,868           (654,981)           648,887
 Construction-in- Progress                             N/A             N/A               2,668,686                N/A         2,668,686
 Other                                                                                      27,277                  (1)          27,276
 Total General PP&E                                                                $    40,065,555 $     (13,776,060) $     26,289,495

Legend for Depreciation Methods:
S/L = Straight Line
N/A = Not Applicable


General PP&E

In accordance with Office of Management and Budget Circular A-136, Financial Reporting Requirements, USACE implemented a
new reporting procedure for FY 2007 to exclude transfer appropriation accounts for parent/child relationships. For the impact on
USACE Plant, Property and Equipment balance, refer to Note 1.V., “Prior Period Adjustments and Changes in Presentation”.

In FY 2007, USACE received $73.8 million in direct appropriations from the Department of Energy, Power Marketing
Administration, for operation and maintenance activities at hydroelectric power plants operated by USACE at the Portland, Seattle
and Walla Walla districts. During FY 2006, the USACE received $68.8 million.

The service life for USACE’s multiple purpose project assets is derived from guidance provided by the Federal Energy Regulatory
Commission based on industry standards. The hydropower project related assets made up $9.7 billion of the book value of
USACE’s PP&E in FY 2007 and FY 2006. The USACE currently operates and maintains 75 hydroelectric power plants, generating
approximately 24% of America’s hydroelectric power. All power generated by these hydroelectric power plants is transmitted to four
Power Marketing Administrations for distribution to power companies across the United States.                                              49

In USACE’s FY 2007 and FY 2006 CIP account, $151.0 million of the $2.7 billion (6%) is attributable to a dormant project formally
known as the “Elk Creek Lake Project” located at USACE Portland district. The project, which was authorized by the 1962 Flood
Control Act, was originally authorized for the purpose of flood control. In 1971, construction began on the project but after
completing only 33% of its design height, the project was shut down due to a court-ordered injunction. Additional analysis under the
National Environmental Policy Act is required to remove the injunction. To date, the environmental concerns have not been resolved
and the project is in a hold status until such time these issues are resolved. Therefore, USACE will continue to carry the construction
costs of the “Elk Creek Lake Project” in the CIP account until a final decision is made concerning the outcome of the project.




                                            FY 2007 United States Army Annual Financial Statements – Restated Civil Works Financials
     Civil Works Fund
     Principal Financial Statements, Notes and Supplementary Information


     The USACE Civil Works Program had $126.5 million in General PP&E outside the continental U.S. in the Pacific Ocean Division in
     FY 2007 and $128.2 million in FY 2006. There are no restrictions on the use or convertibility of this PP&E.

     As of September 30, 2006 and 2007, Land includes a cumulative total of $ 2.6 billion of intangible assets comprised of relocation and
     administrative cost associated with the acquisition of land in conjunction with hydropower projects.

     As of September 30, 2006 approximately $26.3 billion of the $40.0 billion recorded in the PP&E line was being supported by
     alternate methods pursuant to the Memorandum of Agreement described in Note 1.O “Leases”. As of September 30, 2007
     approximately $26.3 billion of the $40.9 billion recorded in the PP&E line was being supported by alternate methods pursuant to the
     Memorandum of Agreement described in Note 1.O “Leases”.

     Other consists of assets awaiting disposal and for which depreciation is no longer recorded.


     Note 11. Liabilities Not Covered by Budgetary Resources
      As of September 30                                                                        2007                         2006
      (Amounts in thousands)
      Intragovernmental Liabilities
      Debt                                                                             $                12,917     $                13,592
      Due to Treasury                                                                                1,468,894                   1,621,914
      Other                                                                                            362,573                     207,512
      Total Intragovernmental Liabilities                                              $             1,844,384     $             1,843,018

      Nonfederal Liabilities
      Federal Employee and Veterans’ Beneﬁts                                                           251,584                      250,272
      Environmental Liabilities                                                                        656,123                      657,497
      Other Liabilities                                                                                106,000                       76,275
      Total Nonfederal Liabilities                                                     $             1,013,707     $                984,044

      Total Liabilities Not Covered by Budgetary Resources                             $             2,858,091     $             2,827,062

      Total Liabilities Covered by Budgetary Resources                                 $             1,494,411     $             1,639,151

      Total Liabilities                                                                $             4,352,502     $             4,466,213

     Other Information

     Liabilities not covered by budgetary resources are liabilities for which congressional action is needed before budgetary resources can
     be provided.

     Intragovernmental Liabilities is debt comprised of the amount owed by USACE to the U.S.Treasury for capital improvements to the
50   Washington Aqueduct. Arlington County and the city of Falls Church,Virginia provide funding to USACE to repay the debt. Refer to
     Note 13, “Debt,” for additional details and disclosures.

     Intragovernmental Liabilities – Other includes offsetting custodial liability to accounts receivable. The custodial liability is for
     amounts that will be deposited in the general fund of the U.S.Treasury when collected and are primarily related to water storage
     contracts. Budgetary resources are not required for custodial liabilities.

     Nonfederal Liabilities – Federal Employee and Veterans’ Benefits include actuarial liability for Federal Employee Compensation Act
     (FECA). Refer to Note 17, “Federal Employee and Veterans’ Benefits,” for additional details and disclosures. The FECA actuarial
     liability is a future funded expense and will be funded in future appropriations.
Nonfederal Liabilities - Environmental Liabilities include future funded expense for estimated cleanup costs for contingent
environmental liabilities. The liabilities will be funded in future appropriations. Refer to Note 14, “Environmental Liabilities,” and
Note 15, “Other Liabilities,” for additional details and disclosures.

Nonfederal Liabilities – Other Liabilities include contingent liability for probable losses totaling $106 million and $76.2 million for
FY 2007 and FY 2006, respectively related to lawsuits filed by the state of Nebraska, the county of Knox, Nebraska,Ashbritt and
contingent liability based on percentage of tort, litigation and contract dispute claims. Contingent liabilities may be funded in future
appropriations. Refer to Note 16 “Commitments and Contingencies” for additional details and disclosures.


Note 12. Accounts Payable
 As of September 30                                                    2007                                         2006
 (Amounts in thousands)                                 Accounts Payable          Total              Accounts Payable           Total
 Intragovernmental Payables                         $             128,411     $       128,411 $               133,029      $     133,029
 Nonfederal Payables (to the Public)                              839,715             839,715                 862,035            862,035

 Total                                              $             968,126     $       968,126 $               995,064      $     995,064

In accordance with Office of Management and Budget Circular A-136, Financial Reporting Requirements, USACE implemented a new
reporting procedure for FY 2007 to exclude transfer appropriation accounts for parent/child relationships. For the impact on
USACE Accounts Payable, refer to Note 1.V., “Prior Period Adjustments and Changes in Presentation”.

Intragovernmental Payables consist of amounts owed to other federal agencies for goods or services ordered and received, but not yet
paid.

USACE has no known delinquent accounts payable.


Note 13. Debt
 As of September 30                                                   2007                                   2006
 (Amounts in thousands)                               Beginning         Net           Ending      Beginning            Net       Ending
                                                       Balance       Borrowing        Balance      Balance          Borrowing    Balance
 Agency Debt (Intragovernmental)
 Debt to the Treasury                             $      13,924     $ (1,007)     $     12,917   $     14,600 $         (676)     13,924

Other Information

The outstanding debt consists of interest and principal payments due to the U.S.Treasury. The USACE borrowed funds
for capital improvements to the Washington Aqueduct. During fiscal years 1997, 1998, and 1999, USACE executed three
promissory notes totaling $75.0 million with the U.S.Treasury. The USACE entered into agreements with the District of
Columbia,Arlington County and the city of Falls Church,Virginia to provide funding to USACE to repay the debt. As of
2nd Quarter, FY 2004, the District of Columbia had provided its entire portion of the funding to USACE. The remaining                      51
debt balance is scheduled to be paid off in FY 2023. The actual cumulative amount of funds borrowed from the U.S.
Treasury is $74.9 million. There were no withdrawals from the U.S.Treasury for FY 2007 or FY 2006. Total principal
repayments in FY 2007 were $675.0 thousand and the remaining interest of $332.0 thousand was paid 2nd Quarter, FY
2007. Total principal repayments in FY 2006 were $659.1 thousand and interest of $16.4 thousand.




                                             FY 2007 United States Army Annual Financial Statements – Restated Civil Works Financials
     Civil Works Fund
     Principal Financial Statements, Notes and Supplementary Information


     Note 14. Environmental Liabilities and Disposal Liabilities

      As of September 30                                                                                           2007             2006
      (Amounts in thousands)

      Other Accrued Environmental Active Installations-Other
      Formerly Utilized Sites Remedial Action Program, which was established to respond to                  $      637,872    $      653,315
      radiological contamination from early US Atomic Energy and Weapons Program


      Sonoma Firing Range and Underground Storage Tank Monitoring Wells, Mount Morris Dam,                  $       18,251    $        4,182
      Bradford Island Landﬁll, John H. Kerr Dam and Reservoir, Missouri River Project and J. Strom
      Thurmond Project.

      Total                                                                                                 $      656,123    $      657,497


     Other Information

     USACE is responsible for the Formerly Utilized Sites Remedial Action Program (FUSRAP), which was established to respond to
     radiological contamination from an early U.S.Atomic Energy and Weapons Program. This program is funded through a Civil Works
     appropriation. The amount of the liability was determined after studies were completed and final Records of Decision documenting
     the cleanup requirements prepared. The amount of the liability was recorded as Other Accrued Environmental Liabilities.

     Applicable laws and regulations for cleanup requirements encompass Energy and Water Development Appropriations Act, Public Law
     106-60 § 611; Comprehensive Environmental Response, Compensation, and Liability Act (CERCLA), 42 United States Code § 9601
     et seq., as amended; and National Oil and Hazardous Substances Pollution Contingency Plan,Title 40 Code of Federal Regulations
     300. There are no changes to total cleanup costs due to changes in laws, regulations and/or technology related to the current or
     prior periods. Consistent with the requirements of CERCLA, USACE coordinates with regulatory agencies, other responsible parties
     and current property owners.

     USACE uses site-specific engineering estimates for assigning estimated environmental costs. Both the cost to complete remedial
     investigation/feasibility studies through a Record of Decision and the estimated cost of chosen remedies are reported. Engineering
     estimates, using appropriate tools, such as the Micro-Computer Assisted Cost Estimating System, and using the extensive data
     collected during the remedial investigation/feasibility study phase of the environmental project are utilized. The volume of
     contaminated material and the cost to dispose of such material, including transportation, are the elements of project estimates with
     the greatest uncertainty and potential for significant effect upon project costs. The estimated costs of studies are reported during the
     early part of the remedial investigation and the estimated cost of the chosen remedy is reported after release of the Proposed Plan.

     USACE is not aware of any necessary changes in estimated environmental liabilities currently due to inflation, deflation, technology
     or applicable laws and/or regulations. Estimated liabilities, however, can change in the future due to changes in laws and regulations,
     changes in agreements with regulatory agencies and advances in technology.

     For FY 2007, USACE recognizes current and noncurrent environmental liabilities for FUSRAP in the amount of $637.8 million
     at the following project sites: St. Louis Downtown Site Accessible Soils, St. Louis Airport Site, Latty Avenue Properties Site, St.
     Louis Airport Vicinity Properties Site, Maywood Site Soils, Middlesex Sampling Plant Soils, Shpack Landfill Site,W. R. Grace
52   Building 23 Site, Colonie Interim Storage Site Soils, Luckey Site Soils, Linde Air Products Site Soils, Painesville Site,Ashland Site,
     St. Louis Downtown Site Inaccessible Soils, Iowa Army Ammunition Plant FUSRAP Site, Colonie Interim Storage Site Groundwater,
     Maywood Site Groundwater, Middlesex Sampling Plant Site Groundwater, Combustion Engineering Site, DuPont Chambers Works
     Site,W. R. Grace Radioactive Waste Disposal Area Site, Sylvania-Corning Plant Site, Linde Air Products Site Groundwater, Luckey
     Site Groundwater, Seaway Industrial Park Site, Shallow Land Disposal Area Site, Former Harshaw Chemical Company Site, Guterl
     Specialty Steel Site, and Niagara Falls Interim Storage Site.

     In FY 2006, USACE recognized noncurrent environmental liabilities for the FUSRAP in the amount of $657.5 million at the
     following project sites: St. Louis Downtown Site Accessible Soils, St. Louis Airport Site, Latty Avenue Properties Site, St. Louis
     Airport Vicinity Properties Site, Maywood Site Soils, Middlesex Sampling Plant Soils, Shpack Landfill Site,W. R. Grace Building
     23 Site, Colonie Interim Storage Site Soils, Luckey Site Soils, Linde Air Products Site Soils, Painesville Site,Ashland Site, St.
     Louis Downtown Site Inaccessible Soils, Iowa Army Ammunition Plant FUSRAP Site, Colonie Interim Storage Site Groundwater,
     Maywood Site Groundwater, Middlesex Sampling Plant Site Groundwater, Combustion Engineering Site, DuPont Chambers Works
Site,W. R. Grace Radioactive Waste Disposal Area Site, Sylvania-Corning Plant Site, Linde Air Products Site Groundwater, Luckey
Site Groundwater, Seaway Industrial Park Site, Shallow Land Disposal Area Site, Former Harshaw Chemical Company Site, Guterl
Specialty Steel Site, and Niagara Falls Interim Storage Site.

USACE acknowledges reasonably possible contingent environmental liabilities related to FUSRAP for FY 2007 and FY 2006, but
the liability amounts are currently unknown and USACE cannot determine an estimable range of loss. The project sites are: St.
Louis Downtown Site Inaccessible Soils, Iowa Army Ammunition Plant FUSRAP Site, Middlesex Sampling Plant Site Groundwater,
Combustion Engineering Site, DuPont Chambers Works Site,W. R. Grace Radioactive Waste Disposal Area Site, Seaway Industrial
Park Site, Niagara Falls Storage Site, Former Harshaw Chemical Company Site, Guterl Specialty Steel Site, Colonie Interim Storage
Site Groundwater, Josyln Manufacturing, Scioto Laboratory, and Superior Steel Site.

For FY 2007, USACE recognizes other environmental liabilities not related to FUSRAP in the amount of $18.2 million. The project
sites are: Sonoma Firing Range and Sonoma Underground Storage Tanks Monitoring Wells in Sonoma, California; Mount Morris
Dam in New York; Bradford Island Landfill in Oregon; John H. Kerr Dam and Reservoir in Virginia; Missouri River Project in
Nebraska; and J. Strom Thurmond Project in Georgia.

For FY 2006, USACE reported other environmental liabilities not related to FUSRAP in the amount of $4.2 million for the following
project sites: Sonoma Firing Range and Sonoma Underground Storage Tanks Monitoring Wells in Sonoma, California; Black Rock
Lock and Mount Morris Dam in New York; and Bradford Island Landfill.


Note 15. Due to Treasury and Other Liabilities
 As of September 30                                                                              2007
 (Amounts in thousands)                                               Current Liability    Noncurrent Liability           Total


 Intragovernmental Due to Treasury                                $            113,355 $            1,503,706         $   1,617,061

   Advances from Others                                           $             26,768 $                     0        $       26,768
   Deposit Funds and Suspense Account Liabilities                                2,313                       0                 2,313
   Disbursing Ofﬁcer Cash                                                           48                       0                    48
   Judgment Fund Liabilities                                                   167,410                       0               167,410
   FECA Reimbursement to the Department of Labor                                20,660                  26,335                46,995
   Other Liabilities                                                            13,928                       0                13,928

 Total Intragovernmental Other Liabilities                        $            344,482 $            1,530,041         $   1,874,523

 Nonfederal
   Accrued Funded Payroll and Beneﬁts                             $            356,720 $                          0   $      356,720
   Advances from Others                                                         37,288                            0           37,288
   Deposit Funds and Suspense Accounts                                           7,596                            0            7,596
   Other Liabilities                                                           187,322                            0          187,322

 Total Nonfederal Other Liabilities                               $            588,926 $                          0   $      588,926
                                                                                                                                       53




                                           FY 2007 United States Army Annual Financial Statements – Restated Civil Works Financials
     Civil Works Fund
     Principal Financial Statements, Notes and Supplementary Information



      As of September 30                                                                                 2006
      (Amounts in thousands)                                                 Current Liability     Noncurrent Liability           Total


      Intragovernmental Due to Treasury                                  $              78,023 $            1,539,435         $   1,617,458

        Advances from Others                                             $              9,835 $                      0        $        9,835
        Deposit Funds and Suspense Account Liabilities                                  1,648                        0                 1,648
        Disbursing Ofﬁcer Cash                                                            493                        0                   493
        Judgment Fund Liabilities                                                     164,221                        0               164,221
        FECA Reimbursement to the Department of Labor                                  20,522                   27,224                47,746
        Other Liabilities                                                              13,830                        0                13,830

      Total Intragovernmental Other Liabilities                          $            288,572 $             1,566,659         $   1,855,231

      Nonfederal
        Accrued Funded Payroll and Beneﬁts                               $            380,917 $                           0   $      380,917
        Advances from Others                                                           73,883                             0           73,883
        Deposit Funds and Suspense Accounts                                             6,978                             0            6,978
        Other Liabilities                                                             232,144                             0          232,144

      Total Nonfederal Other Liabilities                                 $            693,922 $                           0   $      693,922

     Other Information

     Intragovernmental - Due to Treasury is comprised of the custodial liability to offset interest and accounts receivable which, when
     collected, will be deposited in the U.S.Treasury.

     Intragovernmental - Other Liabilities represent future revenue from hydraulic mining contracts. USACE records a custodial liability
     for payables from water storage and hydraulic mining contracts.

     Nonfederal Other Liabilities includes contract holdbacks on construction-in-progress payments and unfunded contingent liabilities
     for probable losses for contract claims, civil litigation and tort claims.

     Judgment Fund Liabilities. USACE Civil Works Directorate recognized 41 unfunded liabilities in FY 2007 and 37 in FY 2006
     arising from Judgment Fund Contract Disputes Act (CDA) settlements, in accordance with the Interpretation of Federal Financial
     Accounting Standards No. 2, Accounting for Treasury Judgment Fund Transactions. USACE cannot fund the CDA claims since USACE is
     funded for projects and does not include an allowance for this type of claim. USACE sought supplemental appropriations for payment
     of CDA claims in FY 2000 and FY 2006, which were not approved. The FY 2007 budget does not provide funding for payment of the
     CDA claims. The U.S. Government Accountability Office is currently reviewing the status of the outstanding CDA claims and should
     provide recommendations regarding the payment or other treatment of these claims.

54
     Note 16. Commitments and Contingencies
     Disclosures Related to Commitments and Contingencies:

     The U.S.Army Corps of Engineers (USACE) is a party in various administrative proceedings and legal actions, with claims including
     environmental damage claims, equal opportunity matters, and contractual bid protests. The USACE has accrued contingent liabilities
     for legal actions where the USACE’s Office of the General Counsel (OGC) considers an adverse decision probable and the amount
     of loss is measurable. In the event of an adverse judgment against the government, some of the liabilities may be paid from the
     Department of the Treasury’s Judgment Fund. The USACE discloses amounts recognized as contingent liabilities in Note 15 “Other
     Liabilities”. Amounts that are determined to be payable by the Judgment Fund are reclassified as an imputed financing source and
     disclosed in Note 19 “Disclosures Related to the Statement of Changes in Net Position”.
The U.S.Army Claims Service (USARCS) supervises, processes, investigates, adjudicates and negotiates the settlement of non-
contractual administrative claims on behalf of, and against, the Department of the Army (including USACE); however, because
of their uniqueness, the hurricane Katrina-related administrative claims are processed differently, as discussed below. By law,
administrative claims filed against the government are either adjudicated, denied or are effectively denied if no action is taken within
six months from the claim filing date. Barring such resolution within six months from the date of filing, claimants may file legal
cases with the Federal court. Filing of an administrative claim for resolution is a required precursor to a claimant’s filing against the
government in Federal court.

Claims settled below the statutory threshold of $2,500 are paid using Civil Works appropriations; settlements above this threshold
are referred to Treasury’s Judgment Fund for payment. With the exception of the Contract Disputes Act and Notification and Federal
Employee Antidiscrimination and Retaliation Act, settlements disclosed in Note 15 “Other Liabilities”, are amounts that are paid by
the Judgment Fund and recorded as expenses and imputed financing sources and are disclosed in Note 19 “Disclosures Related to the
Statement of Changes in Net Position”.

Katrina-Related Claims and Litigation

Numerous administrative claims have been filed with USACE as a result of hurricane Katrina. Over 489 thousand, as of September
30, 2007, and over 25 thousand, as of September 30, 2006, Federal Tort Claims Act administrative claims have been filed by claimants
seeking approximately $152 billion and $104 billion (respectively) as compensation for alleged personal injury, wrongful death, and
property damages as a result of massive flooding caused by hurricane Katrina [Satisfies the disclosure requirements of (B) above].
Since claimants are allowed to file with USACE for up to two years after the event, Katrina-related administrative claims were
accepted through August 29, 2007. The U.S. Department of Justice (DOJ) currently has the responsibility to collect, record and
track these Katrina-related administrative claims due to their volume and the dollar amounts claimed. DOJ has established a stand-
alone system to track them, and continues to perform reviews to identify and remove possible duplicates; therefore, the estimated
Katrina-related administrative claims information summarized above is subject to change. DOJ expects to complete its review and
processing of adjustments in June 2008, and plans to transition responsibility for maintaining these administrative claims to USARCS
at that time.

The DOJ, USARCS, and USACE have not settled or denied any Katrina-related administrative claims. USARCS and USACE, who
bear the decision-making responsibility for settling the claims, subject to DOJ approval, have indicated they do not intend to settle or
deny any Katrina-related administrative claim prior to lapse of the statutory six-month period. As a result, such unsettled claims have
the potential of becoming litigations in Federal court at the claimants’ discretion.

In addition to the administrative claims, the Katrina-related cases filed in Federal courts against USACE have aggregated alleged
damages of approximately $277 billion as of September 30, 2007 and approximately $106 billion as of September 30, 2006. Katrina-
related administrative claims described above and other possible matters not currently known may result in additional litigation in
Federal court. A case may be filed in Federal court up to six years after the right of first action accrues with the plaintiff.

The DOJ, which is responsible for litigating Katrina-related matters in Federal court on behalf of the government, intends to
vigorously defend the government in these matters. DOJ has concluded that there is a reasonable possibility that the Katrina-
related administrative claims and court cases currently asserted could result in a loss to the Federal government, with the estimated       55
potential loss ranging between $10 billion and $100 billion [Satisfies the disclosure requirements of (C) above]. The amount of losses
pertaining to potential hurricane Katrina-related damages not currently asserted against USACE, if any, is not determinable [Satisfies
the disclosure requirements of (A) above].

The majority of cases currently pending as of September 30, 2007, have been divided into three groups: Robinson v. United States,
the lead case, and the LEVEE and MRGO groups. The LEVEE and MRGO groups are primarily based on geography of the city of
New Orleans, LA. In both Robinson and the LEVEE group, the United States filed a motion to dismiss asserting immunity under
the Flood Control Act, 33 U.S.C. SS 702c, and the FTCA, 28 U.S.C. SS 2680 (a). The Robinson and the LEVEE group was denied,



                                             FY 2007 United States Army Annual Financial Statements – Restated Civil Works Financials
     Civil Works Fund
     Principal Financial Statements, Notes and Supplementary Information


     the Court having ruled that factual development was required in order to decide whether the United States is immune. The second
     motion to dismiss remains pending and a ruling is expected in one to two months. The court declined to certify the Robinson ruling
     for interlocutory appeal, and if the LEVEE motion to dismiss also is denied, it is not expected to be certified for appeal. Discovery
     in all cases is ongoing on the issue of class certification as well as liability. Hearings on motions to certify a class were scheduled
     for November 2007. Summary judgment motions in the Robinson case were scheduled to be filed in November 2007 with oral
     arguments in January 2008. If the United States’ motion for summary judgment is denied, merits discovery will continue in all cases,
     and trials are scheduled for September 2008 in Robinson and the spring of 2009 in the LEVEE AND MRGO cases.

     On 31 January 2008, Judge Stanwood Duval ruled that the Corps should be held immune over the failure of the canal wall which
     caused much of the flooding of New Orleans in 2005. The ruling relied on the Flood Control Act of 1928, which made the federal
     government immune when flood-control projects fail. The plaintiffs do plan to file an appeal to the 5th U.S. Circuit Court of
     Appeals.

     Other Litigation

     Outside of Katrina-related litigation, USACE has 23 and 24 cases, as of September 30, 2007 and 2006, respectively, above the
     materiality threshold of $7.2 million. The USACE OGC has determined that 3 and 5 cases are probable, 1 and 0 cases are reasonably
     possible, 9 and 6 cases are not determinable, and 10 and 13 cases are remote as of September 30, 2007 and 2006, respectively. Of the
     3 and 5 probable cases, 3 and 2 are recorded as liabilities for $80 million and $40 million dollars and the amount for the remaining
     0 and 3 probable cases were not determinable, as of September 30, 2007 and 2006, respectively. As of September 30, 2007 and 2006,
     the 1 and 0 reasonably possible cases had an estimated potential loss of $400 thousand and $0, respectively.

     The USACE management treated cases for which the USACE OGC was unable to determine a potential adverse outcome, as
     reasonably possible. The total amount of relief sought for the 10 and 6 cases is $289 million and $202.4 million and the potential loss
     is not determinable, as of September 30, 2007 and 2006, respectively.

     Additionally, USACE had a total of $260 million as of September 30, 2007, and $330.0 million as of September 30, 2006, in
     pending contract claims, civil litigation and non-Katrina tort cases which were individually under the threshold of $7.2 million.
     As such, the likelihood of an unfavorable outcome or potential liability is provided as an overall assessment of all cases currently
     pending and not on an individual basis (as with the over-threshold cases). The likelihood of an unfavorable or potential liability
     was determined by using a three-year historical average. The total dollar amount of the cases closed was divided by the total dollar
     amount claimed in those closed cases for each of the last three years which were then used to calculate the three year average of 10%.
     This average represents the percentage that has historically been paid on claims and is based entirely on historical data. The merits
     of each individual case have not been taken into consideration. Based on the 10% average, a contingent liability of $26 million as of
     September 30, 2007, and $33 million as of September 30, 2006, was recorded.

     Other Contingencies

     The USACE does not have undelivered orders for open contracts citing cancelled appropriations which may remain unfilled or
     unreconciled and for which the reporting entity may incur a contractual commitment for payment.
56
     The USACE does not have contractual arrangements such as fixed price contracts with escalation, price redetermination, or incentive
     clauses; contracts authorizing variations in quantities; and contracts where allowable interest may become payable based on contractor
     claims under the “Dispute” clause contained in contracts.
Note 17. Federal Employee and Veterans’ Beneﬁts
 As of September 30                                                                        2007
 (Amounts in thousands)                                   Present Value of    Assumed Interest    (Less: Assets Available   Unfunded
                                                              Beneﬁts             Rate (%)           to Pay Beneﬁts)         Liability
 Other Actuarial Beneﬁts
 FECA                                                 $           251,584                 4.93 $                      0 $     251,584
 Total Other Actuarial Beneﬁts                        $           251,584                      $                      0 $     251,584

 Other Federal Employment Beneﬁts                     $                 303                N/A $                  (303) $                0

 Total Federal Employee and Veterans’ 

 Beneﬁts:                                             $           251,887                         $               (303) $     251,584


                                                                                           2006
 Other Actuarial Beneﬁts
 FECA                                                 $           250,272                 4.53 $                      0 $     250,272
 Total Other Actuarial Beneﬁts                        $           250,272                      $                      0 $     250,272

 Other Federal Employment Beneﬁts                     $                303                N/A $                  (303) $                 0

 Total Federal Employee and Veterans’ 

 Beneﬁts:                                             $           250,575                        $               (303) $      250,572


Federal Employees Compensation Act (FECA)

Actuarial Cost Method Used and Assumptions: The Department of the Army (DA) actuarial liability for workers’ compensation
benefits is developed by the Department of Labor (DOL) and provided to the DA at the end of each fiscal year. The liability for future
workers’ compensation benefits includes the expected liability for death, disability, medical and miscellaneous costs for approved
compensation cases, plus a component for incurred but not reported claims. The liability is determined using a method that utilizes
historical benefit payment patterns related to a specific incurred period to predict the ultimate payments related to that period.
Consistent with past practice, these projected annual benefit payments have been discounted to present value using the Office of
Management and Budget’s economic assumptions for 10-year U.S.Treasury notes and bonds. Interest rate assumptions utilized for
discounting were as follows:

                                                              FY 2007
                                                         4.930 % in Year 1
                                                   5.078 % in Year 2 and thereafter

                                                              FY 2006
                                                         5.170 % in Year 1
                                                   5.313 % in Year 2 and thereafter

To provide more specifically for the effects of inflation on the liability for future workers’ compensation benefits, wage inflation         57
factors (cost of living adjustments or COLAs) and medical inflation factors (consumer price index medical or CPIMs) were applied
to the calculation of projected future benefits.The actual rates for these factors for the charge back year (CBY) 2007 and 2006,
respectively, were also used to adjust the methodology’s historical payments to current year constant dollars.




                                            FY 2007 United States Army Annual Financial Statements – Restated Civil Works Financials
     Civil Works Fund
     Principal Financial Statements, Notes and Supplementary Information


     The compensation COLAs and CPIMs used in the FY 2007 projections for various CBYs were as follows:

     CBY            COLA          CPIM
     2007           2.63%         3.74%
     2008           2.90%         4.04%
     2009           2.47%         4.00%
     2010           2.37%         3.94%
     2011+          2.30%         3.94%

     The compensation COLAs and CPIMs used in the FY 2006 projections for various CBYs were as follows:

     CBY            COLA          CPIM
     2006           3.50%         4.00%
     2007           3.13%         4.01%
     2008           2.40%         4.01%
     2009           2.40%         4.01%
     2010+          2.43%         4.09%

     The model’s resulting projections were analyzed by the DOL to ensure that the estimates were reliable.The analysis was based on four
     tests: (1) a sensitive analysis of the model to economic assumptions, (2) a comparison of the percentage change in the liability amount
     by agency to the percentage change in the actual incremental payments, (3) a comparison of the incremental paid losses per case (a
     measure of case-severity) in CBY 2007 and 2006, respectively, to the average pattern observed during the most current three CBYs,
     and (4) a comparison of the estimated liability per case in the 2007 projection, and 2006 respectively, to the average pattern for the
     projections of the most recent three years.

     Other Disclosures

     Other Federal Employment Benefits consist of accrued civilian severance pay.


     Note 18. 	 General Disclosures Related to the Statement of Net
                Cost
      As of September 30                                                          2007                                 2006
      (Amounts in thousands)
      Intragovernmental Costs                                       $                      1,130,000     $                     1,344,517
      Public Costs                                                                         7,485,546                          10,349,745
      Total Costs                                                   $                      8,615,546     $                    11,694,262

      Intragovernmental Earned Revenue                              $                     (2,175,993)    $                    (4,702,252)
      Public Earned Revenue                                                                 (876,394)                           (551,480)
58    Total Earned Revenue                                          $                     (3,052,387)    $                    (5,253,732)

      Net Cost of Operations                                        $                      5,563,159     $                     6,440,530

     Other Information

     Intragovernmental costs and revenue are related to transactions made between two reporting entities within the Federal Government.
     Public costs and revenues are exchange transactions made between the reporting entity and a nonfederal entity.

     The consolidated Statement of Net Cost (SNC) is unique because its principles are driven on understanding the net cost of programs
     and/or organizations that the Federal Government supports through appropriations or other means. This statement provides
     gross and net cost information that can be related to the amount of output or outcome for a given program and/or organization
     administered by a responsible reporting entity.
USACE incurred no costs associated with acquiring, constructing, improving, reconstructing or renovating heritage assets.


Note 19. Disclosures Related to the Statement of Changes in Net
         Position

 As of September 30                                                               2007                                     2006
 (Amounts in thousands)                                          Cumulative Results of    Unexpended        Cumulative Results     Unexpended
                                                                     Operations          Appropriations       of Operations       Appropriations
 Prior Period Adjustments Increases (Decreases)
 to Net Position Beginning Balance

 Changes in Accounting Standards (Note 1.V.)                    $        (450,381) $         (35,335) $                  0 $                       0
 Corrections of Errors (Notes 1.V & 25)                                         0                  0              (740,928)                        0

 Total Prior Period Adjustments                                 $        (450,381) $         (35,335) $           (740,928) $                      0

 Imputed Financing
 Civilian CSRS/FERS Retirement                                  $          86,981 $                       0 $       92,355 $                       0
 Civilian Health                                                          169,002                         0        139,010                         0
 Civilian Life Insurance                                                      405                         0            402                         0
 Judgment Fund                                                              4,442                         0         29,857                         0
 IntraEntity                                                                1,550                         0          1,550                         0

 Total Imputed Financing                                        $         262,330 $                       0 $      263,124 $                       0

Other Information

Prior Period Adjustments: Changes in Accounting Principles.

In accordance with Office of Management and Budget Circular A-136, Financial Reporting Requirements, USACE implemented a new
reporting procedure for FY 2007 to exclude transfer appropriation accounts for parent/child relationships. For further details,
including the impact on USACE Changes in Accounting Principles line item, refer to footnote 1.V., “Prior Period Adjustments and
Changes in Presentations.”

See note 24 - “Restatements,” for corrections of errors reported on the FY 2006 Statement of Changes in Net Position, and the
impact these adjustments have on comparability of the financial statements.

For FY 2007, appropriations received on the Statement of Budgetary Resources (SBR) should not and did not agree with
appropriations received on the Statement of Changes in Net Position (SCNP) due to differences between proprietary and budgetary
accounting concepts and reporting requirements. The difference is due to additional resources of $1.6 billion in appropriated
trust, contributed, and special fund receipts included in Appropriations on the SBR. These funds do not update the proprietary
appropriations received amount reported on the SCNP. Refer to Note 20, “Statement of Budgetary Resources,” for additional                              59
disclosures and details.

In FY 2006, appropriations received on the SBR should not and did not agree with appropriations received on the SCNP due to
differences between proprietary and budgetary accounting concepts and reporting requirements. Appropriated trust, contributed,
and special fund receipts in the amount of $1.5 billion are included in appropriations on the SBR. These funds do not update
the proprietary appropriations received amount reported on the SCNP. Refer to Note 20, “Disclosures Related to Statement of
Budgetary Resources,” for additional disclosures and details.

In the SCNP, all offsetting balances (i.e., transfers-in and transfers-out, revenues and expenses) for intradepartment activity between



                                             FY 2007 United States Army Annual Financial Statements – Restated Civil Works Financials
     Civil Works Fund
     Principal Financial Statements, Notes and Supplementary Information


     earmarked and other (nonearmarked) funds are reported on the same lines. This activity is reported in the eliminations column,
     which appears to contain a zero balance; however, the column contains all appropriate elimination entries, but all net to zero within
     each respective line, except for intraentity imputed financing costs.

     Cumulative Results of Operations - Earmarked Funds ending balance on the SCNP should not and does not agree with the
     Cumulative Results of Operations - Earmarked Funds reported on the Balance Sheet because the cumulative results on the Balance
     Sheet are presented net of eliminations, whereas Cumulative Results of Operations balance for earmarked and other funds on the
     Statement of Changes in Net Position are presented before eliminations.


     Note 20. 	 Disclosures Related to the Statement of Budgetary
                Resources
      As of September 30                                                                           2007                     2006
      (Amounts in thousands)


      Net Amount of Budgetary Resources Obligated for Undelivered Orders
      at the End of the Period                                                             $            3,907,831 $            3,449,748

     Other Information

     Category A apportionments distribute budgetary resources by fiscal quarter. Category B apportionments distribute budgetary
     resources by activity, project, object or a combination of these categories. Exempt budgetary resources are not subject to
     apportionment because they are not appropriated funds. Funding sources for exempt category comes from sources outside the
     Federal Government.

     For FY 2007, the amount of direct and reimbursable obligations incurred against amounts apportioned under Category A in the
     Statement of Budgetary Resources (SBR) includes: $7.2 billion for direct obligations; $37.9 million for direct obligations exempt
     from apportionment; and $8.4 billion for reimbursable obligations. The USACE did not report any reimbursable obligations exempt
     from apportionment. The USACE has no apportionments under Category B. Undelivered orders presented in the SBR include
     undelivered orders-unpaid for both direct and reimbursable funds.

     For FY 2006, the amount of direct and reimbursable obligations incurred against amounts apportioned under Category A in the
     SBR includes: $7.2 billion for direct; $35.5 million for obligations exempt from apportionment; $11.5 billion for reimbursable
     obligations; and $88.0 thousand for reimbursable obligations exempt from apportionment. The USACE has no apportionments under
     Category B. Undelivered orders presented in the SBR include undelivered orders-unpaid for both direct and reimbursable funds.

     Intraentity transactions have not been eliminated because the statements are presented as combined.

     Permanent Indefinite Appropriations - The USACE receives receipts from hydraulic mining in California; leases of land acquired for
     flood control, navigation and allied purposes; and licenses under the Federal Power Act for improvements of navigable water including
60   maintenance and operation of dams. These funds are available for expenditure.

     There are no legal arrangements that affect the use of unobligated balances of budget authority.

     There are differences between amounts reported on the SBR and the SF133, Report on Budget Execution (SF133). Treasury account
     symbol 96X6094 (Advances from the District of Columbia) is not included in the SF133. This money is not from appropriated funds
     and is not included in the Office of Management and Budget’s data. The USACE does include this appropriation in the SBR.

     The President’s Budget with actual figures for FY 2007 has not yet been published. The FY 2009 President’s Budget will include
     actual figures for FY 2007 reporting. The FY 2009 President’s Budget can be found at: http://www.whitehoust.gov/omb, early in FY
     2008. The following chart is a reconciliation of the FY 2008 President’s Budget actual figures for FY 2006 to FY 2006 Statement of
     Budgetary Resources, as required by the Office and Management Budget (OMB) Circular A-136, paragraph 11.4.10.34.
                                                Department of Defense

                                       U.S. Army Corps of Engineers - Civil Works

             Reconciliation of 2006 Year End Statement of Budgetary Resources to 2008 President’s Budget


                                                       (in millions of dollars)


                  Budgetary     Obligations   Offsetting      Net
                  Resources      Incurred      Receipts     Outlays
                  Line 23.90    Line 23.95    Line 02.99   Line 90.00                Explanation for Reconciling Differences
FY 2006 SBR           27,771        18,403        1,907           5,534
Reconciling              (48)          (36)                             7    The SBR includes Treasury symbol 96X6094 for advances
Difference                                                                   from the District of Columbia for work on the Washington
                                                                             Aqueduct. It is not included in the President’s Budget
                                                                             since these are not appropriated funds.
Reconciling               43            43                                   Transfer funds are not included in OMB’s data. Prior to
Difference                                                                   2nd Quarter FY 2006, USACE recorded transfer funds
                                                                             in the ﬁnancial statements. Per OMB Circular A-136,
                                                                             the parent agency should report the budgetary activity
                                                                             for allocation transfers. The child, USACE, shall report
                                                                             the activity relating to the allocation in all of its ﬁnancial
                                                                             statements, except the SBR. Beginning 2nd Quarter FY
                                                                             2006, adjustments were made to zero out the balances
                                                                             in the budgetary accounts imported from the CEFMS
                                                                             trial balances except for the amount needed in SGL
                                                                             4175 to close out SGL 4201. There was residual activity
                                                                             on the SBR from beginning balances in undelivered
                                                                             orders, delivered orders-unpaid, and allocations to be
                                                                             transferred.
Reconciling                                                       1,907      The SBR reduces net outlays by the amount of
Difference                                                                   distributed offsetting receipts. The President's Budget
                                                                             Line Item 90.00 does not.
Reconciling                                         (75)                     General funds suspense accounts are included as
Difference                                                                   distributed offsetting receipts in accordance with
                                                                             Defense, Finance, and Accounting Service guidance. It is
                                                                             not included in the President’s Budget amount.
Reconciling               (5)                                                Appropriation 96X3123 includes budget authority from
Difference                                                                   the Department of Energy. It is not included in the
                                                                             President's Budget.
Reconciling                                          10                      The President's Budget includes payment from the
Difference                                                                   general fund, South Dakota Terrestrial Wildlife Habitat
                                                                             Restoration trust fund. The SBR does not include this.
Reconciling                                          24                      The Bureau of Public Debt reports interest on investments
Difference                                                                   on the accrual basis. This includes interest collected,
                                                                             premium paid, and accrued interest purchased. The
                                                                             President's Budget includes the accrual amount. The
                                                                             SBR includes only the actual interest and tax revenue.
Reconciling                                            8                     Per Treasury Financial Manual, Federal Account Symbols
Difference                                                                   and Titles, receipt account 96R5125 is not a distributed         61
                                                                             offsetting receipt account and is not included in the SBR
                                                                             as a distributed offsetting receipt. It is included in the
                                                                             President’s Budget amount.
Total                 27,761        18,410        1,874           7,448
FY 2008               27,760        18,409        1,873           7,448
President's
Budget
Difference                (1)           (1)          (1)                0    Due to rounding.




                                         FY 2007 United States Army Annual Financial Statements – Restated Civil Works Financials
     Civil Works Fund
     Principal Financial Statements, Notes and Supplementary Information


     Note 21. Reconciliation of Net Cost of Operations (Proprietary)

              to Budget (formerly the Statement of Financing) 

     As of September 30                                                                             2007               2006
     (Amounts in thousands)
     Resources Used to Finance Activities:
     Budgetary Resources Obligated:
     Obligations incurred                                                                       $   15,718,293     $    18,744,186
     Less: Spending authority from offsetting collections and recoveries                            (8,603,750)        (10,819,179)
     Obligations net of offsetting collections and recoveries                                   $    7,114,543     $     7,925,007
     Less: Offsetting receipts                                                                        (521,925)           (502,276)
     Net obligations                                                                            $    6,592,618     $     7,422,731
     Other Resources:
     Donations and forfeitures of property                                                              11,105              19,888
     Transfers in/out without reimbursement                                                             23,539                 186
     Imputed ﬁnancing from costs absorbed by others                                                    262,330             263,124
     Net other resources used to ﬁnance activities                                              $      296,974     $       283,198
     Total resources used to ﬁnance activities                                                  $    6,889,592     $     7,705,929
     Resources Used to Finance Items Not Part of the Net Cost of Operations:
     Change in budgetary resources obligated for goods, services and beneﬁts ordered but
     not yet provided:
        Undelivered Orders                                                                      $    (510,658)     $    (1,030,724)
        Unﬁlled Customer Orders                                                                      (512,057)          (1,043,830)
     Resources that fund expenses recognized in prior periods                                          (20,467)             (23,032)
     Budgetary offsetting collections and receipts that do not affect Net Cost of Operations          521,925              502,276
     Resources that ﬁnance the acquisition of assets                                                   (13,473)               (7,078)
     Other resources or adjustments to net obligated resources that do not affect Net Cost of
     Operations:
        Less: Trust or Special Fund Receipts Related to exchange in the Entity’s Budget                 (10,000)            (10,000)
        Other                                                                                           (34,644)          (114,224)
     Total Resources Used to Finance Items Not Part of the Net Cost of Operations               $     (579,374)    $    (1,726,612)
     Total Resources Used to Finance the Net Cost of Operations                                 $    6,310,218     $     5,959,317
     Components of the Net Cost of Operations That Will Not Require or Generate
     Resources in the Current Period:
     Components Requiring or Generating Resources in Future Period:
     Increase in environmental and disposal liability                                                   14,069             127,880
     Increase in exchange revenue receivable from the public                                            (6,059)            (16,838)
     Other                                                                                              38,498              85,993
     Total components of Net Cost of Operations that will Require or Generate
     Resources in future periods                                                                $       46,508     $       197,035
     Components not Requiring or Generating Resources:
     Depreciation and amortization                                                              $      506,102     $       639,153
     Revaluation of assets or liabilities                                                              396,756            (269,050)
     Other
        Cost of Goods Sold                                                                               2,025                 743
        Operating Material and Supplies Used                                                               254             (23,359)
        Other                                                                                       (1,090,483)            (83,309)
     Total Components of Net Cost of Operations that will not Require or Generate Resources     $     (608,306)    $       264,178
62
     Total components of Net Cost of Operations that will not Require or Generate
     Resources in the Current Period                                                            $     (561,798)    $       461,213
     Net Cost of Operations                                                                     $    5,563,159     $     6,440,530
Other Information

The following note schedule lines are presented as combined instead of consolidated due to intraagency budgetary transactions not
being eliminated:

      Obligations Incurred
      Spending Authority from Offsetting Collections and Recoveries
      Obligations Net of Offsetting Collections and Recoveries
      Offsetting Receipts
      Net Obligations
      Undelivered Orders
      Unfilled Customer Orders

Composition of Other Resources – Other, and Other Resources or Adjustments to Net Obligated Resources that do not Affect Net
Cost of Operations: Other – includes asset donations and the net amount of assets transferred to USACE from other government
agencies.

Composition of Components Requiring or Generating Resources in Future Periods: Other - includes current year Judgment Fund
Contract Disputes Act (CDA) claims and current year unfunded expense for the Federal Employees Compensation Act (FECA)
actuarial liability.

Composition of Components not Requiring or Generating Resources: Other - includes cost capitalization offset expense. The cost
capitalization offset account provides a mechanism to offset all direct costs in the expense accounts when those costs are subsequently
capitalized into an in-process account.




                                                                                                                                          63




                                            FY 2007 United States Army Annual Financial Statements – Restated Civil Works Financials
     Civil Works Fund
     Principal Financial Statements, Notes and Supplementary Information


     Note 22. Earmarked Funds

     As of September 30                                                                  FY 2007
     BALANCE SHEET
     ($ in thousands)                                            Contributed                                                    Consolidated
                                               Special Funds       Funds               Trust Funds           Eliminations          Total
     ASSETS
     Fund balance with Treasury                $       9,172    $     562,877      $         89,257      $                  0   $     661,306
     Investments                                            0                  0          4,038,353                         0       4,038,353
     Accounts and Interest Receivable                  1,858                   0            476,546                         0         478,404
     Plant, Property, and Equipment                    1,041           28,770             1,214,608                         0       1,244,419
     Total Assets                              $      12,071    $     591,647      $      5,818,764      $                  0   $   6,422,482
     LIABILITIES and NET POSITION
     Accounts Payable and Other Liabilities            1,682           18,771                91,428                   (267)           111,614
     Total Liabilities                         $       1,682    $      18,771      $         91,428      $            (267)     $     111,614
     Cumulative Results of Operations                 10,389          572,875             5,727,337              (181,049)          6,129,552
     Total Liabilities and Net Position        $      12,071    $     591,646      $      5,818,765      $       (181,316)      $   6,241,166
     STATEMENT OF NET COST
     Program Costs                             $      13,543    $     320,184      $        992,618      $        (32,111)      $   1,294,234

     Less Earned Revenue                                    0              (61)                      0                  57                 (4)

     Net Program Costs                         $      13,543    $     320,123      $        992,618      $        (32,054)      $   1,294,230
     Net Cost of Operations                    $      13,543    $     320,123      $        992,618      $        (32,054)      $   1,294,230
     STATEMENT OF CHANGES IN NET POSITION
     Net Position Beginning of the Period      $       7,176    $     503,202      $      4,870,287      $                  0   $   5,380,665
     Net Cost of Operations                           13,543          320,123               992,618               (32,054)          1,294,230
     Budgetary Financing Sources                      16,756          394,770             1,588,549              (213,103)          1,786,972
     Other Financing Sources                                0          (4,973)              261,118                         0         256,145
     Change in Net Position                    $       3,213    $      69,674      $        857,049      $       (181,049)      $     748,887
     Net Position End of Period                $      10,389    $     572,876      $      5,727,336      $       (181,049)      $   6,129,552




64
 As of September 30                                                                      FY 2006
 BALANCE SHEET
 ($ in thousands)                                                  Contributed                                                Consolidated
                                             Special Funds           Funds           Trust Funds           Eliminations          Total
 ASSETS
 Fund balance with Treasury                  $         5,287   $        504,200      $       93,727    $                  0   $    603,213
 Investments                                               0                     0         3,571,456                      0       3,571,456
 Accounts and Interest Receivable                      2,099              1,529             419,028                       0        422,656
 Plant, Property and Equipment                         1,092             12,230             828,387                       0        841,708
 Total Assets                                $         8,478   $        517,959      $     4,912,598   $                  0   $   5,439,033
 LIABILITIES and NET POSITION
 Accounts Payable and Other Liabilities                1,301             14,757              42,310                 (138)           58,230
 Total Liabilities                           $         1,301   $         14,757      $       42,310    $            (138)     $     58,230
 Cumulative Results of Operations                      7,176            503,202            4,870,287            207,476           5,588,141
 Total Liabilities and Net Position          $         8,477   $        517,959      $     4,912,597   $        207,338       $   5,646,371
 STATEMENT OF NET COST
 Program Costs                               $         9,198   $        306,934      $      799,790    $        (28,974)      $   1,086,948

 Less Earned Revenue                                       0               (253)                (17)                 253               (17)

 Net Program Costs                           $         9,198   $        306,681      $      799,773    $        (28,721)      $   1,086,931
 Net Cost of Operations                      $         9,198   $        306,681      $      799,773    $        (28,721)      $   1,086,931
 STATEMENT OF CHANGES IN NET POSITION
 Net Position Beginning of the Period        $         2,245   $        454,418      $     4,324,881   $                  0   $   4,781,544
 Net Cost of Operations                                9,198            306,681             799,772             (28,721)          1,086,931
 Budgetary Financing Sources                         14,528             367,234            1,468,281            178,755           2,028,799
 Other Financing Sources                               (399)            (11,769)           (123,103)                      0       (135,271)
 Change in Net Position                      $         4,931   $         48,784      $      545,406    $        207,476       $    806,597
 Net Position End of Period                  $         7,176   $        503,202      $     4,870,287   $        207,476       $   5,588.141


Other Disclosures

All intragovernmental activity within USACE between earmarked and nonearmarked funds has been eliminated from the consolidated
total column, which causes assets to not equal liabilities and net position.

There has been no change in legislation during or subsequent to the reporting periods and before the issuance of the financial
statements that significantly changes the purpose of these funds or that redirects a material portion of the accumulated balances.
                                                                                                                                               65
The USACE has the following Earmarked Funds as of September 30, 2006 and 2007:

Special Funds

Special Recreation Use Fees,Title 16 United States Code (USC) 4601-6a, granted USACE the authority to charge and collect fair and
equitable Special Recreation Use Fees at recreation facilities and campgrounds located at lakes or reservoirs under the jurisdiction of
USACE. Types of allowable fees include daily use fees, admission fees, recreational fees annual pass fees, and other permit type fees.
The revenue is received from the public and is an inflow of resources to the government. The purpose of the fund is to maintain and
operate the recreation and camping facilities.



                                             FY 2007 United States Army Annual Financial Statements – Restated Civil Works Financials
     Civil Works Fund
     Principal Financial Statements, Notes and Supplementary Information


     Hydraulic Mining in California, Debris,Title 33 USC 683, states that those operating hydraulic mines through which debris flows
     in part or in whole to a body restrained by a dam or other work erected by the California Debris Commission shall pay a tax as
     determined by the Federal Energy Regulatory Commission (FERC). The tax is paid annually on a date fixed by FERC. Taxes
     imposed under this code are collected and then expended under the supervision of USACE and the direction of the Department of
     the Army. The revenue is received from the public and is an inflow of resources to the government. The purpose of the fund is for
     repayment of funds advanced by the Federal Government or other agencies for construction, restraining works, settling reservoirs
     and maintenance.

     Payments to States, Flood Control Act of 1954,Title 33 USC 701c-3, established that 75% of all funds received and deposited from
     the leasing of lands acquired by the U.S. for flood control, navigation and allied purposes, including the development of hydroelectric
     power, shall be returned to the state in which the property is located. The USACE collects lease receipts into a receipt account. The
     revenue is received from the public and is an inflow of resources to the government. Funds are appropriated in the amount of 75% of
     the receipts in the following fiscal year and disbursed to the states. The funds may be expended by the states for the benefit of public
     schools and public roads of the county, or counties, in which such property is situated, or for defraying any of the expense of county
     government.

     Maintenance and Operation of Dams and Other Improvements of Navigable Waters,Title 16 USC 803(f), 810, states that whenever a
     reservoir or other improvement is constructed by the U.S., the Federal Power Commission, now known as FERC, shall assess charges
     against any licensee directly benefited, and any amount so assessed shall be paid into the U.S.Treasury. The title further states that all
     charges arising from other licenses, except those charges established by FERC for purpose of administrative reimbursement, shall be
     paid to the U.S.Treasury from which specific allocations will be made. From the specific allocations, 50% of charges from all other
     licenses is reserved and appropriated as a special fund in the U.S.Treasury. This special fund is to be expended under the direction of
     the Secretary of the Army (Secretary) for the maintenance and operation of dams and other navigation structures that are owned by
     the U.S. or for construction, maintenance, or operation of headwater or other improvements of U.S. navigable waters. The revenue is
     received from the public and is an inflow of resources to the government.

     Fund for Nonfederal Use of Disposal Facilities (for dredged material) was established byTitle 33 USC 2326a - This title provides that
     the Secretary may permit the use of any dredged material disposal facility under the jurisdiction of, or managed by, the Secretary
     by a nonfederal interest if the Secretary determines that such use will not reduce the availability of the facility for project purposes.
     The Secretary may impose fees to recover capital, operation and maintenance costs associated with such use. Any monies received
     through collection of fees under this law shall be available to the Secretary, and shall be used by the Secretary, for the operation and
     maintenance of the disposal facility from which the fees were collected. The revenue is received from the public and is an inflow of
     resources to the government.

     Special funds utilize both receipt and expenditure accounts in accounting for and reporting the fund.

     Contributed Funds

     Rivers and Harbors Contributed and Advance Funds, authorized byTitle 33 USC 701h, 702f, and 703, establishes funding to
     construct, improve and maintain levees, water outlets, flood control, debris removal, rectification and enlargement of river channels,
66   etc., in the course of flood control and river/harbor maintenance. Whenever any state or political subdivision thereof shall offer to
     advance funds for a flood control project duly adopted and authorized by law, the Secretary may at his discretion, receive such funds
     and expend the same in the immediate prosecution of such work. Advances are from the public and are inflows of resources to the
     government. This fund utilizes both receipt and expenditure accounts in accounting for and reporting the fund.

     Trust Funds

     South Dakota Terrestrial Wildlife Habitat Restoration Trust Fund was established by Public Law 105-277, Sec. 603. Yearly transfers
     are made from the general fund of the U.S.Treasury to the trust fund for investment purposes. Investment activity is managed by the
     U.S.Treasury, Bureau of Public Debt (BPD). When the fund reaches the aggregate amount of $108.0 million, withdrawals may be
     made by USACE for payment to the state of South Dakota. The state shall use the payments to fund the annually scheduled work for
     wildlife habitat restoration. This fund utilizes both receipt and expenditure accounts in accounting for and reporting the fund.
Coastal Wetlands Restoration Trust Fund is authorized byTitle 16 USC 3951-3956. This title grants parallel authority to USACE,
along with the Environmental Protection Agency and the Fish and Wildlife Service, to work with the state of Louisiana to develop,
review, evaluate and approve a plan that is proposed to achieve a goal of “no net loss of wetlands” in coastal Louisiana. The USACE is
also responsible for allocating funds among the named task force members. Federal contributions are established at 75% of project
costs or 85% if the state has an approved Coastal Wetlands Conservation Plan. This fund is an expenditure account and receives
funding transfers from the Sport Fish Restoration and Boating Trust Fund.

Inland Waterways Trust Fund (IWTF) is authorized byTitle 26 USC 9506. The title made IWTF available for USACE expenditures
for navigation, construction, and rehabilitation projects on inland waterways. Collections into the trust fund are from excise taxes on
fuel used in commercial transportation on inland waterways. The revenue is received from the public and is an inflow of resources
to the government. The collections are invested and investment activity is managed by the BPD. This fund utilizes receipt and
expenditure accounts in accounting for and reporting the fund.

Harbor Maintenance Trust Fund (HMTF) was established byTitle XIV of the Water Resources Development Act (the Act) of 1986,
Public Law 99-662. The HMTF is authorized to recover 100% of USACE eligible operation and maintenance (O&M) expenditures
for the maintenance of commercial navigation in harbors and channels, as well as 100% of the O&M cost of St. Lawrence Seaway
by the St. Lawrence Seaway Development Corporation. As provided in the Act, amounts in HMTF shall be available for making
expenditures to carry out the functions specified in the Act and for the payment of all expenses of administration incurred by the
U.S.Treasury, USACE and the Department of Commerce. Collections are made into the trust fund from fees assessed on port use
associated with imports, imported merchandise admitted into a foreign trade zone, passengers, and movements of cargo between
domestic ports. The collections are invested and investment activity is managed by BPD. The revenue is received from the public and
is an inflow of resources to the government. This fund utilizes receipt and expenditure accounts in accounting for and reporting the
fund.


Note 23. Other Disclosures
The USACE has no assets under capital lease.

Operating Leases

Future GSA rental lease payments due ($ in thousands):

Fiscal Year                      Building Space
   2008                           $70,575
   2009                           $72,692
   2010                           $74,873
   2011                           $77,119
   2012                           $79,432
Total Future Lease Payments      $374,691
                                                                                                                                          67
Note 24. Restatements
The fiscal year 2007 and 2006 financial statements, presented herein, are restated to present USACE’s financial position and
operations in conformity with generally accepted accounting principles (GAAP), and supersede the financial statements originally
issued in November 2007 and 2006 that were not in conformity with GAAP and which should not be relied upon by financial
statement users.

The previously issued financial statements were adjusted to correct a series of misstatements – including valuation errors in
assets, completeness and valuation errors in liabilities and the offsetting impact to revenues and expenses, as well as budgetary



                                             FY 2007 United States Army Annual Financial Statements – Restated Civil Works Financials
     Civil Works Fund
     Principal Financial Statements, Notes and Supplementary Information


     reclassifications and missing disclosures included in Office of Management and Budget form and content guidance. In addition,
     FY 2006 opening balances were adjusted to correct similar misstatements related to prior year financial statements.

     The following table summarizes the effects of management’s adjustments to correct errors in the previously issued fiscal year 2007
     and 2006 financial statements.

                                                                                        As Originally
      Restatements of ﬁscal year 2007 balances ($ in Thousands)                          Reported               As Restated          Difference
                                                                                                                                      Increase/
      Consolidated Balance Sheet:                                                                                                    (Decrease)

      Accounts Receivable - Public                                                  $       1,657,863       $       1,644,574    $       (13,289)
      General Property, Plant and Equipment, Net                                           26,671,291             26,734,595              63,304
      Total Assets (This is the total for all assets line from Balance Sheet)       $      44,529,666       $     44,579,681     $        50,015
      Accounts Payable - Intragovernmental                                                    131,567                128,411              (3,156)
      Other Liabilities - Intragovernmental                                                 1,887,812               1,874,523            (13,289)
      Accounts Payable                                                                        594,790                839,715             244,925
      Environmental and Disposal Liabilities                                                  626,773                656,123              29,350
      Other Liabilities                                                                       660,946                588,926             (72,020)
      Total Liabilities (This is the total for all liabilities line from Balance
      Sheet)                                                                        $       4,166,692       $       4,352,502    $       185,810
      Unexpended Appropriations - Other Funds                                               8,578,322               8,336,552           (241,770)
      Cumulative Results of Operations - Other Funds                                       25,655,100             25,761,077             105,977
      Total Net Position (This is the total for all Net Position Line from 

      Balance Sheet)                                                                $      40,362,974       $     40,227,182     $      (135,793)



      Consolidated Statement of Net Cost:
      Gross Costs                                                                   $       9,230,379       $       8,615,546    $      (614,833)
      Earned Revenue                                                                       (2,739,303)             (3,052,387)          (313,084)
      Net Cost of Operations                                                        $       6,491,076       $       5,563,159    $      (927,917)


      Consolidated Statement of Changes in Net Position:
      Cumulative Results of Operations
        Beginning Balance                                                           $      31,647,065       $     30,955,380     $      (691,685)
        Appropriations Used                                                                 4,695,091               4,540,018           (155,073)
        Imputed Financing from costs absorbed by others                                       237,513                262,330              24,817
        Net Cost of Operations                                                              6,491,076               5,563,159           (927,917)
      Total Ending Cumulative Results of Operations (Total from net change
      cumulative results of operation line of Consolidated Statement of
      Changes in Net Position and therefore will not total the above lines)         $      31,784,652       $     31,890,628     $       105,976
      Unexpended Appropriations
68
        Beginning Balance                                                                   7,443,696               7,046,853           (396,843)
        Appropriations Used                                                                (4,695,091)             (4,540,018)          (155,073)
      Total Ending Unexpended Appropriations (Total from Unexpended
      Appropriations line from Consolidated Statement of Changes in Net
      Position)                                                                     $       8,578,322       $       8,336,552    $      (241,770)


      Combined Statement of Budgetary Resources:
      Unobligated Balance, Brought Forward, Oct 1                                   $       9,368,272       $       9,445,339    $        77,067
      Recoveries of Prior Year Unpaid Obligations                                                       0             491,474            491,474
      Spending Authority from Offsetting Collections - Earned - Collected                  10,401,273             10,417,319              16,046
      Spending Authority from Offsetting Collections - Earned - Change in
      Receivable from Federal Sources                                                      (1,504,481)             (1,792,986)           288,505
Spending Authority from Offsetting Collections - Change in Unﬁlled
Customer Orders - Advance Received                                                          (4,115)             (20,162)             16,047
Spending Authority from Offsetting Collections - Change in Unﬁlled 

Customer Orders - Without Advance from Federal Sources                                   (780,400)            (491,895)            (288,505)

Total Budgetary Resources (Total from Budgetary Resources line of
Combined Statement of Budgetary Resources)                                      $      25,051,979     $     25,620,519      $       568,540
Obligations Incurred - Direct                                                           6,924,552             7,281,595             357,043
Obligations Incurred - Reimbursable                                                     8,479,195             8,436,698             (42,497)
Unobligated balance - Exempt from Apportionment                                           895,064              937,561               42,497
Total Status of Budgetary Resources (Total from Combined Statement
of Budgetary Resources and therefore will not total above lines and will
not total variances from above lines)                                           $      25,051,979     $     25,620,519      $       568,540
Change in Obligated balance:
Unpaid obligations, brought forward Oct 1                                               5,478,111             5,401,044             (77,067)
Total unpaid obligated balance                                                           (943,027)           (1,020,094)            (77,067)
Obligations incurred, net                                                              15,403,747           15,718,293              314,546
Obligated balance, end of period Unpaid Obligations                                     6,045,644             5,791,649            (253,995)
Total, unpaid obligated balance, net, end of period                                     1,909,386             1,655,391            (253,995)
SUM TOTAL POSITIVE AND NEGATIVE OF MAJOR LINE ITEMS FROM 

ABOVE                                                                           $     162,874,747     $    162,225,614      $      (649,133)



                                                                                    As Originally
Restatements of ﬁscal year 2006 balances ($ in Thousands)                            Reported             As Restated           Difference
                                                                                                                                 Increase/
Consolidated Balance Sheet:                                                                                                     (Decrease)

Accounts Receivable - Intragovernmental                                         $       2,407,555     $       2,696,061     $       288,506
Accounts Receivable - Public                                                            1,773,773             1,641,432            (132,341)
General Property, Plant and Equipment, Net                                             26,821,961           26,289,495             (532,466)
Other Assets - Public                                                                     440,839                       0          (440,839)
Total Assets (This is the total for all assets line from Balance Sheet)         $      43,285,588     $     42,468,446      $      (817,142)

Accounts Payable - Intragovernmental                                                       93,841              133,029               39,188

Other Liabilities - Intragovernmental                                                   1,987,573             1,855,231            (132,342)
Accounts Payable - Public                                                                 442,199              862,035              419,836
Environmental and Disposal Liabilities                                                    653,315              657,497                 4,182
Other Liabilities - Public                                                                753,399              693,922              (59,477)
Total Liabilities (This is the total for all liabilities line from Balance
Sheet)                                                                          $       4,194,826     $       4,466,213     $       271,387
Unexpended Appropriations - Other Funds                                                 7,443,696             7,046,853            (396,843)
Cumulative Results of Operations - Other Funds                                         26,058,925           25,367,239             (691,686)
Total Net Position                                                              $      39,090,762     $     38,002,233      $    (1,088,529)
                                                                                                                                                69
Consolidated Statement of Net Cost:
Gross Costs                                                                     $      11,196,356     $     11,694,262      $       497,906
Earned Revenue                                                                         (5,104,928)           (5,253,732)           (148,804)
Net Cost of Operations                                                          $       6,091,428     $       6,440,530     $       349,102




                                             FY 2007 United States Army Annual Financial Statements – Restated Civil Works Financials
     Civil Works Fund
     Principal Financial Statements, Notes and Supplementary Information


      Consolidated Statement of Changes in Net Position:
      Cumulative Results of Operations
      Appropriations Used                                                           $     4,516,312        $      4,913,155    $      396,843
      Prior Period Adjustment                                                                       0             (740,928)         (740,928)
      Imputed Financing From Cost Absorbed by Others                                          261,624               263,124             1,500
      Net Cost of Operations                                                              6,091,428               6,440,530           349,102
      Total Ending Cumulative Results of Operations                                      31,647,066              30,955,380         (691,686)
      Unexpended Appropriations
      Appropriations Used                                                                (4,516,312)             (4,913,155)        (396,843)
      Total Ending Unexpended Appropriations (Total from Unexpended
      Appropriations line from Consolidated Statement of Changes in Net
      Position and will not total above lines and will not total variances from
      above lines)                                                                  $     7,443,696        $      7,046,853    $    (396,843)


      Combined Statement of Budgetary Resources:
      Recoveries of Prior Year Unpaid Obligations                                   $               0      $       418,242     $     418,242
      Spending Authority from Offsetting Collections - Earned - Collected                 9,407,099               9,465,576            58,477
      Spending Authority from Offsetting Collections - Earned - Change in
      Receivable from Federal Sources                                                     1,690,685               1,979,190          288,505
      Spending Authority from Offsetting Collections - Change in Unﬁlled 

      Customer Orders - Advance Received                                                       22,685               (35,792)          (58,477)

      Spending Authority from Offsetting Collections - Change in Unﬁlled 

      Customer Orders - Without Advance from Federal Sources                                 (719,532)           (1,008,037)        (288,505)

      Total Budgetary Resources (Total from Budgetary Resources line of
      Combined Statement of Budgetary Resources and will not total above
      lines)                                                                        $    27,771,283        $     28,189,525    $     418,242
      Obligations Incurred - Direct                                                       6,902,331               7,243,506          341,175
      Unobligated Balance - Apportioned                                                   8,621,365               8,698,433            77,068
      Total Status of Budgetary Resources (Total from Combined Statement
      of Budgetary Resources and will not total above lines)                        $    27,771,283        $     28,189,525    $     418,242
      Distributed Offsetting Receipts                                                    (1,906,618)              (502,276)        (1,404,342)
      SUM TOTAL POSITIVE AND NEGATIVE OF MAJOR LINE ITEMS FROM 

      ABOVE                                                                         $   157,618,031        $    157,066,904    $    (551,127)



     Note 25. Prior Period Adjustments
     Prior Period Adjustments
     To fairly present the fiscal year 2006 Financial Statements, management made the Prior Period Adjustments (PPA) to the fiscal year
     2006 Statement of Changes in Net Position in table below:

                               Account                                                                         Amount

70                             Building & Structures                                     $           (467,955,133)
                               Beginning Balance Accounts Payable                        $                91,861,596
                               Land, Net                                                 $           (197,676,742)
                               Construction in Progress                                  $               (40,510,994)
                               Other Services - Government - Non DoD                     $               (32,362,309)
                               Other Services - Public                                   $           (351,827,385)
                               Revenue (FEMA)                                            $               180,230,246
                               Unearned Revenue Advances - Public                        $                17,948,112
                               Change in Actuarial Liability                             $           (240,002,000)
                               Depreciation, Amortization, and Depletion                 $               114,077,681
                               Total                                                     $           (926,216,928)
The Building and Structures balance was reduced based on a lack of documentation to support the fiscal year 2006 beginning balance.
This entry decreased General Property, Plant and Equipment (PP&E) reported on the Balance Sheet.

Expenses were over accrued in Accounts Payable at the end of FY 2005. Therefore, an adjustment was recorded to remove the over
accrued expenses from FY 2005 and record them in FY 2006. This entry increased expenses in the Statement of Net Cost and
reduced Net Position through the Prior Period Adjustment.

The beginning FY 2006 Land balance was overstated due to unsupported Land Administrative Costs that were included in the
reported Land balance. An entry was made to reduce the Land balance for the unsupported amounts on the Balance Sheet.

The beginning balance for the Construction in Progress (CIP) account was overstated for amounts that should have been removed and
recorded in the proper depreciable asset accounts. Therefore, the CIP balance was reduced and the depreciable asset accounts were
correspondingly increased on the Balance Sheet.

Fiscal year 2005 expenses for Other Services - Government - Non DoD were understated for amounts which were not accrued
at year-end. Therefore, current year expenses were overstated. An adjustment was made to reduce current year expenses on the
Statement of Net Cost.

Fiscal year 2005 expenses for Other Services - Public were understated for amounts which were not accrued at year-end. Therefore,
current year expenses were overstated. An adjustment was made to reduce current year expenses on the Statement of Net Cost.

Reimbursable Revenue was adjusted for amounts recorded in the current fiscal year which should have been recorded in the prior
fiscal year. An adjustment was made to decrease current year revenue. This entry impacted the Statement of Net Cost.

The Unearned Revenue balance was decreased to account for rate errors noted in cost share transactions. This correction impacted
each of the financial statements except for the Statement of Net Cost.

The fiscal year 2005 ending Actuarial Liability balance was recorded to properly account for the current year Change in Actuarial
Liability reported on the FY 2006 Statement of Financing.

The Depreciation,Amortization and Depletion balances were adjusted to correct for retroactive changes of useful life estimates at the
Rock Island, Portland and Galveston Districts. This correction impacted the Statement of Net Cost.

Each of these adjustments is included in the Prior Period Adjustment amount reported in the current year Statement of Changes in
Net Position. The Prior Period Adjustments were recorded in the current year Statement of Changes in Net Position since the FY
2005 financial statements can not be opened, restated, and contained GAAP inconsistencies that can not be quantified. The FY 2005
balances have not been audited. Each of these adjustments has been audited as part of the FY 2006 financial statement audit.



                                                                                                                                        71




                                            FY 2007 United States Army Annual Financial Statements – Restated Civil Works Financials
     Civil Works Fund
     Principal Financial Statements, Notes and Supplementary Information


     Required Supplementary Stewardship Information (RSSI)
                                            Federal Mission Property, Plant and Equipment
                                 Yearly Investment in Federal Mission Property, Plant and Equipment

                                                   For Fiscal Year Ended September 30, 2007
                                                              (In Millions of Dollars)


                                 (a)                                  (b)            (c)             (d)            (e)             (f)
                            Categories                             FY2003          FY2004         FY2005          FY2006         FY2007
      1. Bank Stabilization Projects                                  nr                   $74             $59            $67             $73
      TOTAL:                                                                               $74             $59            $67             $73


     Narrative Statement:

     Investments in Federal Mission Property, Plant and Equipment refer to those expenses incurred by USACE for the protection of the
     riverbanks of the Mississippi River and other navigable waterways inside the continental United States. Stabilization and protection
     of the riverbanks are important to the flood control and navigation plans, serving to protect flood control features and to insure the
     desired alignment of the river’s navigation channel. Stabilizing the riverbanks and channels provides an efficient navigation alignment,
     increases the flood-carrying capacity of the river, and or protection of the levees system to include the tributary basin improvements
     for major drainage. The process by which this is accomplished is by cutoffs (shortening the river and reducing flood heights),
     revetment (controlling the river’s meandering), dikes (directing the flow), and improvement dredging (realigning the river/channel).

     Notes:

          1.	 The USACE does not have historical data for FY 2003, because FY 2004 was our first reporting of Federal Mission
              Property, Plant and Equipment in the Required Supplementary Stewardship Information section of the financial statements.
              (nr = Nonreporting)


          2.	 After major floods in 1882, 1912, 1913 and 1927, the Flood Control Act of 1928 was signed that committed the Federal
              Government to a definite program of flood control. This legislation authorized the Mississippi River and Tributaries
              Project, the nation’s first comprehensive flood control and navigation act.


          3.	 Investment values included in this report are based on Nonfederal Physical Property outlays (expenditures). Outlays are
              used because current DoD systems are unable to capture and summarize costs in accordance with the Federal accounting
              standards requirements.



72
                                                Nonfederal Physical Property

                                     Yearly Investment in State and Local Governments


                                            For Fiscal Year Ended September 30, 2007
                                                       (In Millions of Dollars)


                  (a)                        (b)                (c)                (d)                (e)                (f)
             Categories                   FY2003             FY2004             FY2005             FY2006             FY2007
 Transferred Assets:
 1. Federal Mission Related                  nr                       $4,429             $1,324             $1,229             $1,028
 Funded Assets:
 2. Federal Mission Related                  nr                          $0                 $0                 $0                 $0
 Total:                                                               $4,429             $1,324             $1,229             $1,028


Narrative Statement:

Investments in Nonfederal Property refers to those expenses incurred by USACE for the purchase, construction or major renovation
of physical property owned by State and local governments, including major additions and replacements; the purchase of major
equipment; and the purchase of improvement of other physical assets. The authority to enter into cost sharing agreements with
nonfederal sponsors is governed under numerous Water Resources Development Acts starting with the Act of 1992.

Notes:

     1.	 The USACE does not have historical data for FY 2003 because FY 2004 was our first reporting of Nonfederal Physical
         Property in the Required Supplementary Stewardship Information. The variance in the FY 2004 and FY 2005 amounts is
         due to the FY 2004 figure being a first report cumulative number and the FY 2005 number is for FY 2005 cost share.
         (nr = Nonreporting)


     2.	 Under numerous authorities, USACE provides design, build and construction services/management for the missions of
         commercial navigation, flood/storm damage reduction, hydropower, regulatory, environmental, recreation and water
         supply.


     3.	 Investments values included in this report are based on Nonfederal Physical Property outlays (expenditures). Outlays are
         used because current DoD systems are unable to capture and summarize costs in accordance with the Federal Accounting
         Standards requirements.




                                                                                                                                        73




                                           FY 2007 United States Army Annual Financial Statements – Restated Civil Works Financials
     Civil Works Fund
     Principal Financial Statements, Notes and Supplementary Information


     Required Supplementary Information (RSI)
                                                               Heritage Assets

                                                    For Fiscal Year Ended September 2007


                          (a)                         (b)                (c)                (d)                (e)                 (f)
                   Categories                   Measurement        As of 10/1/06         Additions          Deletions        As of 9/30/07
                                                  Quantity
      Museums                                        Each                          0                                                         0
      Monuments and Memorials                        Each                          0                                                         0
      Cemetaries                                     Sites                         0                                                         0
      Archeological Sites                            Sites                     586                                                       586
      Buildings and Structures                       Each                      353                                                       353
      Major Collections                              Each                          0                                                         0


     Narrative Statement

          1.	 Dollar Amounts. No asset dollar amounts are shown.


          2.	 Relevance to the USACE Mission. On February 14, 1990, the Chief of Engineers and Commanding General of the
              U.S.Army Corps of Engineers, Lieutenant General Henry J. Hatch, issued The Strategic Direction to Environmental Engineering.
              General Hatch said, “… to meet our nation’s and world’s needs, an environmental ethic must be an integral part of how we
              conduct business . . . the environmental aspects of all we do must have equal standing among other aspects – not simply a
              ‘consideration’, but part of the ‘go-no-go’ test, along with economics and engineering.”


          3.	 Stewardship Policy. On 30 October 2003, Engineer Regulation (ER) 200-1-5, Implementation of the USACE Environmental
              Operating Principles, was issued. The ER states, in part, “…[T]he Environmental Operating Principles and associated
              doctrine highlight USACE’s roles in, and responsibilities for, sustainability, preservation, stewardship and restoration of our
              Nation’s . . . resources. These principles and associated doctrine are based on the premise that through the restoration and
              maintenance of environmental health and productivity, both economic development and social equity can be achieved.”


          4.	 Heritage Asset Categories.

              a.	 Based on the current definition provided for Monuments and Memorials, USACE does not administer any properties
                  that meet the qualifying criteria.


74            b.	 The latest listing (October 2, 2007) of the National Register of Historic Places Internet Database (www.cr.nps.gov/
                  nr) has been reviewed. Heritage assets classified as Land are special land plots containing archaeological sites either
                  listed on the National Register of Historic Places or eligible to be listed by the agency and the Keeper of the National
                  Register. Cemeteries and Archeological Sites are archeological properties listed on, or eligible for, listing in the
                  National Register of Historic Places. These archeological assets cover almost the entire range of human occupation
                  of the Continental United States, beginning with the Kennewick Man Discovery Site in Washington State, dating
                  back approximately 10,000 years, to archeological remains of early European-American settlements, including Fort
                  Independence in Georgia. The current National Register inventory for USACE includes 489 archeological properties
                  determined to be eligible for listing and 97 archeological properties listed. This total of 586 archeological properties
                  qualifying as Heritage Assets reflects no change from the previous quarterly report.
          c.	 Buildings and Structures include a range of historic resources from a covered bridge in the Sacramento District to early
              farming structures in the Savannah District. It also includes some non-traditional structures such as a snag boat that
              operated on the Mississippi River. Again, the current National Register of Historic Places Internet Database was reviewed
              for USACE Heritage Assets in the Buildings and Structures category. There are 117 buildings and structures listed on the
              National Register and 236 more that have been determined to be eligible for listing. The total of 353 Heritage Assets in
              this category reflects no change from the previous quarterly report.

                                           General Property, Plant and Equipment
                                        Real Property Deferred Maintenance Amounts

                                                       As of 30 September 2007


                                                          (a)                        (b)
                                           Property Type/ Major Class
                                       1. Real Property
                                       A. Buildings                                           0
                                       B. Structures                                $1,062,358
                                       2. Total                                     $1,062,358


Narrative Statement:

Deferred maintenance at Civil Works water resources projects operated and maintained by the USACE was determined through the
budget development process by which operations managers identify the operation and maintenance (O&M) needs at each project in
the Civil Works inventory. Those needs are based on inspections of project features, engineering analyses and historical experience.




                                                                                                                                          75




                                            FY 2007 United States Army Annual Financial Statements – Restated Civil Works Financials
     Civil Works Fund
     Principal Financial Statements, Notes and Supplementary Information




76
                                                                                           77




FY 2007 United States Army Annual Financial Statements – Restated Civil Works Financials
     Civil Works Fund
     Principal Financial Statements, Notes and Supplementary Information




78
                                                                                           79




FY 2007 United States Army Annual Financial Statements – Restated Civil Works Financials
     Civil Works Fund
     Principal Financial Statements, Notes and Supplementary Information




80
                                                                                           81




FY 2007 United States Army Annual Financial Statements – Restated Civil Works Financials
     Civil Works Fund
     Principal Financial Statements, Notes and Supplementary Information




82
                                                                                           83




FY 2007 United States Army Annual Financial Statements – Restated Civil Works Financials
     Civil Works Fund
     Principal Financial Statements, Notes and Supplementary Information




84
                                                                                           85




FY 2007 United States Army Annual Financial Statements – Restated Civil Works Financials
     Civil Works Fund
     Principal Financial Statements, Notes and Supplementary Information




86
                                                                                           87




FY 2007 United States Army Annual Financial Statements – Restated Civil Works Financials
     Civil Works Fund
     Principal Financial Statements, Notes and Supplementary Information




88
                                                                                           89




FY 2007 United States Army Annual Financial Statements – Restated Civil Works Financials
     Civil Works Fund
     Principal Financial Statements, Notes and Supplementary Information




90
                                                                                           91




FY 2007 United States Army Annual Financial Statements – Restated Civil Works Financials
     Civil Works Fund
     Principal Financial Statements, Notes and Supplementary Information




92
                                                                                           93




FY 2007 United States Army Annual Financial Statements – Restated Civil Works Financials
     Civil Works Fund
     Principal Financial Statements, Notes and Supplementary Information




94
                                                                                           95




FY 2007 United States Army Annual Financial Statements – Restated Civil Works Financials
     Civil Works Fund
     Principal Financial Statements, Notes and Supplementary Information




96
                                                                                           97




FY 2007 United States Army Annual Financial Statements – Restated Civil Works Financials
     Civil Works Fund
     Principal Financial Statements, Notes and Supplementary Information




98
                                                                                           99




FY 2007 United States Army Annual Financial Statements – Restated Civil Works Financials
      Civil Works Fund
      Principal Financial Statements, Notes and Supplementary Information




100
                                                                                                                                        We are interested in your feedback regarding the content of this report.

                                                                                                                                     Please feel free to e-mail your comments to AAFS@hqda.army.mil or write to:


                                                                                                                                                           Department of the Army
                                                                                                                                                      Office of the Deputy Assistant Secretary of the Army

                                                                                                                                                           (Financial Management and Comptroller)

                                                                                                                                                         Office of the Financial Reporting Directorate

                                                                                                                                                               Room 3A312, 109 Army Pentagon

                                                                                                                                                                  Washington, DC 20310-0109


                                                                                                                                        Additional copies of this report can be obtained by sending a written request to 

                                                                                                                                                           the e-mail or mailing address listed above.

About the Cover
Bottom Image: Soldiers from the 3rd Brigade Combat Team, 25th Infantry Division. The smoke is from a controlled IED detonation.
                                                                                                                                     You may also view this document at: http://www.asafm.army.mil/fo/fod/cfo/cfo.asp
Top Image: Soldiers from the 58th Brigade Combat Team practice room-clearing procedures during training.


                                                                                                                                  *Unless otherwise noted, all photos on the cover and inside pages are courtesy of the U.S.Army.
                                                                                       FY 2007 United States Army Annual Financial Statements – Restated Civil Works Financials
                        The Soldier’s Creed
                               I am an American Soldier.

                       I am a Warrior and a member of a team. 

                        I serve the people of the United States 

                               and live the Army Values.


                         I will always place the mission ﬁrst.

                                I will never accept defeat.

                                       I will never quit.

                          I will never leave a fallen comrade.


                       I am disciplined, physically and mentally 

                      tough, trained and proﬁcient in my warrior 

                         tasks and drills. I always maintain my 

                            arms, my equipment and myself.


                       I am an expert and I am a professional.


                        I stand ready to deploy, engage, and 

                      destroy the enemies of the United States 

                             of America in close combat.


                         I am a guardian of freedom and the 

                                American way of life.


                              I am an American Soldier.
                              2007
                                                                                                                                                                                  FY 2007 United States Army Annual Financial Statements – Restated Civil Works Financials



United States Army : 1500 Army Pentagon : Washington, DC, 20310-1500 : www.army.mil                                                                                               Commitment to Current and Future Readiness
